<html>
<title> - SAVE AMERICA COMPREHENSIVE IMMIGRATION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
           SAVE AMERICA COMPREHENSIVE IMMIGRATION ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 750

                               __________

                            NOVEMBER 8, 2007

                               __________

                           Serial No. 110-60

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

38-766 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 8, 2007

                                                                   Page

                            TEXT OF THE BILL

H.R. 750, the ``Save America Comprehensive Immigration Act of 
  2007''.........................................................     2

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................    32
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..    34

                               WITNESSES

The Honorable Carolyn Cheeks Kilpatrick, a Representative in 
  Congress from the State of Michigan
  Oral Testimony.................................................    36
  Prepared Statement.............................................    37
The Honorable Barbara Lee, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................    39
  Prepared Statement.............................................    41
The Honorable Silvestre Reyes, a Representative in Congress from 
  the State of Texas
  Oral Testimony.................................................    42
  Prepared Statement.............................................    44
The Honorable Nancy E. Boyda, a Representative in Congress from 
  the State of Kansas
  Oral Testimony.................................................    45
  Prepared Statement.............................................    46
Mr. William E. Spriggs, PH.D., Chairman, Department of Economics, 
  Howard University
  Oral Testimony.................................................    53
  Prepared Statement.............................................    56
Mr. Gregory Siskind, Partner, Siskind Susser Bland
  Oral Testimony.................................................    64
  Prepared Statement.............................................    65
Mr. Charles H. Kuck, President-Elect, American Immigration 
  Lawyers Association, Adjunct Professor of Law, University of 
  Georgia
  Oral Testimony.................................................    74
  Prepared Statement.............................................    76
Mr. Christopher Nugent, Senior Counsel, Community Services Team, 
  Holland and Knight, LLP
  Oral Testimony.................................................   176
  Prepared Statement.............................................   177
Ms. Kim Gandy, President, National Organization for Women
  Oral Testimony.................................................   180
  Prepared Statement.............................................   181
Mr. T.J. Bonner, President, National Border Patrol Council of the 
  American Federation of Government Employees, AFL-CIO
  Oral Testimony.................................................   183
  Prepared Statement.............................................   186
Ms. Julie Kirchner, Executive Director, Federation for American 
  Immigration Reform
  Oral Testimony.................................................   192
  Prepared Statement.............................................   194

                                APPENDIX

Material Submitted for the Hearing Record........................   211


           SAVE AMERICA COMPREHENSIVE IMMIGRATION ACT OF 2007

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2007

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Berman, Jackson Lee, 
King, Gallegly, Forbes, Gohmert, and Smith.
    Staff Present: Ur Mendoza Jaddou, Majority Chief Counsel; 
J. Traci Hong, Majority Counsel; George Fishman, Minority 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. I understand that two of our witnesses are on 
their way. And so with that in mind, I would like to call the 
hearing on the Subcommittee to order. I would like to welcome 
all the Members, our witnesses, and members of the public to 
the Subcommittee's hearing on H.R. 750, the ``Save America 
Comprehensive Immigration Act of 2007.''
    In the hearing on September 6, our Subcommittee examined 
H.R. 1645, the ``Security Through Regularized Immigration and 
the Vibrant Economy Act of 2007,'' otherwise known as the 
STRIVE Act. Today we will review H.R. 750, the ``Save America 
Comprehensive Immigration Act of 2007.'' Both bills contain the 
necessary elements of comprehensive immigration reform to fix 
our broken immigration system. In addition, the Save America 
Act contains several provisions that would complement the 
STRIVE Act.
    I would like to commend our Subcommittee colleague, 
Congresswoman Sheila Jackson Lee, for not only drafting and 
introducing H.R. 750, but also for her service on behalf of 
comprehensive immigration reform and immigration in general in 
the 110th Congress and in many Congresses before the 110th, 
especially as Ranking Member of this Subcommittee for many 
years. Since I can remember, Representative Jackson Lee has 
always been a tireless champion for immigration reform.
    I was personally disappointed when the Senate was unable to 
proceed on comprehensive reform this spring. We were prepared 
on the House side to tackle this important issue. But because 
of Senate inaction, we didn't get the chance to proceed on 
hearings or a markup on comprehensive immigration reform.
    But the details matter. And today we will get information 
and details on the Save America Act. We can not know what the 
future will hold for comprehensive reform, but we can be armed 
with knowledge about legislation in the House to meet the 
immigration challenge.
    Because this hearing is about Congresswoman Jackson Lee's 
bill, I would like to yield the balance of my time to my 
colleague from Texas so that she may properly introduce the 
subject of our hearing today, before recognizing the Ranking 
Member.
    And so I would yield the balance of my time to Ms. Jackson 
Lee for her opening statement.
    [The text of the bill, H.R. 750, follows:]

<bullet>HR 750 IH  ____________________________________________________
                               <greek-l>

 deg.

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 750

To amend the Immigration and Nationality Act to comprehensively reform 
    immigration law, and for other purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                            January 31, 2007
Ms. Jackson-Lee of Texas introduced the following bill; which was 
    referred to the Committee on the Judiciary, and in addition to the 
    Committees on Homeland Security and Oversight and Government 
    Reform, for a period to be subsequently determined by the Speaker, 
    in each case for consideration of such provisions as fall within 
    the jurisdiction of the committee concerned
                               __________

                                 A BILL

To amend the Immigration and Nationality Act to comprehensively reform 
    immigration law, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE; REFERENCES TO ACT.

    (a) Short Title.--This Act may be cited as the ``Save America 
Comprehensive Immigration Act of 2007''.
    (b) References to the Immigration and Nationality Act.--Except as 
otherwise expressly provided, whenever in this Act an amendment or 
repeal is expressed in terms of an amendment to, or repeal of, a 
section or other provision, the reference shall be considered to be 
made to a section or other provision of the Immigration and Nationality 
Act.

             TITLE I--FACILITATING FAMILY-BASED IMMIGRATION

SEC. 101. INCREASING THE ALLOCATION OF FAMILY-BASED IMMIGRANT VISAS.

    Section 201(c)(8 U.S.C. 115(c)) is amended to read as follows:
    ``(c) Worldwide Level of Family-Sponsored Immigrants.--The 
worldwide level of family-sponsored immigrants under this subsection 
for a fiscal year shall be no more than 960,000.''.

SEC. 102. PROTECTION AGAINST PROCESSING DELAYS.

    (a) Age-Out Protection for Children.--
            (1) In general.--Chapter 1 of title IV (8 U.S.C. 1101 note) 
        is amended by adding at the end the following:
                   ``age-out protection for children
    ``Sec. 408.  (a) In General.--In the case of an application 
initially to grant a benefit under this Act (other than an application 
for naturalization) that otherwise would be granted only after a 
determination that the beneficiary of the application is a child (such 
as classification as an immediate relative under section 
201(b)(2)(A)(i)), if the application is neither approved nor denied (on 
procedural or substantive grounds) during the 90-day period beginning 
on the date of the filing of the application, the beneficiary shall be 
considered to be a child for all purposes related to the receipt of the 
benefit if the beneficiary was a child on the last day of such 90-day 
period, and the beneficiary shall not otherwise be prejudiced with 
respect to such determination by such delay, and shall be considered to 
be a child under this Act for all purposes related to such application.
    ``(b) Termination of Benefit.--Subsection (a) shall remain in 
effect until the termination of the 1-year period beginning on the date 
on which the application described in such paragraph is approved.''.
            (2) Clerical amendment.--The table of contents is amended 
        by inserting after the item relating to section 407 the 
        following:

    ``Sec. 408. Age-out protection for children.''.
    (b) Timeliness of Adoption for Immigration Purposes.--
            (1) In general.--Section 101(b)(1)(E)(i) (8 U.S.C. 
        1101(b)(1)(E)(i)) is amended by striking ``a child adopted 
        while under the age of sixteen years'' and inserting ``a child, 
        under the age of 16 when adoption proceedings were 
        initiated,''.
            (2) Special rule for siblings.--Section 
        101(b)(1)(E)(ii)(III) (8 U.S.C. 1101(b)(1)(E)(ii)(III)) is 
        amended by striking ``adopted while under the age of 18 years'' 
        and inserting ``under the age of 18 when adoption proceedings 
        were initiated''.

SEC. 103. TEMPORARY STATUS PENDING RECEIPT OF PERMANENT RESIDENT 
                    STATUS.

    (a) Classes of Nonimmigrant Aliens.--Section 101(a)(15)(K) (8 
U.S.C. 1101(a)(15)(K)) is amended--
            (1) by striking ``or'' at the end of clause (ii);
            (2) by adding ``or'' at the end of clause (iii); and
            (3) by adding at the end the following:
                            ``(iv)(I) has concluded a valid marriage 
                        with an alien lawfully admitted for permanent 
                        residence, is the parent of a citizen of the 
                        United States, or is the child, son, or 
                        daughter of an alien lawfully admitted for 
                        permanent residence or a citizen of the United 
                        States; (II) is the beneficiary of an approved 
                        petition to accord immigrant status on the 
                        basis of such family relationship that was 
                        filed under section 204 by such family member; 
                        (III) has available to the alien an immigrant 
                        visa number; (IV) has waited more than 6 months 
                        for the issuance of an immigrant visa based 
                        upon an application made by the alien; and (V) 
                        seeks to enter the United States to await such 
                        issuance;''.
    (b) Admission of Nonimmigrants.--Section 214(d) (8 U.S.C. 1184(d)) 
is amended--
            (1) by striking ``(d)'' and inserting ``(d)(1)''; and
            (2) by adding at the end the following:

SEC. 104. ELIMINATION OF AFFIDAVIT OF SUPPORT REQUIREMENT.

    (a) Grounds for Ineligibility for Admission.--Section 212(a)(4) (8 
U.S.C. 1182(a)(4)) is amended--
            (1) by amending subparagraph (B)(ii) to read as follows:
                    ``(ii) If an alien submits an affidavit of support 
                described in section 213A, in addition to the factors 
                under clause (i), the consular officer or the Attorney 
                General shall also consider such affidavit in 
                determining whether the alien is inadmissible under 
                this paragraph.''; and
            (2) by striking subparagraphs (C) and (D).
    (b) Requirements for Sponsor's Affidavit of Support.--Subsections 
(a)(1)(A), (f)(1)(E), and (f)(4)(B)(i) of section 213A (8 U.S.C. 
1183a(a)(1)(A), (f)(1)(E), and (f)(4)(B)(i)) are amended by striking 
``125'' and inserting ``100''.
    ``(2) A visa shall not be issued under the provisions of section 
101(a)(15)(K)(iv) until the consular officer has received a petition 
filed in the United States by the lawful permanent resident or citizen 
relative of the applying alien and approved by the Secretary of 
Homeland Security. The petition shall be in such form and contain such 
information as the Secretary shall, by regulation, prescribe.''.

  TITLE II--ESTABLISHMENT OF A BOARD OF VISA APPEALS FOR FAMILY-BASED 
                                 VISAS

SEC. 201. ESTABLISHMENT OF A BOARD OF VISA APPEALS.

    (a) In General.--The Immigration and Nationality Act is amended by 
inserting after section 224 the following new section:
                        ``board of visa appeals
    ``Sec. 225.  (a) Establishment.--The Secretary of State shall 
establish within the Department of State a Board of Family-based Visa 
Appeals. The Board shall be composed of 5 members who shall be 
appointed by the Secretary. Not more than 2 members of the Board may be 
consular officers. The Secretary shall designate a member who shall be 
chairperson of the Board.
    ``(b) Authority and Functions.--The Board shall have authority to 
review any discretionary decision of a consular officer with respect to 
an alien concerning the denial, revocation, or cancellation of an 
immigrant visa of someone who has the immediate relative status 
described in section 201(2)(A)(i) and (ii); or a preference 
classification described in section 203(a). The review of the Board 
shall be made upon the record for decision of the consular officer, 
including all documents, notes, and memoranda filed with the consular 
officer, supplemented by affidavits and other writings if offered by 
the consular officer or alien. Upon a showing that the decision of the 
consular official is contrary to the preponderance of the evidence, the 
Board shall have authority to overrule, or remand for further 
consideration, the decision of such consular officer.
    ``(c) Procedure.--Proceedings before the Board shall be in 
accordance with such regulations, not inconsistent with this Act and 
sections 556 and 557 of title 5, United States Code, as the Secretary 
of State shall prescribe. Such regulations shall include requirements 
that provide that--
            ``(1) at the time of any decision of a consular officer 
        under subsection (b), the interested party defined in 
        subsection (d) shall be given notice of the availability of the 
        review process and the necessary steps to request such review;
            ``(2) a written record of the proceedings and decision of 
        the consular officer (in accordance with sections 556 and 557 
        of title 5, United States Code) shall be available to the 
        Board, and on payment of lawfully prescribed costs, shall be 
        made available to the alien;
            ``(3) upon receipt of request for review under this 
        section, the Board shall, within 30 days, notify the consular 
        officer with respect to whose decision review is sought, and, 
        upon receipt of such notice, such officer shall promptly (but 
        in no event more than 30 days after such receipt) forward to 
        the Board the record of proceeding as described in subsection 
        (b);
            ``(4) the appellant shall be given notice, reasonable under 
        all the circumstances of the time and place at which the Board 
        proceedings will be held;
            ``(5) the appellant may be represented (at no expense to 
        the Government) by such counsel, authorized to practice in such 
        proceedings, as the appellant shall choose; and
            ``(6) a request for review under this section must be made 
        in writing to the Board within 60 days after receipt of notice 
        of the denial, revocation, or cancellation.
    ``(d) Interested Parties.--The Board shall review each decision 
described in subsection (b) upon request by the petitioner of an 
immigrant visa petition approved under section 201(2)(A)(i) and (ii) or 
203(a).
    ``(e) Construction.--This section may not be construed to restrict 
any right to further administrative or judicial review established 
under any other provision of law.
    ``(f) Fees.--The Secretary of State shall charge, and collect, an 
appropriate fee associated with a request to the Board for a review. 
Such fee shall be sufficient to cover the cost of the administration of 
this section.''.
    (b) Technical Amendments.--
            (1) Section 222(f) (8 U.S.C. 1202(f)) is amended by adding 
        at the end: ``An interested party under section 225(d) or court 
        shall be permitted to inspect the record of proceeding as 
        described in subsections (c)(2) and (c)(3) of section 225.''.
            (2) Section 104(a)(1) (8 U.S.C. 1104(a)(1)) is amended by 
        striking the ``except'' and inserting ``including''.
            (3) The table of contents is amended by inserting after the 
        item relating to section 224 the following new item:

    ``Sec. 225. Board of Visa Appeals.''.

             TITLE III--ELIMINATION OF UNFAIR RESTRICTIONS

SEC. 301. ACQUISITION OF CITIZENSHIP FOR CHILDREN BORN ABROAD AND OUT 
                    OF WEDLOCK TO A UNITED STATES CITIZEN FATHER.

    (a) Requirements for Citizenship Eligibility.--Section 309(a) (8 
U.S.C. 1409(a)) is amended--
            (1) in paragraph (2), by adding ``and'' at the end;
            (2) by striking paragraph (3);
            (3) in paragraph (4), by striking ``while the person is 
        under the age of 18 years--'' and inserting ``at any time--''; 
        and
            (4) by redesignating paragraph (4) as paragraph (3).
    (b) Clarification Regarding Deceased Parents of Children Born 
Abroad and Out of Wedlock.--Section 309 (8 U.S.C. 1409) is amended by 
adding at the end the following:
    ``(d) Nothing in this section shall be construed to preclude a 
person who is a citizen or national of the United States by virtue of a 
provision of this section from establishing such status under this 
title after the death of the person's father, mother, or parents.''.
    (c) Application of Citizenship Provisions.--The amendments made by 
this Act shall apply to persons born out of wedlock who are alive on or 
after the date of the enactment of this Act.

SEC. 302. ALLOW AUNTS AND UNCLES OR GRANDPARENTS TO ADOPT ORPHANED OR 
                    ABANDONED CHILDREN OF THE DECEASED RELATIVE.

    Section 101(b) is amended by--
            (1) striking ``or'' at the end of subparagraph (E) and 
        inserting a semicolon;
            (2) striking the period at the end of subparagraph (F) and 
        inserting ``; or''; and
            (3) by inserting the following subparagraph:
                    ``(G) a child adopted in the United States or 
                abroad or who is coming to the United States for 
                adoption by a grandparent, aunt or uncle while under 
                the age of eighteen years, who has suffered the death 
                or disappearance of, abandonment or desertion by, or 
                separation or loss from, both parents, or for whom the 
                sole or surviving parent is incapable of providing 
                proper care and has consented in writing to the 
                adoption, if the Secretary of Homeland Security is 
                satisfied that proper care will be furnished the child 
                if admitted to the United States. No natural parent or 
                prior adoptive parent of any such child shall 
                thereafter, by virtue of such parentage, be accorded 
                any right, privilege, or status under this Act. Nothing 
                in this subsection shall be construed to require the 
                child to be released to an orphanage as a prerequisite 
                for eligibility.''.

SEC. 303. RELIEF FOR SURVIVING SPOUSES, CHILDREN AND PARENTS.

    (a) In General.--The second sentence of section 201(b)(2)(A)(i) of 
the Immigration and Nationality Act (8 U.S.C. 1151 (b)(2)(A)(i)) is 
amended by striking ``for at least 2 years'' and inserting ``, and if 
married for less than two years at the time of the citizen's death 
proves by a preponderance of the evidence that the marriage was entered 
into in good faith and not solely for the purpose of obtaining an 
immigration benefit,'' after ``within 2 years after such date''; and by 
inserting the following sentence after the sentence ending with 
``remarries'': ``In the case of an alien who was the child or parent of 
a citizen of the United States at the time of the citizen's death, the 
alien shall be considered, for purposes of this subsection, to remain 
an immediate relative after the date of the citizen's death but only if 
the alien files a petition under section 204(a)(1)(A)(ii), as amended, 
within two years after such date in the case of a parent, or prior to 
reaching the age of 21 in the case of a child.''.
    (b) Petition.--Section 204(a)(1)(A)(ii) of the Immigration and 
Nationality Act (8 U.S.C. 1154 (a)(1)(A)(ii) is amended by inserting 
``or an alien child or alien parent described in the third sentence of 
section 201(b)(2)(A)(i)'' after ``section 201(b)(2)(A)(i)''.
    (c) Transition Period.--In applying section 201(b)(2)(A)(i) of the 
Immigration and Nationality Act, as amended, in the case of an alien 
whose citizen relative died before the date of the enactment of this 
Act, the alien relative may (notwithstanding the deadlines specified in 
such subsection) file the classification petition referred to in such 
subsection within 2 years after the date of the enactment of this Act. 
In the case of an alien who was excluded, deported, removed or departed 
voluntarily before the date of the enactment of this Act, such alien 
shall be eligible for parole into the United States pursuant to the 
Attorney General's authority under section 212(d)(5), and such alien's 
application for adjustment of status shall be considered 
notwithstanding section 212(a)(9).
    (d) Adjustment of Status.--Section 245 (8 U.S.C. 1255) of the 
Immigration and Nationality Act is amended by adding at the end the 
following:
    ``(n) Applications for Adjustment of Status by Surviving Spouses, 
Children and Parents.--
            ``(1) In general.--Any alien described in paragraph (2) who 
        applied for adjustment of status prior to the death of the 
        qualifying relative, may have such application adjudicated as 
        if such death had not occurred.
            ``(2) Alien described.--An alien described in this 
        paragraph is an alien who--
                    ``(A) is an immediate relative as described in 
                section 201(b)(2)(A)(i);
                    ``(B) is a family-sponsored immigrant as described 
                in section 203(a) or (d);
                    ``(C) is a derivative beneficiary of an employment-
                based immigrant under section 203(b), as described in 
                section 203(d); or
                    ``(D) is a derivative beneficiary of a diversity 
                immigrant as described in section 203(c).''.
    (e) Transition Period.--Notwithstanding a denial of an application 
for adjustment of status, in the case of an alien whose qualifying 
relative died before the date of the enactment of this Act, such 
application may be renewed by the alien through a motion to reopen, 
without fee, filed within two years after the date of the enactment of 
this Act. In the case of an alien who was excluded, deported, removed 
or departed voluntarily before the date of the enactment of this Act, 
such alien shall be eligible for parole into the United States pursuant 
to the Attorney General's authority under section 212(d)(5), and such 
alien's application for adjustment of status shall be considered 
notwithstanding section 212(a)(9).
    (f) State Department Processing of Immigrant Visas.--Section 204(b) 
of the Immigration and Nationality Act (8 U.S.C. 1154) is amended by 
adding at the end the following:
            ``(7) Effect of death.--
                    ``(A) In general.--Any alien described in 
                subparagraph (B) whose qualifying relative died prior 
                to completion of immigrant visa processing may have an 
                immigrant visa application adjudicated as if such death 
                had not occurred, and any immigrant visa issued prior 
                to the death of the qualifying relative shall remain 
                valid.
                    ``(B) Alien described.--An alien described in this 
                subparagraph is an alien who--
                            ``(i) is an immediate relative as described 
                        in section 201(b)(2)(A)(i);
                            ``(ii) is a family-sponsored immigrant as 
                        described in section 203(a) or (d);
                            ``(iii) is a derivative beneficiary of an 
                        employment-based immigrant under section 
                        203(b), as described in section 203(d); or
                            ``(iv) is a derivative beneficiary of a 
                        diversity immigrant as described in section 
                        203(c).''.
    (g) Transition Period.--Notwithstanding a denial or revocation of 
an application for an immigrant visa, in the case of an alien whose 
qualifying relative died before the date of the enactment of this Act, 
such application may be renewed by the alien through a motion to 
reopen, without fee, filed within two years after the date of the 
enactment of this Act. In the case of an alien who was excluded, 
deported, removed or departed voluntarily before the date of the 
enactment of this Act, such alien's application for an immigrant visa 
shall be considered notwithstanding section 212(a)(9).
    (h) Naturalization.--Section 319(a) of the Immigration and 
Nationality Act (8 U.S.C. 1429(a)) is amended by inserting ``or, if the 
spouse is deceased, the spouse was a citizen of the United States,'' 
after ``(a) Any person whose spouse is a citizen of the United 
States,''.

SEC. 304. ELIMINATING THE WIDOWED PERMANENT RESIDENT'S NATURALIZATION 
                    PENALTY.

    Section 319(a) (8 U.S.C. 1429(a)) is amended by inserting ``or, if 
the spouse is deceased, the spouse was a citizen of the United 
States,'' after ``(a) Any person whose spouse is a citizen of the 
United States,''.

 TITLE IV--PREVENTING SEX OFFENDERS FROM USING OUR IMMIGRATION LAWS TO 
      BRING INNOCENT, UNSUSPECTING VICTIMS INTO THE UNITED STATES

SEC. 401. FINDINGS.

    The Congress finds the following:
            (1) Immigration law allows citizens and aliens lawfully 
        admitted for permanent residence to bring foreign family 
        members to the United States on the basis of immediate relative 
        status or a preference classification.
            (2) Immediate relative status and preference 
        classifications are obtained by filing petitions with the 
        Secretary of Homeland Security.
            (3) For national security purposes, the Secretary of 
        Homeland Security conducts background checks on the 
        beneficiaries of such petitions and, since September 11, 2001, 
        on the petitioners as well.
            (4) The Government Accountability Office (GAO) has 
        determined that, in fiscal year 2005, at least 398 of the 
        petitioners who filed family-based visa petitions were on the 
        National Sex Offender Registry maintained by the Federal Bureau 
        of Investigations.
            (5) GAO was only able to ascertain the nature of the sex 
        offense for 194 of the 398 petitioners.
            (6) GAO was able to ascertain, however, that 119 of the 
        convictions were for sex assault, 35 for child fondling, 9 for 
        strong arm rape, 9 for carnal abuse combined with a sexual 
        assault, 7 were for statutory rape, 4 for crimes against 
        persons, 3 for indecent exposure, 2 for kidnapping, 2 for 
        obscene material possession, 1 for exploitation of a minor with 
        photographs, 1 for incest with a minor, 1 for sodomizing a boy, 
        and 1 for restricting movement.
            (7) At least 14 of the 398 petitioners were classified as 
        ``sexual predators'', which means a determination had been made 
        that they are likely to commit additional sex offenses.
            (8) At least 45 of the petitioners were convicted of sex 
        offenses against children.
            (9) The Immigration and Nationality Act does not provide 
        the Secretary of Homeland Security with authorization to deny 
        family-based petitions on the basis of a petitioner's 
        conviction for a sex offense, even when the conviction record 
        indicates that a spouse or a child beneficiary may be in grave 
        danger.

SEC. 402. DISCRETIONARY AUTHORITY TO DENY FAMILY-SPONSORED 
                    CLASSIFICATION PETITION BY PETITIONER LISTED ON 
                    NATIONAL SEX OFFENDER REGISTRY.

    Section 204 of the Immigration and Nationality Act (8 U.S.C. 1154) 
is amended by adding at the end the following:
    ``(l) Authority To Deny Family-Based Petition by Petitioner Listed 
on National Sex Offender Registry.--
            ``(1) In general.--The Secretary Homeland Security may, in 
        the discretion of the Secretary, deny a petition under 
        subsection (a) for classification of a spouse or child if--
                    ``(A) the Secretary has confirmed that the 
                petitioner is on the national sex offender registry 
                maintained by the Federal Bureau of Investigation for a 
                conviction that individually (disregarding any 
                aggregation due to any other conviction) resulted in 
                incarceration for more than 1 year;
                    ``(B) the petitioner has been given at least 90 
                days to establish that the petitioner is not the person 
                named on the registry or that the conviction did not 
                result in incarceration for more than 1 year and has 
                failed to establish such fact; and
                    ``(C) the Secretary finds that granting the 
                petition would put a primary or derivative spouse or 
                child beneficiary in grave danger of being sexually 
                abused.
            ``(2) Determining danger.--In making the determination 
        under paragraph (1)(C), the Secretary shall use the following 
        principles:
                    ``(A) Nature of the relationship.--In evaluating a 
                petitioner who has filed a petition for a spouse, 
                consideration should be given to indications of how 
                well the petitioner and the spouse know each other. 
                Petitions filed on the basis of marriages between men 
                and women who have had little direct, personal contact 
                with each other should be viewed with suspicion. In 
                cases where the petitioner and the spouse have had 
                little direct, personal contact with each other, 
                evidence should be submitted to establish that they 
                have gotten to know each other in some other way.
                    ``(B) Nature of the sex offense.--Consideration 
                should be given to when each offense occurred for which 
                the petitioner was incarcerated for more than a year, 
                how serious it was, the sentence that was imposed, how 
                long the petitioner was incarcerated, the age of the 
                petitioner when it was committed, and the 
                characteristics of the victim.
                    ``(C) Rehabilitation.--Evidence of rehabilitation 
                should be evaluated with respect to whether it 
                diminishes the risk of sexual abuse to the primary or 
                derivative spouse or child beneficiaries.
                    ``(D) Previous visa petitions.--The records for any 
                previous petitions shall be examined to determine 
                whether they provide or might lead to evidence that is 
                pertinent to determining whether granting the petition 
                would put a primary or derivative spouse or child 
                beneficiary in grave danger of being sexually abused.
            ``(3) Rebuttal.--If the Secretary intends to deny a 
        petition under paragraph (1), the Secretary shall provide the 
        petitioner with a notice that states the reasons for the 
        intended denial and provides the petitioner with at least 90 
        days to submit rebuttal evidence. Rebuttal should focus 
        primarily on the factors that led the Secretary to believe that 
        granting the petition would put a primary or derivative spouse 
        or child beneficiary in grave danger of being sexually abused.
            ``(4) Post-denial remedies.--
                    ``(A) Appeal.--All final denials under paragraph 
                (1) may be appealed to the Board of Immigration 
                Appeals.
                    ``(B) New petition.--The petitioner may file a new 
                petition whenever the petitioner has additional 
                evidence that the petitioner believes might be 
                sufficient to warrant granting the new petition.
            ``(5) Disclosure by the secretary of homeland security to 
        beneficiaries.--In all cases in which it has been confirmed 
        that the name of a petitioner under subsection (a) is listed on 
        the national sex offender registry maintained by the Federal 
        Bureau of Investigation, and regardless of whether the 
        Secretary may exercise discretion under paragraph (1), the 
        Secretary shall give the petitioner at least 90 days to 
        establish that the petitioner is not the person named on the 
        registry. If the petitioner fails to establish that the 
        petitioner is not the person named on the registry within the 
        time allotted, the Secretary shall provide the beneficiaries 
        with a written copy of the information on the registry that is 
        available to the public before making a decision on the 
        petition. The beneficiary shall be informed that the registry 
        information is based on available records and may not be 
        complete.
            ``(6) Disclosure to department of state.--In all cases in 
        which it has been confirmed that the name of a petitioner under 
        subsection (a) is listed on the national sex offender registry 
        maintained by the Federal Bureau of Investigation, and 
        regardless of whether the Secretary may exercise discretion 
        under paragraph (1), the Secretary shall provide the Secretary 
        of State with--
                    ``(A) a separate document with information about 
                the record on the national sex offender registry that 
                is available to the public;
                    ``(B) any additional information it has that raises 
                concern that a primary or derivative spouse or child 
                beneficiary may be subject to sexual abuse, including 
                information from the registry that is not available to 
                the public; and
                    ``(C) information about any previous petitions 
                under subsection (a) filed by the petitioner.
            ``(7) Disclosure by consular officer to beneficiaries.--
        When a petition under subsection (a) is granted, if the 
        petition is filed by a petitioner who has failed to make the 
        demonstration of mis-identification described in paragraph (5), 
        the consular officer shall conduct an interview with the 
        primary or derivative spouse or child beneficiary of the 
        petition before issuing a visa to the beneficiary. At least 
        part of the interview must be held without the presence of the 
        petitioner. During the private part of the interview, the 
        beneficiary will be given a written copy of the information 
        about the petitioner from the registry that is available to the 
        public. This document must be written in the beneficiary's 
        primary language. The consular officer is required to advise 
        the beneficiary that approval of the visa petition does not 
        mean that there are no reasons to be concerned about his or her 
        safety.
            ``(8) Additional responsibilities of consular officer.--The 
        consular officer may return files to the Secretary of Homeland 
        Security for further consideration in cases where the consular 
        officer is concerned that granting the visa might put a primary 
        or derivative spouse or child beneficiary in grave danger of 
        being sexually abused. When returning a file under the previous 
        sentence, the consular officer may add any additional 
        information or observations the officer has that might have a 
        bearing on whether the visa should be granted, including the 
        results of any field examination that has been conducted.''.

SEC. 403. REMOVAL OF CONDITIONAL PERMANENT RESIDENT STATUS.

    (a) Identify and Provide Assistance for Spouses and Children Who 
Are Subject to Sexual Abuse or Related Types of Harm.--Section 
216(d)(3) of the Immigration and Nationality Act (8 U.S.C. 1186a(d)(3)) 
is amended--
            (1) by inserting before ``The interview'' the following:
                    ``(A) In general.--Subject to subparagraph (B), the 
                interview''; and
            (2) by adding at the end the following:
                    ``(B) Petitioner listed on national sex offender 
                registry.--In all cases where the Secretary of Homeland 
                Security has confirmed that a petitioning spouse is 
                listed on the national sex offender registry maintained 
                by the Federal Bureau of Investigation, an interview 
                with the alien spouse, and any alien sons or daughters, 
                shall be required prior to removal of the conditional 
                status, and at least part of the interview shall be 
                held without the presence of the petitioning spouse. 
                During the private portion of the interview, questions 
                will be asked to determine whether an investigation 
                should be conducted regarding the welfare of the alien 
                spouse, or any alien son or daughter. If it is 
                determined that any alien spouse, son, or daughter is 
                being abused or harmed by the petitioning spouse, the 
                victim shall be offered whatever assistance is 
                appropriate, including information on ways to remain in 
                the United State that do not depend on continuing the 
                qualifying marriage.''.
    (b) Hardship Waiver in Cases Where the Alien Spouse or Child Is 
Subject to Sexual Abuse.--Section 216(c)(4) of the Immigration and 
Nationality Act (8 U.S.C. 1186a(c)(4)) is amended--
            (1) in subparagraph (B), by striking ``or'' at the end
            (2) in subparagraph (C), by striking the period at the end 
        and inserting ``, or''; and
            (3) by inserting after subparagraph (C) the following:
                    ``(D) the qualifying marriage was entered into in 
                good faith by the alien spouse and during the marriage 
                the alien spouse, or a son or daughter of the spouse, 
                was sexually abused and the alien was not at fault in 
                failing to meet the requirements of paragraph (1).''.

SEC. 404. SPECIAL TASK FORCE TO IDENTIFY PEOPLE NAMED ON THE NATIONAL 
                    SEX OFFENDER REGISTRY WHO HAVE FILED FAMILY-BASED 
                    CLASSIFICATION PETITIONS.

    (a) In General.--The Secretary of Homeland Security shall establish 
a task force, to be known as the ``Task Force to Rescue Immigrant 
Victims of American Sex Offenders''. The task force shall consist of 
officials from Federal, State, and local law enforcement agencies with 
experience in domestic violence, sex crimes, immigration law, 
trafficking in humans, organized crime, or any other area of experience 
which may be useful in completing the duties described in subsection 
(b).
    (b) Duties.--The duties of the task force shall be the following:
            (1) Working back in time from the date of the establishment 
        of the task force, identifying individuals on the Federal 
        Bureau of Investigation's sex offender registry who have filed 
        family-based petitions under section 204(a) of the Immigration 
        and Nationality Act. When a confirmed match has been made with 
        the sex offender registry, the task force should ascertain 
        whether the petitioner filed previous petitions.
            (2) Maintaining the information about the petitioners in a 
        comprehensive database.
            (3) Prioritizing the information according to the 
        likelihood that primary or derivative spouse or child 
        beneficiaries are in danger of sexual abuse.
            (4) Developing a system for investigating the cases in 
        which beneficiaries may be at risk and providing them with 
        information on how to seek assistance if they are abused.
            (5) Except for information on the registry that is 
        available to the public, protecting the information produced by 
        its investigations in accordance with the privacy rights of 
        everyone involved in the investigation.
            (6) Taking whatever other actions as are reasonable and 
        appropriate when investigations lead to information about 
        sexual abuse or other criminal activities, including notifying 
        State and local police departments, government offices, public 
        organizations that provide assistance to victims of sexual 
        abuse, and religious organizations.
    (c) Report to Congress.--Not later than 270 days after the date of 
the enactment of this Act, the Secretary shall submit to the Congress a 
report on the findings and recommendations of the task force. The 
report shall include the following:
            (1) An analysis of the information obtained in searching 
        visa petition and national sex offender registry records.
            (2) The results of any investigations conducted by the task 
        force.
            (3) Recommendations on administrative and legislative 
        actions that would assist in identifying and protecting 
        immigrant victims of sexual abuse or related harm.

SEC. 405. AUTHORIZATION OF APPROPRIATIONS.

    There are authorized to be appropriated such sums as may be 
necessary to carry out the provisions of this Act. Amounts appropriated 
under this section shall remain available until expended.

SEC. 406. REGULATIONS.

    Regulations implementing this Act shall be promulgated in final 
form not later than 180 days after the date of the enactment of this 
Act.

             TITLE V--LEGALIZATION FOR LONG-TERM RESIDENTS

SEC. 501. EARNED ACCESS TO LEGALIZATION.

    (a) In General.--Chapter 5 of title II (8 U.S.C. 1255 et seq.) is 
amended by inserting after section 245A the following:
  ``adjustment of status on the basis of earned access to legalization
    ``Sec. 245B.  (a) In General.--The Secretary of Homeland Security 
may adjust the status of an alien to that of an alien lawfully admitted 
for permanent residence if the alien--
            ``(1) was physically present in the United States for a 
        continuous period of not less than 5 years immediately 
        preceding the date on which this provision was enacted and has 
        maintained continuous physical presence since then;
            ``(2) has at all times been a person of good moral 
        character;
            ``(3) has never been convicted of a criminal offense in the 
        United States;
            ``(4) in the case of an alien who is 18 years of age or 
        older, but who is not over the age of 65, has successfully 
        completed a course on reading, writing, and speaking words in 
        ordinary usage in the English language, unless unable to do so 
        on account of physical or developmental disability or mental 
        impairment;
            ``(5) in the case of an alien 18 years of age or older, has 
        accepted the values and cultural life of the United States; and
            ``(6) in the case of an alien 18 years of age or older, has 
        performed at least 40 hours of community service.
    ``(b) Treatment of Brief, Casual, and Innocent Absences.--An alien 
shall not be considered to have failed to maintain a continuous 
presence in the United States for purposes of subsection (a)(1) by 
virtue of brief, casual, and innocent absences from the United States.
    ``(c) Admissible as Immigrant.--
            ``(1) In general.--The alien shall establish that the alien 
        is admissible to the United States as immigrant, except as 
        otherwise provided in paragraph (2).
            ``(2) Exceptions.--The provisions of paragraphs (5), 
        (6)(A), (6)(B), (6)(C), (6)(F), (6)(G), (7)(A), (9)(B), and 
        (9)(C)(i)(I) of section 212(a) shall not apply in the 
        determination of an alien's admissibility under this section.
    ``(d) Security and Law Enforcement Clearances.--The alien, if over 
15 years of age, shall submit fingerprints in accordance with 
procedures established by the Secretary of Homeland Security. Such 
fingerprints shall be submitted to relevant Federal agencies to be 
checked against existing databases for information relating to 
criminal, national security, or other law enforcement actions that 
would render the alien ineligible for adjustment of status under this 
section. The Secretary of Homeland Security shall provide a process for 
challenging the accuracy of matches that result in a finding of 
ineligibility for adjustment of status.
    ``(e) Inapplicability of Numerical Limitations.--When an alien is 
granted lawful permanent resident status under this subsection, the 
number of immigrant visas authorized to be issued under any provision 
of this Act shall not be reduced. The numerical limitations of sections 
201 and 202 shall not apply to adjustment of status under this section.
    ``(f) Termination of Proceedings.--The Secretary of Homeland 
Security may terminate removal proceedings without prejudice pending 
the outcome of an alien's application for adjustment of status under 
this section on the basis of a prima facie showing of eligibility for 
relief under this section.''.
    (b) Clerical Amendment.--The table of contents is amended by 
inserting after the item relating to section 245A the following:

    ``Sec. 245B. Adjustment of status on the basis of earned access to 
legalization.''.

SEC. 502. LEGALIZATION PROVISIONS FOR CHILDREN.

    (a) In General.--Chapter 5 of title II (8 U.S.C. 1255 et seq.), as 
amended by section 201, is further amended by inserting after section 
245B the following:
              ``adjustment of status for certain children
    ``Sec. 245C.  (a) In General.--The Secretary of Homeland Security 
may adjust the status of an alien to that of an alien lawfully admitted 
for permanent residence if the alien is a child at the time of filing 
the application for such adjustment and establishes that the alien, at 
such time--
            ``(1) has been physically present and enrolled in school in 
        the United States for a continuous period of not less than 5 
        years immediately preceding the date of such application, and 
        during that period has been a person of good moral character;
            ``(2) has fully integrated into life in the United States;
            ``(3) has learned English or is satisfactorily pursuing a 
        course of study to achieve an understanding of English;
            ``(4) is successfully pursuing an elementary school, middle 
        school, high school, or college-level education; and
            ``(5) if older than 13 years of age, has performed at least 
        60 hours of community service.
    ``(b) Treatment of Brief, Casual, and Innocent Absences.--An alien 
shall not be considered to have failed to maintain a continuous 
presence in the United States for purposes of subsection (a)(1) by 
virtue of brief, casual, and innocent absences from the United States.
    ``(c) Admissible as Immigrant.--
            ``(1) In general.--The alien shall establish that the alien 
        is admissible to the United States as an immigrant, except as 
        otherwise provided in paragraph (2).
            ``(2) Applicability of certain provisions.--
                    ``(A) Grounds of inadmissibility not applied.--The 
                provisions of paragraphs (5), (6)(A), (6)(B), (6)(C), 
                (6)(F), (6)(G), (7)(A), (9)(B), and (9)(C) of section 
                212(a) shall not apply in the determination of an 
                alien's admissibility under this section.
                    ``(B) Waiver of other grounds.--
                            ``(i) In general.--Except as provided in 
                        clause (ii), the Secretary of Homeland Security 
                        may waive any other provision of section 212(a) 
                        in the case of an individual alien for 
                        humanitarian purposes, to assure family unity, 
                        or when it is otherwise in the public interest.
                            ``(ii) Grounds that may not be waived.--The 
                        following provisions of section 212(a) may not 
                        be waived by the Secretary under clause (i):
                                    ``(I) Paragraphs (2)(A) and (2)(B) 
                                (relating to criminals).
                                    ``(II) Paragraph (2)(C) (relating 
                                to drug offenses), except for so much 
                                of such paragraph as relates to a 
                                single offense of simple possession of 
                                30 grams or less of marijuana.
                                    ``(III) Paragraph (3) (relating to 
                                security and related grounds).
    ``(d) No Numerical Limitations.--The numerical limitations of 
sections 201 and 202 shall not apply to adjustment of status under this 
section.
    ``(e) Confidentiality of Information.--Except as provided in this 
section, neither the Secretary of Homeland Security, nor any other 
official or employee of the Department of Homeland Security, may--
            ``(1) use information furnished by applicant for an 
        application filed under this section for any purpose other than 
        to make a determination on the application;
            ``(2) make any publication whereby the information 
        furnished by any particular applicant can be identified; or
            ``(3) permit anyone other than the sworn officers and 
        employees of the Department, the applicant, or a representative 
        of the applicant to examine individual applications.
    ``(f) Dissemination of Information.--The Secretary of Homeland 
Security shall broadly disseminate information respecting the benefits 
which aliens may receive under this section and the requirements to 
obtain such benefits.''.
    (b) Clerical Amendment.--The table of contents, as amended by 
section 201, is amended further by inserting after the item relating to 
section 245B the following:

SEC. 503. UPDATED REGISTRY PROVISION.

    (a) In General.--Section 249 (8 U.S.C. 1259) is amended--
            (1) in the section heading by striking ``1972'' and 
        inserting ``1986''; and
            (2) in paragraph (a), by striking ``1972'' and inserting 
        ``1986''.
    (b) Clerical Amendment.--The table of sections is amended in the 
item relating to section 249 by striking ``1972'' and inserting 
``1986''.

    ``Sec. 245C. Adjustment of status for certain children.''.

                  TITLE VI--BORDER SECURITY PROVISIONS

                  Subtitle A--Rapid Response Measures

SEC. 601. EMERGENCY DEPLOYMENT OF UNITED STATES BORDER PATROL AGENTS.

    (a) In General.--If the Governor of a State on an international 
border of the United States declares an international border security 
emergency and requests additional United States Border Patrol agents 
from the Secretary of Homeland Security, the Secretary is authorized, 
subject to subsections (b) and (c), to provide the State with up to 
1,000 additional United States Border Patrol agents for the purpose of 
patrolling and defending the international border, in order to prevent 
individuals from crossing the international border and entering the 
United States at any location other than an authorized port of entry.
    (b) Consultation.--The Secretary of Homeland Security shall consult 
with the President upon receipt of a request under subsection (a), and 
shall grant it to the extent that providing the requested assistance 
will not significantly impair the Department of Homeland Security's 
ability to provide border security for any other State.
    (c) Collective Bargaining.--Emergency deployments under this 
section shall be made in conformance with all collective bargaining 
agreements and obligations.

SEC. 602. ELIMINATION OF FIXED DEPLOYMENT OF UNITED STATES BORDER 
                    PATROL AGENTS.

    The Secretary of Homeland Security shall ensure that no United 
States Border Patrol agent is precluded from performing patrol duties 
and apprehending violators of law, except in unusual circumstances 
where the temporary use of fixed deployment positions is necessary.

SEC. 603. HELICOPTERS AND POWER BOATS.

    (a) In General.--The Secretary of Homeland Security shall increase 
by not less than 100 the number of United States Border Patrol 
helicopters, and shall increase by not less than 250 the number of 
United States Border Patrol power boats. The Secretary of Homeland 
Security shall ensure that appropriate types of helicopters are 
procured for the various missions being performed. The Secretary of 
Homeland Security also shall ensure that the types of power boats that 
are procured are appropriate for both the waterways in which they are 
used and the mission requirements.
    (b) Use and Training.--The Secretary of Homeland Security shall 
establish an overall policy on how the helicopters and power boats 
described in subsection (a) will be used and implement training 
programs for the agents who use them, including safe operating 
procedures and rescue operations.

SEC. 604. CONTROL OF UNITED STATES BORDER PATROL ASSETS.

    The United States Border Patrol shall have complete and exclusive 
administrative and operational control over all the assets utilized in 
carrying out its mission, including, aircraft, watercraft, vehicles, 
detention space, transportation, and all of the personnel associated 
with such assets.

SEC. 605. MOTOR VEHICLES.

    The Secretary of Homeland Security shall establish a fleet of motor 
vehicles appropriate for use by the United States Border Patrol that 
will permit a ratio of at least one police-type vehicle per every 3 
United States Border Patrol agents. Additionally, the Secretary of 
Homeland Security shall ensure that there are sufficient numbers and 
types of other motor vehicles to support the mission of the United 
States Border Patrol. All vehicles will be chosen on the basis of 
appropriateness for use by the United States Border Patrol, and each 
vehicle shall have a ``panic button'' and a global positioning system 
device that is activated solely in emergency situations for the purpose 
of tracking the location of an agent in distress. The police-type 
vehicles shall be replaced at least every 3 years.

SEC. 606. PORTABLE COMPUTERS.

    The Secretary of Homeland Security shall ensure that each police-
type motor vehicle in the fleet of the United States Border Patrol is 
equipped with a portable computer with access to all necessary law 
enforcement databases and otherwise suited to the unique operational 
requirements of the United States Border Patrol.

SEC. 607. RADIO COMMUNICATIONS.

    The Secretary of Homeland Security shall augment the existing radio 
communications system so all law enforcement personnel working in every 
area where United States Border Patrol operations are conducted have 
clear and encrypted two-way radio communication capabilities at all 
times. Each portable communications device shall be equipped with a 
``panic button'' and a global positioning system device that is 
activated solely in emergency situations for the purpose of tracking 
the location of the agent in distress.

SEC. 608. HAND-HELD GLOBAL POSITIONING SYSTEM DEVICES.

    The Secretary of Homeland Security shall ensure that each United 
States Border Patrol agent is issued a state-of-the-art hand-held 
global positioning system device for navigational purposes.

SEC. 609. NIGHT VISION EQUIPMENT.

    The Secretary of Homeland Security shall ensure that sufficient 
quantities of state-of-the-art night vision equipment are procured and 
maintained to enable each United States Border Patrol agent working 
during the hours of darkness to be equipped with a portable night 
vision device.

SEC. 610. BORDER ARMOR.

    The Secretary of Homeland Security shall ensure that every United 
States Border Patrol agent is issued high-quality body armor that is 
appropriate for the climate and risks faced by the individual officer. 
Each officer shall be allowed to select from among a variety of 
approved brands and styles. Officers shall be strongly encouraged, but 
not mandated, to wear such body armor whenever practicable. All body 
armor shall be replaced at least every 5 years.

SEC. 611. WEAPONS.

    The Secretary of Homeland Security shall ensure that United States 
Border Patrol agents are equipped with weapons that are reliable and 
effective to protect themselves, their fellow officers, and innocent 
third parties from the threats posed by armed criminals. In addition, 
the Secretary shall ensure that the Department's policies allow all 
such officers to carry weapons that are suited to the potential threats 
that they face.

SEC. 612. UNIFORMS.

    The Secretary of Homeland Security shall ensure that all United 
States Border Patrol agents are provided with all necessary uniform 
items, including outerwear suited to the climate, footwear, belts, 
holsters, and personal protective equipment, at no cost to such agents. 
Such items shall be replaced at no cost to such agents as they become 
worn, unserviceable, or no longer fit properly.

                 Subtitle B--Detention Pending Removal

SEC. 621. DETENTION FACILITIES FOR ALIENS ARRESTED FOR ILLEGAL ENTRY.

    The Secretary of Homeland Security shall make arrangements for the 
availability of 100,000 additional beds for detaining aliens taken into 
custody by immigration officials. Some of these beds shall be rented 
from Federal, State, and local detention facilities. The remainder of 
the 100,000 shall be constructed to meet this demand on a temporary 
basis and then converted to other use when they are no longer needed as 
detention facilities.

SEC. 622. EXPANSION AND EFFECTIVE MANAGEMENT OF DETENTION FACILITIES.

    (a) In General.--Subject to the availability of appropriations, the 
Secretary of Homeland Security shall fully utilize--
            (1) all available detention facilities operated or 
        contracted by the Department of Homeland Security;
            (2) all possible options to cost effectively increase 
        available detention capacities, including the use of State and 
        local correctional facilities, private space, and secure 
        alternatives to detention; and
            (3) the Department's Office of Civil Rights and Civil 
        Liberties shall monitor all facilities that are being used to 
        hold detainees for more than 72 hours.
The monitoring will include an evaluation of whether there is 
compliance with the requirements of the Department's Detention 
Operations Manual.
    (b) Secure Alternatives to Detention Program.--
            (1) Nature of the program.--For purposes of this section, 
        the secure alternatives to detention referred to in subsection 
        (a) is a program under which eligible aliens are released to 
        the custody of suitable individual or organizational sponsors 
        who will supervise them, use appropriate safeguards to prevent 
        them from absconding, and ensure that they make required 
        appearances.
            (2) Program development.--The program shall be developed in 
        accordance with the following guidelines:
                    (A) The Secretary shall design the program in 
                consultation with nongovernmental organizations and 
                academic experts in both the immigration and the 
                criminal justice fields. Consideration should be given 
                to methods that have proven successful in appearance 
                assistance programs, such as the appearance assistance 
                program developed by the Vera Institute and the 
                Department of Homeland Security's Intensive Supervision 
                Appearance Program.
                    (B) The program shall utilize a continuum of 
                alternatives based on the alien's need for supervision, 
                including placement of the alien with an individual or 
                organizational sponsor, a supervised group home, or in 
                a supervised, non-penal community setting that has 
                guards stationed along its perimeter.
                    (C) The Secretary shall enter into contracts with 
                nongovernmental organizations and individuals to 
                implement the secure alternatives to detention program.
    (c) Eligibility and Operations.--
            (1) Selection of participants.--The Secretary shall select 
        aliens to participate in the program from designated groups 
        specified in paragraph (4) if the Secretary determines that 
        such aliens are not flight risks or dangers to the community.
            (2) Voluntary participation.--An alien's participation in 
        the program is voluntary and shall not confer any rights or 
        benefits to the alien under the Immigration and Nationality Act 
        (8 U.S.C. 1101 et seq.).
            (3) Limitation on participation.--
                    (A) In general.--Only aliens who are in expedited 
                removal proceedings under section 236 of the 
                Immigration and Nationality Act (8 U.S.C. 1226) may 
                participate in the program.
                    (B) Rules of construction.--
                            (i) Aliens applying for asylum.--Aliens who 
                        have established a credible fear of persecution 
                        and have been referred to the Executive Office 
                        for Immigration Review for an asylum hearing 
                        shall not be considered to be in expedited 
                        removal proceedings and the custody status of 
                        such aliens after service of a Notice to Appear 
                        shall be determined in accordance with the 
                        procedures governing aliens in removal 
                        proceedings under section 240 of such Act (8 
                        U.S.C. 1229a).
                            (ii) Unaccompanied alien children.--
                        Unaccompanied alien children (as defined in 
                        section 462(g)(2) of the Homeland Security Act 
                        (6 U.S.C. 279(g)(2))) shall be considered to be 
                        in the care and exclusive custody of the 
                        Department of Health and Human Services and 
                        shall not be subject to expedited removal and 
                        shall not be permitted to participate in the 
                        program.
            (4) Designated groups.--The designated groups referred to 
        in paragraph (1) are the following:
                    (A) Alien parents who are being detained with one 
                or more of their children, and their detained children.
                    (B) Aliens who have serious medical or mental 
                health needs.
                    (C) Aliens who are mentally retarded or autistic.
                    (D) Pregnant alien women.
                    (E) Elderly aliens who are over the age of 65.
                    (F) Aliens placed in expedited removal proceedings 
                after being rescued from trafficking or criminal 
                operations by Government authorities.
                    (G) Other groups designated in regulations 
                promulgated by the Secretary.
            (5) Implementing regulations.--Not later than 180 days 
        after the date of the enactment of this Act, the Secretary 
        shall promulgate regulations to implement the secure 
        alternatives to detention program and to standardize the care 
        and treatment of aliens in immigration custody based on the 
        Detention Operations Manual of the Department of Homeland 
        Security.
            (6) Decisions regarding program not reviewable.--The 
        decisions of the Secretary regarding when to utilize the 
        program and to what extent and the selection of aliens to 
        participate in the program shall not be subject to 
        administrative or judicial review.
    (d) Reporting Requirements.--Not later than 180 days after the date 
of the enactment of this Act and annually thereafter, the Secretary 
shall submit to the Committee on Homeland Security of the House of 
Representatives, the Committee on the Judiciary of the House of 
Representatives, the Committee on Homeland Security and Governmental 
Affairs of the Senate, and the Committee on the Judiciary of the Senate 
a report that details all policies, regulations, and actions taken to 
comply with the provisions in this section, including maximizing 
detention capacity and increasing the cost-effectiveness of detention 
by implementing the secure alternatives to detention program, and a 
description of efforts taken to ensure that all aliens in expedited 
removal proceedings are residing under conditions that are safe, 
secure, and healthy.
    (e) Authorization of Appropriations.--There are authorized to be 
appropriated to the Secretary of Homeland Security such sums as may be 
necessary to carry out this section. Amounts appropriated pursuant to 
this section shall remain available until expended.

  Subtitle C--Recruitment and Retention of Additional Immigration Law 
                         Enforcement Personnel

SEC. 631. ADDITIONAL UNITED STATES BORDER PATROL AGENTS.

    The Secretary of Homeland Security shall increase the number of 
United States Border Patrol agents by--
            (1) 2,500 in fiscal year 2008;
            (2) 2,750 in fiscal year 2009;
            (3) 3,000 in fiscal year 2010;
            (4) 3,250 in fiscal year 2011; and
            (5) 3,500 in fiscal year 2012.

SEC. 632. PROVISIONS RELATING TO THE EXERCISE OF CERTAIN APPOINTMENT 
                    AND OTHER SIMILAR AUTHORITIES WITH RESPECT TO THE 
                    UNITED STATES BORDER PATROL.

    (a) In General.--Notwithstanding any other provision of law--
            (1) all authority described in subsection (b) that (but for 
        this section) would otherwise be vested in the Secretary of 
        Homeland Security shall instead be vested in the head of the 
        United States Border Patrol;
            (2) an individual may not be appointed or continue to serve 
        as the head of the United States Border Patrol if, at the time 
        of appointment, such individual has not completed at least 20 
        years of service, within the competitive service (as defined by 
        section 2102 of title 5, United States Code), as a United 
        States Border Patrol agent; and
            (3) all activities described in subsection (b) shall be 
        considered inherently Governmental functions and may not be 
        carried out by any persons other than employees of the United 
        States Border Patrol.
    (b) Authorities Described.--This section applies with respect to 
any authority relating to the recruitment, selection, and appointment 
of applicants (including the conducting of any investigation necessary 
to approve or grant security clearances) for United States Border 
Patrol agents, law enforcement officers (other than United States 
Border Patrol agents), and such other positions within the United 
States Border Patrol as the head of the United States Border Patrol may 
by regulation determine.
    (c) Regulations.--The head of the United States Border Patrol shall 
by regulation identify the specific authorities, including citations to 
the relevant provisions of law, rule, or regulation, to which this 
section applies.

SEC. 633. TRAINING FACILITIES.

    The Secretary of Homeland Security shall ensure that the training 
facilities used to train newly-hired United States Border Patrol agents 
are sufficiently spacious and modern to ensure that all recruits are 
afforded the highest possible quality training, as well as reasonably 
comfortable living conditions. All dormitories shall be constructed so 
that each trainee is housed in separate quarters. Moreover, the 
Secretary shall ensure that the training sites selected contains 
adequate housing for all permanent and temporary instructors within the 
local commuting area.

SEC. 634. OPERATIONAL FACILITIES.

    The Secretary of Homeland Security shall ensure that all 
operational facilities of the United States Border Patrol are well-
equipped and sufficiently spacious and modern to enable all of the 
personnel assigned to such facilities to efficiently accomplish the 
agency's mission.

SEC. 635. MAXIMUM STUDENT LOAN REPAYMENTS FOR UNITED STATES BORDER 
                    PATROL AGENTS.

    Section 5379(b) of title 5, United States Code, is amended by 
adding at the end the following:
    ``(4) In the case of an employee (otherwise eligible for benefits 
under this section) who is serving as a full-time active-duty United 
States Border Patrol agent within the Department of Homeland Security--
            ``(A) paragraph (2)(A) shall be applied by substituting 
        `$20,000' for `$10,000'; and
            ``(B) paragraph (2)(B) shall be applied by substituting 
        `$80,000' for `$60,000'.''.

SEC. 636. RECRUITMENT AND RELOCATION BONUSES AND RETENTION ALLOWANCES 
                    FOR PERSONNEL OF THE DEPARTMENT OF HOMELAND 
                    SECURITY.

    The Secretary of Homeland Security shall ensure that the authority 
to pay recruitment and relocation bonuses under section 5753 of title 
5, United States Code, the authority to pay retention bonuses under 
section 5754 of such title, and any other similar authorities available 
under any other provision of law, rule, or regulation, are exercised to 
the fullest extent allowable in order to encourage service in the 
Department of Homeland Security.

SEC. 637. REPEAL OF THE DEPARTMENT OF HOMELAND SECURITY HUMAN RESOURCES 
                    MANAGEMENT SYSTEM.

    (a) Repeal.--
            (1) In general.--Effective as of the date specified in 
        section 4 of the Homeland Security Act of 2002 (6 U.S.C. 101 
        note), chapter 97 of title 5, United States Code (as added by 
        section 841(a)(2) of such Act), section 841(b)(3) of such Act, 
        and subsections (c) and (e) of section 842 of such Act are 
        repealed.
            (2) Regulations.--Any regulations prescribed under 
        authority of chapter 97 of title 5, United States Code, are 
        void ab initio.
    (b) Nullification of Previous Exclusions.--Effective as of the date 
of the enactment of this Act, all previous determinations as to 
whether--
            (1) an agency or subdivision of the Department of Homeland 
        Security (or a predecessor agency or subdivision transferred 
        into the Department) is excluded from coverage under chapter 71 
        of title 5, United States Code,
            (2) a unit or subdivision of a unit within the Department 
        of Homeland Security (or a predecessor agency or subdivision 
        transferred into the Department) is not appropriate for 
        representation by a labor organization under such chapter, or
            (3) an employee or position within the Department of 
        Homeland Security (or a predecessor agency or subdivision 
        transferred into the Department) is within a unit that is not 
        appropriate for representation by a labor organization under 
        such chapter,
are null and void, except to the extent that such determinations were 
made in accordance with the criteria outlined in paragraph (1), (2), 
(3), (4), or (7) of section 7112(b) of such title 5.
    (c) Clerical Amendment.--The table of chapters for part III of 
title 5, United States Code, is amended by striking the item relating 
to chapter 97.

SEC. 638. ESTABLISHMENT OF SPECIALIZED INSPECTOR OCCUPATIONS.

    The Secretary of Homeland Security shall establish within the 
Bureau of Customs and Border Protection 3 distinct inspectional 
occupations: immigration, customs, and agriculture. These divisions 
shall coordinate closely with each other under the direction of a high-
level official within the Bureau, but shall report to separate 
operational chains of command.

SEC. 639. INCREASE IN INSPECTORS AT AIRPORT AND LAND BORDER INSPECTION 
                    STATIONS.

    In each of the fiscal years 2008 through 2012, the Secretary of 
Homeland Security shall increase by not less than 1,000 the number of 
positions for full-time active duty immigration inspectors at airport 
and land border inspection stations within the Department of Homeland 
Security above the number of such positions for which funds were 
allotted for the preceding fiscal year.

SEC. 640. LAW ENFORCEMENT RETIREMENT COVERAGE FOR INSPECTION OFFICERS 
                    AND OTHER EMPLOYEES.

    (a) Amendments.--
            (1) Federal employees' retirement system.--
                    (A) Paragraph (17) of section 8401 of title 5, 
                United States Code, is amended by striking ``and'' at 
                the end of subparagraph (C), and by adding at the end 
                the following:
                    ``(E) an employee (not otherwise covered by this 
                paragraph)--
                            ``(i) the duties of whose position include 
                        the investigation or apprehension of 
                        individuals suspected or convicted of offenses 
                        against the criminal laws of the United States; 
                        and
                            ``(ii) who is authorized to carry a 
                        firearm; and
                    ``(F) an employee of the Internal Revenue Service, 
                the duties of whose position are primarily the 
                collection of delinquent taxes and the securing of 
                delinquent returns;''.
                    (B) Conforming amendment.--Section 8401(17)(C) of 
                title 5, United States Code, is amended by striking 
                ``(A) and (B)'' and inserting ``(A), (B), (E), and 
                (F)''.
            (2) Civil service retirement system.--Paragraph (20) of 
        section 8331 of title 5, United States Code, is amended by 
        inserting after ``position.'' (in the matter before 
        subparagraph (A)) the following: ``For the purpose of this 
        paragraph, the employees described in the preceding provision 
        of this paragraph (in the matter before''including``) shall be 
        considered to include an employee, not otherwise covered by 
        this paragraph, who satisfies clauses (i)-(ii) of section 
        8401(17)(E) and an employee of the Internal Revenue Service the 
        duties of whose position are as described in section 
        8401(17)(F).''.
            (3) Effective date.--Except as provided in subsection (b), 
        the amendments made by this subsection shall take effect on the 
        date of the enactment of this Act, and shall apply only in the 
        case of any individual first appointed (or seeking to be first 
        appointed) as a law enforcement officer (within the meaning of 
        those amendments) on or after such date.
    (b) Treatment of Service Performed by Incumbents.--
            (1) Law enforcement officer and service described.--
                    (A) Law enforcement officer.--Any reference to a 
                law enforcement officer described in this paragraph 
                refers to an individual who satisfies the requirements 
                of section 8331(20) or 8401(17) of title 5, United 
                States Code (relating to the definition of a law 
                enforcement officer) by virtue of the amendments made 
                by subsection (a).
                    (B) Service.--Any reference to service described in 
                this paragraph refers to service performed as a law 
                enforcement officer (as described in this paragraph).
            (2) Incumbent defined.--For purposes of this subsection, 
        the term ``incumbent'' means an individual who--
                    (A) is first appointed as a law enforcement officer 
                (as described in paragraph (1)) before the date of the 
                enactment of this Act; and
                    (B) is serving as such a law enforcement officer on 
                such date.
            (3) Treatment of service performed by incumbents.--
                    (A) In general.--Service described in paragraph (1) 
                which is performed by an incumbent on or after the date 
                of the enactment of this Act shall, for all purposes 
                (other than those to which subparagraph (B) pertains), 
                be treated as service performed as a law enforcement 
                officer (within the meaning of section 8331(20) or 
                8401(17) of title 5, United States Code, as 
                appropriate), irrespective of how such service is 
                treated under subparagraph (B).
                    (B) Retirement.--Service described in paragraph (1) 
                which is performed by an incumbent before, on, or after 
                the date of the enactment of this Act shall, for 
                purposes of subchapter III of chapter 83 and chapter 84 
                of title 5, United States Code, be treated as service 
                performed as a law enforcement officer (within the 
                meaning of such section 8331(20) or 8401(17), as 
                appropriate), but only if an appropriate written 
                election is submitted to the Office of Personnel 
                Management within 5 years after the date of the 
                enactment of this Act or before separation from 
                Government service, whichever is earlier.
            (4) Individual contributions for prior service.--
                    (A) In general.--An individual who makes an 
                election under paragraph (3)(B) may, with respect to 
                prior service performed by such individual, contribute 
                to the Civil Service Retirement and Disability Fund the 
                difference between the individual contributions that 
                were actually made for such service and the individual 
                contributions that should have been made for such 
                service if the amendments made by subsection (a) had 
                then been in effect.
                    (B) Effect of not contributing.--If no part of or 
                less than the full amount required under subparagraph 
                (A) is paid, all prior service of the incumbent shall 
                remain fully creditable as law enforcement officer 
                service, but the resulting annuity shall be reduced in 
                a manner similar to that described in section 
                8334(d)(2) of title 5, United States Code, to the 
                extent necessary to make up the amount unpaid.
                    (C) Prior service defined.--For purposes of this 
                subsection, the term ``prior service'' means, with 
                respect to any individual who makes an election under 
                paragraph (3)(B), service (described in paragraph (1)) 
                performed by such individual before the date as of 
                which appropriate retirement deductions begin to be 
                made in accordance with such election.
            (5) Government contributions for prior service.--
                    (A) In general.--If an incumbent makes an election 
                under paragraph (3)(B), the agency in or under which 
                that individual was serving at the time of any prior 
                service (referred to in paragraph (4)) shall remit to 
                the Office of Personnel Management, for deposit in the 
                Treasury of the United States to the credit of the 
                Civil Service Retirement and Disability Fund, the 
                amount required under subparagraph (B) with respect to 
                such service.
                    (B) Amount required.--The amount an agency is 
                required to remit is, with respect to any prior 
                service, the total amount of additional Government 
                contributions to the Civil Service Retirement and 
                Disability Fund (above those actually paid) that would 
                have been required if the amendments made by subsection 
                (a) had then been in effect.
                    (C) Contributions to be made ratably.--Government 
                contributions under this paragraph on behalf of an 
                incumbent shall be made by the agency ratably (on at 
                least an annual basis) over the 10-year period 
                beginning on the date referred to in paragraph (4)(C).
            (6) Exemption from mandatory separation.--Nothing in 
        section 8335(b) or 8425(b) of title 5, United States Code, 
        shall cause the involuntary separation of a law enforcement 
        officer (as described in paragraph (1)) before the end of the 
        3-year period beginning on the date of the enactment of this 
        Act.
            (7) Regulations.--The Office shall prescribe regulations to 
        carry out this section, including--
                    (A) provisions in accordance with which interest on 
                any amount under paragraph (4) or (5) shall be 
                computed, based on section 8334(e) of title 5, United 
                States Code; and
                    (B) provisions for the application of this 
                subsection in the case of--
                            (i) any individual who--
                                    (I) satisfies subparagraph (A) (but 
                                not subparagraph (B)) of paragraph (2); 
                                and
                                    (II) serves as a law enforcement 
                                officer (as described in paragraph (1)) 
                                after the date of the enactment of this 
                                Act; and
                            (ii) any individual entitled to a survivor 
                        annuity (based on the service of an incumbent, 
                        or of an individual under clause (i), who dies 
                        before making an election under paragraph 
                        (3)(B)), to the extent of any rights that would 
                        then be available to the decedent (if still 
                        living).
            (8) Rule of construction.--Nothing in this subsection shall 
        be considered to apply in the case of a reemployed annuitant.

SEC. 641. REESTABLISHMENT OF THE UNITED STATES BORDER PATROL ANTI-
                    SMUGGLING UNIT.

    The Secretary of Homeland Security shall reestablish the Anti-
Smuggling Unit within the Office of United States Border Patrol, and 
shall immediately staff such office with a minimum of 500 criminal 
investigators selected from within the ranks of the United States 
Border Patrol. Staffing levels shall be adjusted upward periodically in 
accordance with workload requirements.

SEC. 642. ESTABLISHMENT OF SPECIALIZED CRIMINAL INVESTIGATOR 
                    OCCUPATIONS.

    The Secretary of Homeland Security shall establish specialized 
Criminal Investigator occupations within the Department: one for the 
investigation of violations of immigration laws, another for customs 
laws, and a third for agriculture laws. These divisions shall 
coordinate closely with each other under the direction of a high-level 
official within the Department, but shall report to separate 
operational chains of command.

SEC. 643. ESTABLISHMENT OF CAREER PATHS TO CRIMINAL INVESTIGATOR 
                    POSITIONS.

    The Secretary of Homeland Security shall ensure that all persons 
selected for criminal investigator positions within the Department of 
Homeland Security possess a minimum of 3 years of field experience 
within the Department or its predecessor agencies in the specialized 
area of law that will be investigated.

SEC. 644. ADDITIONAL IMMIGRATION ENFORCEMENT AGENTS.

    In each of fiscal years 2008 through 2012, the Secretary of 
Homeland Security shall increase by not less than 500 the number of 
positions for full-time active duty immigration enforcement agents 
responsible for transporting and guarding detained aliens above the 
number of such positions for which funds were allotted for the 
preceding fiscal year.

SEC. 645. INCREASE UNITED STATES BORDER PATROL AGENT AND INSPECTOR PAY.

    (a) In General.--Effective as of the first day of the first 
applicable pay period beginning on or after the date of the enactment 
of this Act, the rate of basic pay for all employees of the Department 
of Homeland Security described in subsection (b) shall be increased in 
accordance with subsection (c).
    (b) Employees Described.--This section applies to any individual 
who, as of the date of the enactment of this Act--
            (1) is a journey level United States Border Patrol agent or 
        immigration, customs, or agriculture inspector within the 
        Department of Homeland Security, whose primary duties consist 
        of enforcing the immigration, customs, or agriculture laws of 
        the United States;
            (2) has completed at least one year of service as a United 
        States Border Patrol agent or inspector (whether as an employee 
        of the Department of Homeland Security, the Department of 
        Justice, or both agencies combined); and
            (3) is receiving an annual rate of basic pay for positions 
        at GS-11 of the General Schedule under section 5332 of title 5, 
        United States Code.
    (c) Increase Described.--The basic rate of pay for the employees 
described in this subsection shall increase from the annual rate of 
basic pay for positions at GS-11 of the General Schedule to the annaul 
rate of basic pay for positions at GS-13 of such schedule.

SEC. 646. FAIR LABOR STANDARDS ACT OVERTIME.

    Notwithstanding any other provisionof law, all overtime hours 
worked on and after the date of the enactment of this Act by all 
employees of the Department of Homeland Security who are at or below 
the second-line level of field supervision shall be compensated in 
accordance with the provisions of the Fair Labor Standards Act.

  Subtitle D--Enforcement Tools to Diminish Entries Using Fraudulent 
                Documents and Commercial Alien Smuggling

SEC. 651. FOREIGN LANGUAGE TRAINING.

    The Secretary of Homeland Security shall require all officers of 
the Department of Homeland Security who come into contact with aliens 
who have crossed the border illegally to take Spanish and other 
appropriate foreign language training courses to facilitate 
communication with the aliens.

SEC. 652. FOREIGN LANGUAGE AWARDS.

    (a) Special Rules.--The Secretary of Homeland Security shall apply 
section 4523 of title 5, United States Code, in conformance with the 
following:
            (1) Any law enforcement officer within the Department of 
        Homeland Security whose primary duties involve--
                    (A) the enforcement of the immigration laws of the 
                United States,
                    (B) the detention or transportation of violators of 
                the immigration laws of the United States, or
                    (C) both,
        shall, for purposes of such section 4523, be presumed to make 
        substantial use of a foreign language in the performance of 
        such officer's official duties.
            (2)(A) Any individual who successfully completes a foreign 
        language program as part of their agency-sponsored or agency-
        approved training shall be deemed to possess the foreign 
        language proficiency necessary to qualify for an award under 
        such section for so long as such individual serves as a law 
        enforcement officer within the Department of Homeland Security.
            (B) Nothing in this paragraph shall, in the case of any 
        individual who does not satisfy subparagraph (A), prevent such 
        individual from being allowed to demonstrate foreign language 
        proficiency in accordance with the criteria and procedures that 
        would otherwise apply under such section.
            (3) For purposes of applying subsection (a) of such section 
        4523, substitute ``equal to'' for ``up to''.
    (b) Definition.--For purposes of this section, the term ``law 
enforcement officer'' has the meaning given such term by section 4521 
of such title 5.

SEC. 653. ADDITIONAL PERSONNEL FOR INVESTIGATION OF FRAUDULENT SCHEMES 
                    AND DOCUMENT FRAUD.

    The Secretary of Homeland Security shall hire at least 1000 
additional investigators for investigating fraudulent schemes, 
including benefit application schemes, and fraudulent documents used to 
enter or remain in the United States unlawfully.

SEC. 654. ESTABLISH A SPECIAL TASK FORCE FOR COORDINATING AND 
                    DISTRIBUTING INFORMATION ON FRAUDULENT IMMIGRATION 
                    DOCUMENTS.

    (a) In General.--The Secretary of Homeland Security shall establish 
a Fraudulent Documents Task Force to carry out the following:
            (1) Collect information from Federal, State, and local law 
        enforcement agencies, and foreign governments on the 
        production, sale, distribution and use of fraudulent documents 
        intended to be used to enter, travel or remain within the 
        United States unlawfully.
            (2) Maintain the information described in subpart (1) in a 
        comprehensive database.
            (3) Maintain a repository of genuine and fraudulent travel 
        and identity document exemplars.
            (4) Convert the information collected into reports that 
        provide guidance to government officials in identifying 
        fraudulent documents being used to enter into, travel within or 
        remain in the United States.
            (5) Develop a system for distributing these reports on an 
        ongoing basis to appropriate Federal, State, and local law 
        enforcement agencies.
    (b) Distribution of Information.--The task force will distribute 
the reports to appropriate Federal, State, and local law enforcement 
agencies on an ongoing basis.

SEC. 655. NEW NONIMMIGRANT VISA CLASSIFICATION TO ENABLE INFORMANTS TO 
                    ENTER THE UNITED STATES AND REMAIN TEMPORARILY.

    (a) In General.--Section 101(a)(15)(S) (8 U.S.C. 1101(a)(15)(S)) is 
amended
            (1) in clause (i), by striking ``or'' at the end;
            (2) in clause (ii), by striking the comma at the end and 
        inserting ``; or'';
            (3) by inserting after clause (ii) the following:
                            ``(iii) who the Secretary of Homeland 
                        Security, the Secretary of State, or the 
                        Attorney General determines--
                                    ``(I) is in possession of critical 
                                reliable information concerning a 
                                commercial alien smuggling organization 
                                or enterprise or a commercial operation 
                                for making or trafficking in documents 
                                to be used for entering or remaining in 
                                the United States unlawfully;
                                    ``(II) is willing to supply or has 
                                supplied such information to a Federal 
                                or State court; or
                                    ``(III) whose presence in the 
                                United States the Secretary of Homeland 
                                Security, the Secretary of State, or 
                                the Attorney General determines is 
                                essential to the success of an 
                                authorized criminal investigation, the 
                                successful prosecution of an individual 
                                involved in the commercial alien 
                                smuggling organization or enterprise, 
                                or the disruption of such organization 
                                or enterprise or a commercial operation 
                                for making or trafficking in documents 
                                to be used for entering or remaining in 
                                the United States unlawfully.'';
            (4) by inserting ``, or with respect to clause (iii), the 
        Secretary of Homeland Security, the Secretary of State, or the 
        Attorney General'' after ``jointly''; and
            (5) by striking ``(i) or (ii)'' and inserting ``(i), (ii), 
        or (iii)''.
    (b) Admission of Nonimmigrants.--Section 214(k) (8 U.S.C. 1184(k)) 
is amended--
            (1) by adding at the end of paragraph (1) the following: 
        ``The number of aliens who may be provided a visa as 
        nonimmigrants under section 101(a)(15)(S)(iii) in any fiscal 
        year may not exceed 400.''; and
            (2) by adding at the end the following:
            ``(5) If the Secretary of Homeland Security, the Secretary 
        of State, or the Attorney General determines that a 
        nonimmigrant described in clause (iii) of section 
        101(a)(15)(S), or that of any family member of such a 
        nonimmigrant who is provided nonimmigrant status pursuant to 
        such section, must be protected, such official may take such 
        lawful action as the official considers necessary to effect 
        such protection.''.

SEC. 656. ADJUSTMENT OF STATUS WHEN NEEDED TO PROTECT INFORMANTS.

    Section 245(j) (8 U.S.C. 1255(j)) is amended--
            (1) in paragraph (3), by striking ``(1) or (2),'' and 
        inserting ``(1), (2), (3), or (4),'';
            (2) by redesignating paragraph (3) as paragraph (5);
            (3) by inserting after paragraph (2) the following:
            ``(3) if, in the opinion of the Secretary of Homeland 
        Security, the Secretary of State, or the Attorney General--
                    ``(A) a nonimmigrant admitted into the United 
                States under section 101(a)(15)(S)(iii) has supplied 
                information described in subclause (I) of such section; 
                and
                    ``(B) the provision of such information has 
                substantially contributed to the success of a 
                commercial alien smuggling investigation or an 
                investigation of the sale or production of fraudulent 
                documents to be used for entering or remaining in the 
                United States unlawfully, the disruption of such an 
                enterprise, or the prosecution of an individual 
                described in subclause (III) of that section,
        the Secretary of Homeland Security may adjust the status of the 
        alien (and the spouse, children, married and unmarried sons and 
        daughters, and parents of the alien if admitted under that 
        section) to that of an alien lawfully admitted for permanent 
        residence if the alien is not described in section 
        212(a)(3)(E).
            ``(4) The Secretary of Homeland Security may adjust the 
        status of a nonimmigrant admitted into the United States under 
        section 101(a)(15)(S)(iii) (and the spouse, children, married 
        and unmarried sons and daughters, and parents of the 
        nonimmigrant if admitted under that section) to that of an 
        alien lawfully admitted for permanent residence on the basis of 
        a recommendation of the Secretary of State or the Attorney 
        General.''; and
            (4) by adding at the end the following:
            ``(6) If the Secretary of Homeland Security, the Secretary 
        of State, or the Attorney General determines that a person 
        whose status is adjusted under this subsection must be 
        protected, such official may take such lawful action as the 
        official considers necessary to effect such protection.''.

SEC. 657. REWARDS PROGRAM.

    (a) Rewards Program.--Section 274 (8 U.S.C. 1324) is amended by 
adding at the end the following:
    ``(e) Rewards Program.--
            ``(1) In general.--There is established in the Department 
        of Homeland Security a program for the payment of rewards to 
        carry out the purposes of this section.
            ``(2) Purpose.--The rewards program shall be designed to 
        assist in the elimination of commercial operations to produce 
        or sell fraudulent documents to be used for entering or 
        remaining in the United States unlawfully and to assist in the 
        investigation, prosecution, or disruption of a commercial alien 
        smuggling operation.
            ``(3) Administration.--The rewards program shall be 
        administered by the Secretary of Homeland Security, in 
        consultation, as appropriate, with the Attorney General and the 
        Secretary of State.
            ``(4) Rewards authorized.--In the sole discretion of the 
        Secretary of Homeland Security, such Secretary, in 
        consultation, as appropriate, with the Attorney General and the 
        Secretary of State, may pay a reward to any individual who 
        furnishes information or testimony leading to--
                    ``(A) the arrest or conviction of any individual 
                conspiring or attempting to produce or sell fraudulent 
                documents to be used for entering or remaining in the 
                United States unlawfully or to commit an act of 
                commercial alien smuggling involving the transportation 
                of aliens;
                    ``(B) the arrest or conviction of any individual 
                committing such an act;
                    ``(C) the arrest or conviction of any individual 
                aiding or abetting the commission of such an act;
                    ``(D) the prevention, frustration, or favorable 
                resolution of such an act, including the dismantling of 
                an operation to produce or sell fraudulent documents to 
                be used for entering or remaining in the United States, 
                or commercial alien smuggling operations, in whole or 
                in significant part; or
                    ``(E) the identification or location of an 
                individual who holds a key leadership position in an 
                operation to produce or sell fraudulent documents to be 
                used for entering or remaining in the United States 
                unlawfully or a commercial alien smuggling operation 
                involving the transportation of aliens.
            ``(5) Authorization of appropriations.--There are 
        authorized to be appropriated such sums as may be necessary to 
        carry out this subsection. Amounts appropriated under this 
        paragraph shall remain available until expended.
            ``(6) Ineligibility.--An officer or employee of any 
        Federal, State, local, or foreign government who, while in 
        performance of his or her official duties, furnishes 
        information described in paragraph (4) shall not be eligible 
        for a reward under this subsection for such furnishing.
            ``(7) Protection measures.--If the Secretary of Homeland 
        Security, the Secretary of State, or the Attorney General 
        determines that an individual who furnishes information or 
        testimony described in paragraph (4), or any spouse, child, 
        parent, son, or daughter of such an individual, must be 
        protected, such official may take such lawful action as the 
        official considers necessary to effect such protection.
            ``(8) Limitations and certification.--
                    ``(A) Maximum amount.--No reward under this 
                subsection may exceed $100,000, except as personally 
                authorized by the Secretary of Homeland Security.
                    ``(B) Approval.--Any reward under this subsection 
                exceeding $50,000 shall be personally approved by the 
                Secretary of Homeland Security.
                    ``(C) Certification for payment.--Any reward 
                granted under this subsection shall be certified for 
                payment by the Secretary of Homeland Security.''.

SEC. 658. OUTREACH PROGRAM.

    Section 274 (8 U.S.C. 1324), as amended by subsection (a), is 
further amended by adding at the end the following:
    ``(f) Outreach Program.--The Secretary of Homeland Security, in 
consultation, as appropriate, with the Attorney General and the 
Secretary of State, shall develop and implement an outreach program to 
educate the public in the United States and abroad about--
            ``(1) the penalties for--
                    ``(A) bringing in and harboring aliens in violation 
                of this section; and
                    ``(B) participating in a commercial operation for 
                making, or trafficking in, documents to be used for 
                entering or remaining in the United States unlawfully; 
                and
            ``(2) the financial rewards and other incentives available 
        for assisting in the investigation, disruption, or prosecution 
        of a commercial smuggling operation or a commercial operation 
        for making, or trafficking in, documents to be used for 
        entering or remaining in the United States unlawfully.''.

                TITLE VII--EMPLOYMENT-BASED IMMIGRATION

SEC. 701. UNFAIR IMMIGRATION-RELATED EMPLOYMENT PRACTICES.

    Section 274B (8 U.S.C. 1324b) is amended--
            (1) in subsection (a)(5)--
                    (A) by amending the paragraph heading to read 
                ``Prohibition of Intimidation, Retaliation, or Unlawful 
                Discrimination in Employment'';
                    (B) by moving the text down and to the right 2 ems;
                    (C) by inserting before such text the following: 
                ``(A) in general.--''; and
                    (D) by adding at the end the following:
                    ``(B) Federal labor or employment laws.--It is an 
                unfair employment practice for any employer to directly 
                or indirectly threaten any individual with removal or 
                any other adverse consequences pertaining to that 
                individual's immigration status or employment benefits 
                for the purpose of intimidating, pressuring, or 
                coercing any such individual not to exercise any right 
                protected by State or Federal labor or employment law 
                (including section 7 of the National Labor Relations 
                Act (29 U.S.C. 157)), or for the purpose of retaliating 
                against any such individual for having exercised or 
                having stated an intention to exercise any such right.
                    ``(C) Discrimination based on immigration status.--
                It is an unfair employment practice for any employer, 
                except to the extent specifically authorized or 
                required by law, to discriminate in any term or 
                condition of employment against any individual employed 
                by such employer on the basis of such individual's 
                immigration status.''; and
            (2) in subsection (c)(2), by adding at the end the 
        following: ``The Special Counsel shall not disclose to the 
        Secretary of Homeland Security or any other government agency 
        or employee, and shall not cause to be published in a manner 
        that discloses to the Secretary of Homeland Security or any 
        other government agency or employee, any information obtained 
        by the Special Counsel in any manner concerning the immigration 
        status of any individual who has filed a charge under this 
        section, or the identity of any individual or entity that is a 
        party or witness to a proceedings brought pursuant to such 
        charge. The Secretary of Homeland Security may not rely, in 
        whole or in part, in any enforcement action or removal 
        proceeding, upon any information obtained as a result of the 
        filing or prosecution of an unfair immigration-related 
        employment practice charge. For purposes of this paragraph, the 
        term `Special Counsel' includes individuals formerly appointed 
        to the position of Special Counsel and any current or former 
        employee of the office of the Special Counsel. Whoever 
        knowingly uses, publishes, or permits information to be used in 
        violation of this paragraph shall be fined not more than 
        $10,000.''.

SEC. 702. DEPARTMENT OF LABOR TASK FORCE.

    The Secretary of Labor, in consultation with the Attorney General 
and the Secretary of Homeland Security, shall conduct a national study 
of American workplaces to determine the causes, extent, circumstances, 
and consequences, of exploitation of undocumented alien workers by 
their employers. As part of this study, the Secretary of Labor shall 
create a plan for targeted review of Federal labor law enforcement in 
industries with a substantial immigrant workforce, for the purpose of 
identifying, monitoring, and deterring frequent or egregious violators 
of wage and hour, antidiscrimination, National Labor Relations Act, and 
workplace safety and health requirements. Not later than 18 months 
after the date of the enactment of this Act, the Secretary of Labor 
shall submit to the Congress a report describing the results of the 
study and the Secretary's recommendations based on the study.

SEC. 703. RECRUITMENT OF AMERICAN WORKERS.

    Section 214 is amended--
            (1) by redesignating subsections (m) (as added by section 
        105 of Public Law 106-313), (n) (as added by section 107(e) of 
        Public Law 106-386), (o) (as added by section 1513(c) of Public 
        Law 106-386), (o) (as added by section 1102(b) of the Legal 
        Immigration Family Equity Act), and (p) (as added by section 
        1503(b) of the Legal Immigration Family Equity Act) as 
        subsections (n), (o), (p), (q), and (r), respectively; and
            (2) by adding at the end the following:
    ``(s)(1) No petition to accord employment status under the 
nonimmigrant classifications described in sections 101(a)(15)(E)(iii) 
and (H) shall be granted in the absence of an affidavit from the 
petitioner describing the efforts that were made to recruit an alien 
lawfully admitted for permanent residence or a citizen of the United 
States before resorting to a petition to obtain a foreign employee. The 
recruitment efforts must have included substantial attempts to find 
employees in minority communities. Recruitment efforts in minority 
communities should include at least one of the following, if 
appropriate for the employment being advertised:
            ``(A) Advertise the availability of the job opportunity for 
        which the employer is seeking a worker in local newspapers in 
        the labor market that is likely to be patronized by a potential 
        worker for at least 5 consecutive days.
            ``(B) Undertake efforts to advertise the availability of 
        the job opportunity for which the employer is seeking a worker 
        through advertisements in public transportation systems.
            ``(C) To the extent permitted by local laws and 
        regulations, engage in recruitment activities in secondary 
        schools, recreation centers, community centers, and other 
        places throughout the communities within 50 miles of the job 
        site that serve minorities.
    ``(2)(A) The Secretary of Homeland Security shall impose a 10 
percent surcharge on all fees collected for petitions to accord 
employment status and shall use these funds to establish an employment 
training program which will include unemployed workers in the United 
States who need to be trained or retrained. The purpose of this program 
shall be to increase the number of lawful permanent residents and 
citizens of the United States who are available for employment in the 
occupations that are the subjects of such petitions. At least 50 
percent of the funds generated by this provision must be used to train 
American workers in rural and inner-city areas.
    ``(B) The Secretary of Homeland Security shall reserve and make 
available to the Secretary of Labor a portion of the funds collected 
under this paragraph. Such funds shall be used by the Secretary of 
Labor to establish an `Office to Preserve American Jobs' within the 
Department of Labor. The purpose of this office shall be to establish 
policies intended to ensure that employers in the United States will 
hire available workers in the United States before resorting to foreign 
labor, giving substantial emphasis to hiring minority workers in the 
United States.''.

              TITLE VIII--FAIRNESS IN REMOVAL PROCEEDINGS

SEC. 801. RIGHT TO COUNSEL.

    Section 292 (8 U.S.C. 1362) is amended by striking the matter after 
the section designation and inserting the following: ``In any bond, 
custody, detention, or removal proceedings before the Attorney General 
and in any appeal proceedings before the Attorney General from any such 
proceedings, the person concerned shall have the privilege of being 
represented (at no expense to the government) by such counsel, 
authorized to practice in such proceedings, as he shall choose. With 
consent of their clients, counsel may enter appearances limited to 
bond, custody, or other specific proceedings.''.

SEC. 802. PRESUMPTION IN FAVOR OF WITHDRAWAL OF APPLICATION FOR 
                    ADMISSION.

    Section 235(a)(4) (8 U.S.C. 1225(a)(4)) is amended to read as 
follows:
            ``(4) Withdrawal of application for admission.--
                    ``(A) Presumption in favor of withdrawal.--The 
                Attorney General shall permit an alien applying for 
                admission to withdraw the application and depart 
                immediately from the United States at any time, unless 
                an immigration judge has rendered a decision with 
                respect to the admissibility of the alien, except that 
                the Attorney General may deny permission for the 
                withdrawal when warranted by unusual circumstances.
                    ``(B) Permissive withdrawal.--Except as provided in 
                subparagraph (A), an alien applying for admission may, 
                in the discretion of the Attorney General and at any 
                time after a decision described in such subparagraph 
                has been rendered, be permitted to withdraw the 
                application and depart immediately from the United 
                States.''.

SEC. 803. ABSENCES OUTSIDE THE CONTROL OF THE ALIEN.

    Section 101(a)(13)(C) (8 U.S.C. 1101(a)(13(C)) is amended by 
amending clause (ii) to read as follows:
                            ``(ii) has been absent from the United 
                        States for a continuous period in excess of one 
                        year unless the alien's return was impeded by 
                        emergency or extenuating circumstances outside 
                        the control of the alien,''.

SEC. 804. REINSTATEMENT OF REMOVAL ORDERS AGAINST ALIENS ILLEGALLY 
                    REENTERING.

    Section 241(a)(5) (8 U.S.C. 1231(a)(5)) is amended--
            (1) by inserting ``, after a hearing by an immigration 
        judge,'' after ``If'';
            (2) by inserting ``, on or after September 30, 1996,'' 
        after ``alien has'';
            (3) by striking ``is reinstated'' and inserting ``may be 
        deemed to be reinstated'';
            (4) by striking ``and is not subject'' and all that follows 
        through ``under this Act''; and
            (5) by striking the period at the end and inserting the 
        following: ``subject to reopening and review of the previous 
        order. Nothing in this section shall preclude an alien from 
        applying for any relief from removal under this Act.''.

SEC. 805. PERMANENT APPLICATION OF SECTION 245(I).

    Section 245(i) (8 U.S.C. 1255(i)) is amended--
            (1) by inserting ``and'' at the end of paragraph (1)(A);
            (2) by amending paragraph (1)(B) to read as follows:
                    ``(B) who is the beneficiary (including a spouse or 
                child of the principal alien) of--
                            ``(i) a petition for classification under 
                        section 204; or
                            ``(ii) an application for a labor 
                        certification under section 212(a)(5)(A);'';
            (3) by striking paragraph (1)(C); and
            (4) by striking ``Attorney General'' each place such term 
        appears and inserting ``Secretary of Homeland Security''.

SEC. 806. DISCRETIONARY WAIVER OF INADMISSIBILITY BASED ON UNLAWFUL 
                    PRESENCE, FAILURE TO ATTEND REMOVAL PROCEEDINGS, 
                    AND MISREPRESENTATIONS.

    (a) In General.--Section 212(i) (8 U.S.C. 1182(i)) is amended to 
read as follows:
    ``(i) The Secretary of Homeland Security may waive the application 
of subparagraph (A)(i) or (B), or clause (i) or (ii) of subparagraph 
(C), of subsection (a)(6) in the case of an immigrant who is the 
parent, spouse, child, son, or daughter of a United States citizen or 
of an alien lawfully admitted to the United States for permanent 
residence, if it is established to the satisfaction of the Secretary 
that the refusal of admission to the United States of such immigrant 
would result in hardship to the immigrant or to such citizen or lawful 
permanent resident parent, spouse, child, son, or daughter.''.
    (b) Conforming Amendments.--Section 212(a)(6) (8 U.S.C. 1182(a)(6)) 
is amended--
            (1) in subparagraph (A), by adding at the end the 
        following:
                            ``(iii) Waiver authorized.--For a provision 
                        authorizing the waiver of clause (i), see 
                        subsection (i).'';
            (2) in subparagraph (B)--
                    (A) by inserting ``(i)'' after the subparagraph 
                heading; and
                    (B) by adding at the end the following:
                            ``(ii) Waiver authorized.--For a provision 
                        authorizing the waiver of clause (i), see 
                        subsection (i).''; and
            (3) in subparagraph (C)(iii), by inserting ``or (ii)'' 
        after ``(i)''.

SEC. 807. WAIVER OF INADMISSIBILITY FOR MINOR CRIMINAL OFFENSES.

    Section 212(h) (8 U.S.C. 1182(h)) is amended--
            (1) in the matter preceding paragraph (1), by striking 
        ``offense of simple possession of 30 grams or less of 
        marijuana'' and inserting ``controlled substance offense for 
        which the alien was not incarcerated for a period exceeding 1 
        year''; and
            (2) by striking the final two sentences.

SEC. 808. GENERAL WAIVER FOR ALIENS PREVIOUSLY REMOVED AND FOR THE 
                    UNLAWFUL PRESENCE BARS.

    (a) In General.--Section 212(d) (8 U.S.C. 1182(d)) is amended by 
adding at the end the following:
    ``(14) The Secretary of Homeland Security may, in the discretion of 
the Secretary, for humanitarian purposes, to assure family unity, or 
when it is otherwise in the public interest, waive the application of 
subparagraph (A) or (B)(i) of subsection (a)(9).''.
    (b) Conforming Amendment.--Section 212(a)(9)(B) of such Act (8 
U.S.C. 1182(a)(9)(B)) is amended by striking clause (v).

SEC. 809. WAIVER OF AGGRAVATED FELONY CONSEQUENCES.

    Section 101 (8 U.S.C. 1101) is amended by adding at the end the 
following:
    ``(j) For purposes of this Act, and notwithstanding subsection 
(a)(43), the Secretary of Homeland Security may treat any conviction 
that did not result in incarceration for more than 1 year as if such 
conviction were not a conviction for an aggravated felony. This 
discretion may be exercised for humanitarian purposes, to assure family 
unity, or when it is otherwise in the public interest.''.

SEC. 810. DISCRETIONARY WAIVER TO ADMIT PERSONS IN UNUSUAL 
                    CIRCUMSTANCES.

    (a) New General Waiver.--Section 212(d) (8 U.S.C. 1182(d)) is 
amended by adding at the end the following:
            ``(13) The Secretary of Homeland Security may, in the 
        discretion of such Secretary for humanitarian purposes, to 
        assure family unity, or when it is otherwise in the public 
        interest, waive the application of subparagraph (B) or (G) of 
        subsection (a)(6), clause (i) or (ii) of subsection (a)(9)(A), 
        or subsection (a)(9)(B)(i), in unusual circumstances. For 
        purposes of the preceding sentence, an instance of battering or 
        extreme cruelty is deemed to constitute unusual circumstances 
        in the case where it is inflicted on an alien (or a child of an 
        alien) by the alien's United States citizen or lawful permanent 
        resident spouse, parent, child, son, or daughter.''.
    (b) Waiver for Aliens Previously Removed.--
            (1) Certain aliens previously removed.--Section 
        212(a)(9)(A) (8 U.S.C. 1182(a)(9)(A)) is amended by adding at 
        the end the following:
                            ``(iv) Waiver authorized.--For provision 
                        authorizing waiver of clause (i) or (ii), see 
                        subsection (d)(13).''.
            (2) Aliens unlawfully present.--Section 212(a)(9)(B)(v) (8 
        U.S.C. 1182(A)(9)(B)(v)) is amended to read as follows:
                            ``(v) Waiver authorized.--For provision 
                        authorizing waiver of clause (i), see 
                        subsection (d)(13).''.

SEC. 811. RESTORATION OF SUSPENSION OF DEPORTATION.

    (a) Cancellation of Removal.--Section 240A(a)(3) (8 U.S.C. 
1229b(a)(3)) is amended to read as follows:
            ``(3) has not been convicted of an aggravated felony for 
        which the sentence imposed is five years or more.''.
    (b) Repeal of Rule for Termination of Continuous Period.--
            (1) Section 240A(d)(1) (8 U.S.C. 1229b(d)(1)) (8 U.S.C. 
        1229b(a)) is repealed.
            (2) Section 240A(d) (8 U.S.C. 1229b) is amended--
                    (A) by redesignating paragraphs (2) and (3) as 
                paragraphs (1) and (2), respectively; and
                    (B) by inserting before the period at the end of 
                paragraph (1) (as redesignated) the following: ``, 
                unless the alien's departure from the United States was 
                due to a temporary trip abroad required by emergency or 
                extenuating circumstances outside the control of the 
                alien''.
    (c) Cancellation of Removal and Adjustment for Certain Nonpermanent 
Residents.--Section 240A(b)(1) (8 U.S.C. 1229b(b)(1)) is amended to 
read as follows:
            ``(1) In general.--The Attorney General may cancel removal 
        in the case of an alien who is inadmissible or deportable from 
        the United States if the alien--
                    ``(A) has been physically present in the United 
                States for a continuous period of--
                            ``(i) 7 years immediately preceding the 
                        date of application in the case of an alien--
                                    ``(I) who is deportable on any 
                                ground other than a ground specified in 
                                clause (ii)(I); and
                                    ``(II) whose deportation would, in 
                                the opinion of the Attorney General, 
                                result in extreme hardship to the alien 
                                or the alien's spouse, child, parent, 
                                son, or daughter, who is a citizen of 
                                the United States or an alien lawfully 
                                admitted for permanent residence; or
                            ``(ii) 10 years immediately preceding the 
                        date of application in the case of an alien--
                                    ``(I) who is deportable for 
                                conviction of an offense under section 
                                212(a)(2), 237(a)(2), or 237(a)(3); and
                                    ``(II) whose deportation would, in 
                                the opinion of the Attorney General, 
                                result in exceptional and extremely 
                                unusual hardship to the alien or the 
                                alien's spouse, parent, child, son, or 
                                daughter, who is a citizen of the 
                                United States or an alien lawfully 
                                admitted for permanent residence; and
                    ``(B) has been a person of good moral character 
                during such period.''.
    (d) Elimination of Annual Limitation.--Section 240A (8 U.S.C. 
1229b) is amended by striking subsection (e).

          TITLE IX--REMOVAL GROUNDS BASED ON CRIMINAL OFFENSES

SEC. 901. DEFINITION OF MORAL TURPITUDE.

    (a) Equitable Definition of ``Moral Turpitude''.--
            (1) Conviction of certain crimes.--Section 212(a)(2)(A)(i) 
        (8 U.S.C. 1182(a)(2)(A)(i)) is amended by striking ``of, or who 
        admits having committed, or who admits committing acts which 
        constitute the essential elements of--'' and inserting ``of--
        ''.
            (2) Exception.--Section 212(a)(2)(A)(ii)(II) (8 U.S.C. 
        1182(a)(2)(A)(ii)(II)) is amended--
                    (A) by striking ``the maximum'' and all that 
                follows through ``such crime,''; and
                    (B) by striking ``6 months'' and inserting ``1 
                year''.
    (b) Equitable Definition of ``Crimes of Moral Turpitude''.--Section 
237(a)(2)(A)(i)(II) (8 U.S.C. 1227(a)(2)(A)(i)(II)) is amended to read 
as follows:
                                    ``(II) for which the alien has been 
                                incarcerated for a period exceeding one 
                                year,''.

SEC. 902. ``AGGRAVATED FELONY'' DEFINITIONS.

    (a) In General.--Section 101(a)(43) (8 U.S.C. 1101(a)(43)) is 
amended by striking ``The term `aggravated felony' means'' and 
inserting ``Aggravated felony means a felony''.
    (b) Illicit Trafficking.--Section 101(a)(43)(B) (8 U.S.C. 
1101(a)(43)(B)) is amended by striking ``Code);'' and inserting 
``Code), except it does not include simple possession of a controlled 
substance;''.
    (c) Crimes of Violence and Theft Offenses.--Subparagraphs (F), (G), 
(R), and (S) of section 101(a)(43) (8 U.S.C. 1101(a)(43)(F), (G), (R), 
and (S)) are each amended by striking ``imprisonment'' and all that 
follows through the semicolon and inserting ``imprisonment of more than 
five years;''.
    (d) Corrupt Organizations and Gambling Offenses.--Section 
101(a)(43)(J) is amended by inserting ``more than five years'' after 
the words ``sentence of''.
    (e) Alien Smuggling.--Section 101(a)(43)(N) (8 U.S.C. 
101(a)(43)(N)) is amended--
            (1) by inserting ``committed for the purpose of commercial 
        advantage,'' after ``smuggling),''; and
            (2) by adding at the end a semicolon.
    (f) Discretionary Waiver in Cases of Other Minor Felonies.--Section 
101 (8 U.S.C. 1101) is amended by adding at the end the following:

SEC. 903. DEFINITIONS OF ``CONVICTION'' AND ``TERM OF IMPRISONMENT''.

    Section 101(a)(48) (8 U.S.C. 1101(a)(48)) is amended--
            (1) in subparagraph (A), by striking ``court'' and all that 
        follows through the period at the end and inserting ``court. An 
        adjudication or judgment of guilt that has been expunged, 
        deferred, annulled, invalidated, withheld, or vacated, an order 
        of probation without entry of judgment, or any similar 
        disposition shall not be considered a conviction for purposes 
        of this Act.''; and
            (2) in subparagraph (B)--
                    (A) by inserting ``only'' after ``deemed to 
                include''; and
                    (B) by striking ``court of law'' and all that 
                follows through the period at the end and inserting 
                ``court of law. Any such reference shall not be deemed 
                to include any suspension of the imposition or 
                execution of that imprisonment or sentence in whole or 
                in part.''.
    ``(i) For purposes of this Act, and notwithstanding subsection 
(a)(43), the Attorney General may treat any conviction that did not 
result in incarceration for more than 1 year as if such conviction were 
not a conviction for an aggravated felony.''.

SEC. 904. ELIMINATING RETROACTIVE CHANGES IN REMOVAL GROUNDS.

    (a) Application of Aggravated Felony Definition.--The last sentence 
of section 101(a)(43) (8 U.S.C. 1101(a)(43)) is amended to read as 
follows: ``The term shall not apply to any offense that was not covered 
by the term on the date on which the offense occurred.''.
    (b) Grounds of Deportability.--Section 237 (8 U.S.C. 1227) is 
amended by adding at the end the following new subsection:
    ``(d) Notwithstanding any other provision of this section, an alien 
is not deportable by reason of committing any offense that was not a 
ground of deportability on the date the offense occurred.''.
    (c) Grounds of Inadmissibility.--Section 212 (8 U.S.C. 1182) is 
amended by adding at the end the following new subsection:
    ``(p) Notwithstanding any other provision of this section, an alien 
is not inadmissible by reason of committing any offense that was not a 
ground of inadmissibility on the date the offense occurred.''.

SEC. 905. ELIMINATING UNFAIR RETROACTIVE CHANGES IN REMOVAL RULES FOR 
                    PERSONS PREVIOUSLY REMOVED.

    (a) In General.--The Attorney General shall establish a process by 
which an alien described in subsection (b) may apply for reopening a 
proceeding so as to seek relief from exclusion, deportation, or removal 
under section 212(c) of the Immigration and Nationality Act, as such 
section was in effect prior to the enactment of the Antiterrorism and 
Effective Death Penalty Act of 1996, or section 240A of the Immigration 
and Nationality Act, as amended by this Act.
    (b) Alien Described.--An alien referred to in subsection (a) is an 
alien who received a final order of exclusion, deportation, or removal, 
or a decision on a petition for review or petition for habeas corpus, 
on or after September 30, 1996, and who was--
            (1) excluded, deported, or removed from the United States 
        by reason of having committed a criminal offense that was not a 
        basis for removal, exclusion, or deportation on the date on 
        which the offense was committed;
            (2) excluded, deported, or removed from the United States 
        by reason of having committed a criminal offense that is not a 
        basis for removal, exclusion, or deportation on the date of 
        enactment of this Act; or
            (3) excluded, deported, or removed from the United States 
        by reason of having committed a criminal offense prior to April 
        24, 1996, for which there was relief from exclusion, 
        deportation, or removal available prior to such date.
    (c) Parole.--The Attorney General may in her discretion exercise 
the parole authority under section 212(d)(5)(A) of the Immigration and 
Nationality Act (8 U.S.C. 1182(d)(5)(A)) for the purpose of permitting 
aliens excluded, deported, or removed from the United States to 
participate in the process established under subsection (a), if the 
alien establishes prima facie eligibility for the relief.

                        TITLE X--DIVERSITY VISAS

SEC. 1001. INCREASE IN WORLDWIDE LEVEL OF DIVERSITY IMMIGRANTS.

    Section 201(e) (8 U.S.C. 1151(e)) is amended by striking ``55,000'' 
and inserting ``110,000''.

                        TITLE XI--HAITIAN PARITY

SEC. 1101. ADJUSTMENT OF STATUS FOR HAITIANS.

    (a) In General.--Chapter 5 of title II (8 U.S.C. 1255 et seq.), as 
amended by section 202, is further amended by inserting after section 
245C the following:
          ``adjustment of status of certain haitian nationals
    ``Sec. 245D.  Notwithstanding the provisions of section 245(c), the 
status of any alien who is a national or citizen of Haiti, and who has 
been physically present in the United States for at least one year, may 
be adjusted by the Secretary of Homeland Security, in the Secretary's 
discretion and under such regulations as the Secretary may prescribe, 
to that of an alien lawfully admitted for permanent residence, if the 
alien makes an application for such adjustment and the alien is 
eligible to receive an immigrant visa and is admissible to the United 
States for permanent residence. Upon approval of such an application 
for adjustment of status, the Secretary shall create a record of the 
alien's admission for permanent residence as of a date 30 months prior 
to the filing of such an application or the date of the alien's last 
arrival into the United States, whichever date is later. The provisions 
of this Act shall be applicable to the spouse and child of any alien 
described in this section, regardless of their citizenship and place of 
birth, if the spouse or child is residing with such alien in the United 
States.''.
    (b) Clerical Amendment.--The table of contents as amended by 
section 202, is further amended by inserting after the item relating to 
section 245C the following:

    ``Sec. 245D. Adjustment of status of certain Haitian nationals.''.
    (c) Sunset.--The amendments made by this section shall cease to be 
effective on the date that is 3 years after the date of the enactment 
of this Act.

SEC. 1102. LIMITATION OF ATTORNEY GENERAL'S BOND DISCRETION.

    Section 236 (8 U.S.C. 1226) is amended by adding at the end the 
following:
    ``(f) Exercise of Authority for Arrest, Detention, and Release.--
The Secretary of Homeland Security shall exercise the discretion 
afforded under subsection (a) on a case-by-case basis. If bond is to be 
denied on the ground that the alien's release would give rise to 
adverse consequences for national security or national immigration 
policy, the finding of such adverse consequences shall be based on 
circumstances pertaining to the individual alien whose release is being 
considered.''.

SEC. 1103. ELIMINATION OF MANDATORY DETENTION IN EXPEDITED REMOVAL 
                    PROCEEDINGS.

    Section 235(b)(1)(B)(iii)(IV) (8 U.S.C. 1225(b)(1)(B)(iii)(IV)) is 
amended to read as follows:
                                    ``(IV) Detention.--Aliens subject 
                                to the procedures under this clause 
                                shall be detained in accordance with 
                                section 236.''.

SEC. 1104. AMENDMENTS TO HAITIAN AND IMMIGRANT FAIRNESS ACT OF 1998.

    (a) Ground for Inadmissibility for Document Fraud Does Not Apply.--
The Haitian Refugee Immigration Fairness Act of 1998 (8 U.S.C. 1255 
note) is amended in subsections (a)(1)(B) and (d)(1)(D) of section 902 
by inserting ``(6)(C)(i),'' after ``(6)(A),''.
    (b) Determinations With Respect to Children.--Section 902(d) of 
such Act is amended by adding at the end the following:
            ``(3) Determinations with respect to children.--
                    ``(A) Use of application filing date.--
                Determinations made under this subsection as to whether 
                an individual is a child of a parent shall be made 
                using the age and status of the individual on the date 
                of the enactment of this section.
                    ``(B) Application submission by parent.--
                Notwithstanding paragraph (1)(C), an application under 
                this subsection filed based on status as a child may be 
                filed for the benefit of such child by a parent or 
                guardian of the child, if the child is physically 
                present in the United States on such filing date.''.

SEC. 1105. NEW APPLICATIONS AND MOTIONS TO REOPEN.

    (a) New Applications.--Notwithstanding section 902(a)(1)(A) of the 
Haitian and Immigrant Fairness Act of 1998, an alien who is eligible 
for adjustment of status under such Act, as amended by section 804 of 
this Act, may submit an application for adjustment of status under such 
Act not later than the later of--
            (1) 2 years after the date of the enactment of this Act; 
        and
            (2) 1 year after the date on which final regulations 
        implementing section 804 are promulgated.
    (b) Motions To Reopen.--The Secretary of Homeland Security shall 
establish procedures for the reopening and reconsideration of 
applications for adjustment of status under the Haitian Refugee 
Immigration Fairness Act of 1998 that are affected by the amendments 
under section 804 of this Act.
    (c) Relationship of Application to Certain Orders.--Section 
902(a)(3) of the Haitian and Immigrant Fairness Act of 1998 shall apply 
to an alien present in the United States who has been ordered excluded, 
deported, removed, or ordered to depart voluntarily, and who files an 
application under subsection (a), or a motion under subsection (b), in 
the same manner as such section 902(a)(3) applied to aliens filing 
applications for adjustment of status under such Act before April 1, 
2000.

SEC. 1106. TEMPORARY PROTECTED STATUS FOR HAITIANS.

    It is the sense of the Congress that the Secretary of Homeland 
Security should be more liberal with respect to Haiti in deciding 
whether to designate that country for temporary protected status under 
section 244(b)(1)(A) of the Immigration and Nationality (8 U.S.C. 
1254(b)(1)(A)). It is the sense of the Congress that this decision has 
sometimes been made without due regard to the serious threat to 
personal safety that results from sending Haitians back to Haiti during 
a period of ongoing armed conflict in that country.

         TITLE XII--FAIRNESS IN ASYLUM AND REFUGEE PROCEEDINGS

SEC. 1201. REFUGEE STATUS FOR UNMARRIED SONS AND DAUGHTERS OF REFUGEES.

    Section 207(c)(2) (8 U.S.C. 1157(c)(2)) is amended by adding at the 
end the following:
                    ``(C) When warranted by unusual circumstances or to 
                preserve family unity, the Attorney General may, in the 
                Attorney General's discretion, consider an unmarried 
                son or daughter of a refugee to be a child of the 
                refugee for purposes of this paragraph.''.

SEC. 1202. ASYLEE STATUS FOR UNMARRIED SONS AND DAUGHTERS OF ASYLEES.

    Section 208(b)(3) (8 U.S.C. 1158(b)(3)) is amended by adding at the 
end the following:
                    ``(C) When warranted by unusual circumstances or to 
                preserve family unity, the Attorney General may, in the 
                Attorney General's discretion, consider an unmarried 
                son or daughter of an alien who is granted asylum under 
                this subsection to be a child of the alien for purposes 
                of this paragraph.''.

SEC. 1203. ELIMINATION OF ARBITRARY TIME LIMITS ON ASYLUM APPLICATIONS.

    Section 208(a)(2) (8 U.S.C. 1158(a)(2)) is amended--
            (1) by striking subparagraph (B);
            (2) in subparagraph (C), by striking ``(D),'' and inserting 
        ``(C),'';
            (3) in subparagraph (D)--
                    (A) by striking ``subparagraphs (B) and (C),'' and 
                inserting ``subparagraph (B),'';
                    (B) by striking ``either''; and
                    (C) by striking ``asylum or extraordinary'' and all 
                that follows through the period at the end and 
                inserting ``asylum.''; and
            (4) by redesignating subparagraphs (C) and (D) as 
        subparagraphs (B) and (C), respectively.

SEC. 1204. GENDER-BASED PERSECUTION.

    (a) Treatment as Refugee.--Section 101(a)(42) (8 U.S.C. 
1101(a)(42)) is amended by adding at the end the following:
                    ``(C) For purposes of determinations under this 
                Act, a person who establishes that he or she suffered 
                persecution in the past, or has a well-founded fear of 
                persecution, on account of gender shall be considered 
                to have suffered persecution, or to have a well-founded 
                fear of persecution, on account of membership in a 
                particular social group.''.
    (b) Restriction on Removal to Country Where Alien Would Be 
Threatened.--Section 241(b)(3) of such Act (8 U.S.C. 1231(b)(3)) is 
amended by adding at the end the following:
                    ``(C) Gender-based persecution.--For purposes of 
                determinations under this paragraph, an alien who 
                establishes that the alien's life or freedom would be 
                threatened in a country on account of gender shall be 
                considered to have established that the alien's life or 
                freedom would be threatened in that country on account 
                of membership in a particular social group.''.

                 TITLE XIII--TEMPORARY PROTECTED STATUS

SEC. 1301. ADJUSTMENT OF STATUS FOR CERTAIN RECIPIENTS OF TEMPORARY 
                    PROTECTED STATUS.

    (a) In General.--Section 245 (8 U.S.C. 1255) is amended by adding 
at the end the following:
    ``(n)(1) If, in the opinion of the Secretary of the Homeland 
Security Department, a person granted temporary protected status under 
section 244--
            ``(A) has been physically present in the United States in 
        that status for a continuous period of at least 5 years;
            ``(B) has at all times been a person of good moral 
        character;
            ``(C) has never been convicted of a criminal offense in the 
        United States;
            ``(D) in the case of an alien who is 18 years of age or 
        older, but who is not over the age of 65, has successfully 
        completed a course on reading, writing, and speaking words in 
        ordinary usage in the English language, unless unable to do so 
        on account of physical or developmental disability or mental 
        impairment;
            ``(E) in the case of an alien 18 years of age or older, has 
        accepted the values and cultural life of the United States; and
            ``(F) in the case of an alien 18 years of age or older, has 
        performed at least 40 hours of community service;
the Secretary may adjust the status of the alien to that of an alien 
lawfully admitted for permanent residence.
    ``(2) An alien shall not be considered to have failed to maintain a 
continuous presence in the United States for purposes of subsection 
(a)(1) by virtue of brief, casual, and innocent absences from the 
United States.
    ``(3)(A) The alien shall establish that the alien is admissible to 
the United States as immigrant, except as otherwise provided in 
paragraph (2).
    ``(B) The provisions of paragraphs (5), (6)(A), (6)(B), (6)(C), 
(6)(F), (6)(G), (7)(A), (9)(B), and (9)(C)(i)(I) of section 212(a) 
shall not apply in the determination of an alien's admissibility under 
this section.
    ``(4) When an alien is granted lawful permanent resident status 
under this subsection, the number of immigrant visas authorized to be 
issued under any provision of this Act shall not be reduced. The 
numerical limitations of sections 201 and 202 shall not apply to 
adjustment of status under this section.
    ``(5) The Secretary of Homeland Security may terminate removal 
proceedings without prejudice pending the outcome of an alien's 
application for adjustment of status under this section on the basis of 
a prima facie showing of eligibility for relief under this section.''.
    (b) Limitation on Consideration in the Senate of Legislation 
Adjusting Status.--Section 244 (8 U.S.C. 1254a) is amended by striking 
subsection (h) and redesignating subsection (i) as subsection (h).

SEC. 1302. FOREIGN STATE DESIGNATIONS.

    Section 244(b)(1)(C) (8 U.S.C. 1254a(b)(1)(C)) is amended to change 
the following phrase ``the Attorney General finds that there exist 
extraordinary and temporary conditions in the foreign state that 
prevent aliens who are nationals of the state from returning to the 
state in safety,'' so that it reads as follows: ``the Secretary of 
Homeland Security finds that extraordinary and temporary conditions in 
the foreign state make returning aliens to the state undesirable for 
humanitarian reasons,''.

                  TITLE XIV--MISCELLANEOUS PROVISIONS

SEC. 1401. NATURALIZATION PROVISIONS.

    (a) Physical Presence Requirement.--Section 316(a) (8 U.S.C. 1427) 
is amended by adding at the end the following:
    ``(g) When warranted by extraordinary circumstances, the Secretary 
of Homeland Security may reduce, by not more than 90 days, the physical 
presence requirement described in the preceding sentence.''.
    (b) Absences From the United States.--Section 316(b) (8 U.S.C. 
1427(b)) is amended--
            (1) in the first sentence, by striking ``one year'' and 
        inserting ``18 months''; and
            (2) in the second sentence, by striking ``continuous period 
        of one year'' and inserting ``continuous period of 18 months''.

SEC. 1402. PREVENTING INAPPROPRIATE STATE AND LOCAL GOVERNMENT 
                    INVOLVEMENT IN THE ENFORCEMENT OF CIVIL IMMIGRATION 
                    PROVISIONS UNDER THE IMMIGRATION AND NATIONALITY 
                    ACT.

    (a) Elimination of Ban on State and Local Governments From 
Preventing Communications With the Department of Homeland Security.--
            (1) In general.--Section 642 of the Illegal Immigration 
        Reform and Immigrant Responsibility Act of 1996 (8 U.S.C. 1373) 
        is repealed.
            (2) Verification of eligibility for federal public 
        benefits.--Section 432 of the Personal Responsibility and Work 
        Opportunity Reconciliation Act of 1996 (8 U.S.C. 1642) is 
        repealed.
    (b) Elimination of Authority To Permit State Personnel To Carry Out 
Immigration Officer Functions.--Section 287(g) (8 U.S.C. 1357(g)) is 
repealed.

SEC. 1403. NONIMMIGRANT CATEGORY FOR FASHION MODELS.

    (a) Elimination of H-1B Classification for Fashion Models.--Section 
101(a)(15)(H)(i)(b) of the Immigration and Nationality Act (8 U.S.C. 
1101(a)(15)(H)(i)(b)) is amended--
            (1) by striking ``or as a fashion model''; and
            (2) by striking ``or, in the case of a fashion model, is of 
        distinguished merit and ability''.
    (b) New Classification.--Section 101(a)(15)(O) of the Immigration 
and Nationality Act (8 U.S.C. 1101(a)(15)(O)) is amended--
            (1) in clause (iii), by striking ``clause (i) or (ii)'' and 
        inserting ``clause (i), (ii), or (iii)'' and by redesignating 
        clause (iii) as clause (iv); and
            (2) by inserting after clause (ii) the following new 
        clause:
                    ``(iii) is a fashion model who is of distinguished 
                merit and ability and who is seeking to enter the 
                United States temporarily to perform fashion modeling 
                services that involve events or productions which have 
                a distinguished reputation or that are performed for an 
                organization or establishment that has a distinguished 
                reputation for, or a record of, utilizing prominent 
                modeling talent; or''.
    (c) Effective Date and Implementation.--
            (1) In general.--The amendments made by this section shall 
        take effect on the date of the enactment of this Act.
            (2) Regulations, guidelines, and precedents.--The 
        regulations, guidelines, and precedents in effect on the date 
        of the enactment of this Act for the adjudication of petitions 
        for fashion models under section 101(a)(15)(H)(i)(b) of the 
        Immigration and Nationality Act (8 U.S.C. 1101(a)(15)(H)(i)(b)) 
        shall be applied to petitions for fashion model under section 
        101(a)(15)(O)(iii) of the Immigration and Nationality Act (8 
        U.S.C. 1101(a)(15)(O)(iii)), as added by this section, except 
        that the duration of status approvals shall be based on 
        regulations applicable to other occupations under section 
        101(a)(15)(O) of the Immigration and Nationality Act (8 U.S.C. 
        1101(a)(15)(O)).
            (3) Construction.--Nothing in this section, or the 
        amendments made by this section, shall be construed as 
        preventing an alien who is a fashion model from obtaining 
        nonimmigrant status under section 101(a)(15)(O)(i) of the 
        Immigration and Nationality Act (8 U.S.C. 1101(a)(15)(O)(i)) if 
        such alien is otherwise qualified for such status.
            (4) Treatment of pending petitions.--Petitions filed on 
        behalf of fashion models under section 101(a)(15)(H)(i)(b) of 
        the Immigration and Nationality Act (8 U.S.C. 
        1101(a)(15)(H)(i)(b)) that are pending on the date of the 
        enactment of this Act shall be treated as if they had been 
        filed under section 101(a)(15)(O)(iii) of the Immigration and 
        Nationality Act (8 U.S.C. 1101(a)(15)(O)(iii)), as added by 
        this section.
            (5) Visa validity period.--The validity period for visas 
        issued to beneficiaries of petitions filed under section 
        101(a)(15)(O)(iii) of the Immigration and Nationality Act (8 
        U.S.C. 1101(a)(15)(O)(iii)) shall be for the full period of 
        approval notwithstanding the reciprocity validity periods that 
        would otherwise be applicable.
                                 <all>



    Ms. Jackson Lee. Thank you very much, Madam Chairwoman, and 
particularly for your leadership on this issue and the 
opportunity to work with you, not only in this Congress but in 
past Congresses. And thank you for recognizing the 
complementary role that H.R. 750 can play in comprehensive 
immigration reform.
    Might I also suggest to this hearing that there are many 
ways of looking at comprehensive immigration reform? And I am 
delighted that as a member of the Congressional Black Caucus 
and a co-chair of their Immigration Task Force, we have been 
studying this issue for a very long time, and the Congressional 
Black Caucus has made a commitment on the record that they 
understand the value and the importance of comprehensive 
immigration reform, which includes border security and earned 
access to citizenship, but an economic opportunity with fair 
wages and diversity for equal treatment of immigrants coming 
from all backgrounds.
    Madam Chair, I would like to ask unanimous consent to put 
into the record the CBC statement on immigration reform.
    Ms. Lofgren. Without objection, so ordered.
    [The information referred to is available in the Appendix.]
    Ms. Jackson Lee. As it relates to H.R. 750, as I indicated, 
it is a complementary step among the number of immigration 
bills that have been offered. And it recognizes in particular 
the diversity of America and, of course, those who come from 
the fields of Mississippi and Alabama, factories in Detroit and 
Cleveland, the packinghouses and office buildings of Chicago, 
and the shipyards of Philadelphia and Los Angeles. It 
recognizes that as we look toward comprehensive immigration 
reform, we must address the question of ensuring the protection 
of American jobs, the American dream, and the training of 
Americans so that we can parallel the need for more workers 
with the opportunity for American workers.
    I think it is a creative approach to addressing the 
question of assuaging, or, if you will, comforting Americans 
who are concerned about the loss of their jobs. It is important 
in this legislation to note also that we in fact are concerned 
about fair wages and the treatment of the undocumented, 
providing them with access to protecting themselves from abuse.
    In addition, this has a strong component on border 
security. We are realistic about the needs of Americans and, 
frankly, we stand strong on covering the issues of border 
security with something unique: professional development and 
training for our Border Patrol agents, acknowledgement of their 
service, technology and new equipment so that they can perform 
in the most effective way.
    It addresses the question of security in relation to the 
idea of sex abuse of those who come into the United States who 
may be abused, and they may come in on a legal aspect.
    As I close, let me say that this bill has been recognized 
by a number of individuals, including the Border Patrol 
Association. It has been acknowledged by Senator Kerrey, which 
admitted it into the legislation that was passed in the Senate, 
the rapid response measures. A lot of them are also in the 
STRIVE Act.
    So we have led out on this issue, and we believe this is an 
important hearing because our bill also includes a number of 
provisions dealing with legal immigration that many of our 
legal immigrant advocates, and particularly our Bar Association 
has asked for relief in order to be able to prosecute and to 
maintain the right kind of balance in helping those who are 
here legally and are seeking greater opportunity.
    So I am delighted with the witnesses that will be here 
today, which I will compliment them as they come forward. I 
certainly thank the Chair of the Congressional Black Caucus, 
Congresswoman Carolyn Kilpatrick, for her leadership in working 
with me not only on this bill, but on our principles, as we 
have tried to be a very, very large participant in this 
important debate.
    Let me thank the first Vice Chair, Congresswoman Barbara 
Lee, who is present here today, and we thank her for her 
presence. And, as well, we thank our good and dear friend--and 
I assume in a hearing we don't call them a dear friend, we call 
them the Chairman of the Intelligence Committee--but a leader 
on these issues, Silvestre Reyes from Texas.
    And we do thank Nancy Boyda who is here as a frontliner, 
but a new leader in the community, and raises important issues 
which we look forward to hearing.
    Thank you very much, Madam Chair, and I yield back my time.
    Ms. Lofgren. Thank you.
    I would now recognize the Ranking Member, Mr. King of Iowa, 
for his opening statement.
    Mr. King. Thank you, Madam Chair. And I must be frank and 
express my disappointment with the subject of this hearing.
    H.R. 750, the Save America Comprehensive Immigration Act 
really is quite a title for a bill that grants amnesty to the 
large majority of the 12 to 20 million illegal aliens currently 
residing in the United States. America has rejected mass 
amnesty by a large margin. And amnesty, I believe, is an 
affront to native-born Americans, to naturalized citizens, to 
legal immigrants, and to the very concept of the rule of law. 
Amnesty rewards law breakers and will only encourage new waves 
of illegal immigration. Amnesty will doom millions of the most 
underprivileged Americans to a future without any hope of good 
jobs or a good education as recipients continue to depress the 
labor market and crowd our children's schools. And amnesty will 
cost American taxpayers billions of dollars a year as illegal 
aliens become eligible for a whole host of Federal, State and 
local welfare programs.
    The Senate Democrats' plans for mass amnesty were defeated 
in June by an unprecedented outpouring of opposition by the 
American people. It shut down the switchboards in the Senate. 
When has that happened and what was the subject matter? 
Immigration would have to be it. I had thought that the Senate 
defeat convinced the House leadership to abandon its own plans 
for a mass amnesty in this Congress. And after all, Rahm 
Emanuel got into some hot water about immigration policy when 
he said no way comprehensive reform would happen until the 
second term of the next Democrat President.
    However, I can only assume that since the Subcommittee is 
holding a hearing at this late date on mass amnesty 
legislation, that the House Democratic leadership still 
entertains plans for passing mass amnesty. Apparently the House 
Democratic leadership has not heard the pleas of the American 
people to secure our borders, uphold the rule of law, stand up 
for American workers and American communities.
    Apparently the House Democratic leadership has heard the 
pleas of States and localities for the Federal Government to 
take charge--has not heard the pleas of States and localities 
for the Federal Government to take charge of immigration law 
enforcement so that they do not have to. But we are hearing 
from the States, the counties, the political subdivisions, as 
they step up and do what they can within the limits and the 
constraints of the Constitution.
    But, most startlingly, the House Democratic leadership has 
apparently not heard the pleas of members of its own Caucus who 
ask that Congress step up to the plate and pass meaningful 
immigration enforcement legislation.
    Only this week, freshman Democrat Heath Shuler introduced 
his bipartisan immigration law enforcement legislation with the 
support of 44 of his Democratic colleagues and 40 Republicans. 
The Shuler bill contains no mass amnesty. And in fact, the 
Shuler bill--Mr. Shuler has said about his bill that he would 
oppose his own bill should an amnesty ever be attached. What 
the bill does contain are a number of significant provisions to 
end the job magnet that draws most illegal aliens to this 
country.
    I would point out the definition of amnesty. To grant 
amnesty is to pardon immigration law breakers and reward them 
with the objective of their crime. The Shuler bill sends an 
important message that some Democrats are now joining 
Republicans in calling for serious immigration law enforcement.
    And yet we are heeding this hearing today on mass amnesty 
legislation, mass amnesty legislation that doesn't even pretend 
to address the job magnet for illegal aliens. I can only assume 
that the House Democratic leadership has not yet heard the 
message that Mr. Shuler and his Democratic colleagues have 
sent.
    I haven't even mentioned all of the other objectionable 
provisions in H.R. 750. The bill dramatically increases legal 
immigration, which is contrary to the wishes of the vast 
majority of the American people. The bill perversely makes it 
much easier for criminal aliens to avoid deportation. It 
actually puts up roadblocks in the way of effective immigration 
law enforcement, such as empowering--such as by empowering 
sanctuary cities.
    I again want to express my disappointment with today's 
hearing. I would urge instead that the Chair consider holding a 
hearing on Mr. Shuler's bill at the earliest opportunity, 
followed by a markup. There are 80 cosponsors there. I don't 
believe there are anywheres near that many cosponsors on this 
bill. In fact, it is 22 cosponsors on this bill.
    So with that encouragement, Madam Chair, I would yield back 
the balance of my time. I look forward to the testimony of the 
witnesses and thank them for being here.
    Ms. Lofgren. The gentleman yields back and we will reserve.
    If the Ranking Member of the full Committee and the 
Chairman of the full Committee come, we will of course hear 
their statements at that time. Other Members are asked to 
submit their statements for the record.
    We have two distinguished panels of witnesses here today to 
help us consider the important issues before us.
    Seated at our first panel are our colleagues. It is my 
pleasure to introduce our friend and colleague, Congresswoman 
Carolyn Cheeks Kilpatrick, born and raised in Detroit, MI. 
Congresswoman Kilpatrick has represented her hometown in 
Congress since 1997. She is a leader on the Appropriations 
Committee and she was unanimously elected to chair the 
Congressional Black Caucus earlier this year.
    Next, I am pleased to welcome my fellow Californian, 
Congresswoman Barbara Lee. Congresswoman Lee has served the 
people of the Ninth District since 1998, and she currently 
serves also on the Appropriations Committee. Born in El Paso, 
we know her as the first Vice Chair of the Congressional Black 
Caucus, a senior Democratic whip, and co-chair of the 
Progressive Caucus.
    Next, we have Congressman Silvestre Reyes who has served in 
the House for 11 years as a Representative from the Texas 16th 
District. He began his career with the U.S. Immigration and 
Naturalization Service and the U.S. Border Patrol. He started 
as a Border Patrol agent, later rose through the ranks of 
immigration inspector, instructor at the Border Patrol Academy, 
and assistant regional Border Patrol commissioner, and, of 
course, now serves as Chair of our Intelligence Committee.
    Finally, I am pleased to welcome Congresswoman Nancy Boyda, 
serving her first term in Congress as the Representative of 
Kansas' Second District. Congresswoman Boyda grew up in 
Marshall County, Kansas and served with distinction in the U.S. 
Marine Corps. She serves on the Committees of Agriculture and 
Armed Services, and it is a real pleasure to serve with her in 
Congress as well. So we look forward.
    As you know, your full statements will be admitted into the 
record. We are advised that we have votes at around 11. So we 
will look forward to your testimony orally of about 5 minutes, 
beginning with you, Congresswoman Kilpatrick.

    TESTIMONY OF THE HONORABLE CAROLYN CHEEKS KILPATRICK, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Kilpatrick. Thank you, Madam Chair, and for your hard 
work and the work of the Committee who have held several 
hearings on immigration in general, and comprehensive 
immigration in some regards.
    I want to thank our colleague, Sheila Jackson Lee, who co-
chairs our task force for the Congressional Black Caucus, 43 
Members from 21 States who represent over 40 million Americans; 
18 of our members have less than 50 percent African Americans; 
5 of our members have less than 15% African Americans. So we 
represent the conglomerate: Asian Americans, African Americans, 
European Americans, Native Americans, Latino Americans, and the 
like.
    We are here today to put our statement in the record and 
our principles. And we choose to call the glass half full legal 
access to immigration. And that is what we want, legal access 
to immigration.
    I represent the largest port in North America in the 
northern part of our country. My city, the City of Detroit, 
borders an international crossing with Canada, one of our 
friendly partners. So I as a member and Chair of this 
Congressional Black Caucus, as well as all of our members and 
many Members of Congress, want legal access to immigration in a 
comprehensive way.
    I would like to put on the record--and my full statement in 
the record--the principles of the Congressional Black Caucus. 
We want earned access to lawful, permanent resident status for 
persons currently in the United States. Earned access.
    We want to assure education, job training, 
nondiscriminatory employment, and livable wages for all legal 
workers; immigration regulations that will increase diverse 
immigration among historically underrepresented regions such as 
the Caribbean and Africa; a strong border security and 
comprehensive immigration reform.
    We know that much work has been done. That when we get 
through with this, we hope we will attack and have a good 
policy for legal immigration; that people must earn their 
status, must file the papers, must do the proper procedures 
before they become current citizens of our country. We are not 
asking for a mass illegal immigration of anyone. We want to 
work with you.
    We intend to do that forthwith, and thank you for the 
opportunity to come before you today.
    Ms. Lofgren. Thank you, Congresswoman.
    [The prepared statement of Ms. Kilpatrick follows:]
   Prepared Statement of the Honorable Carolyn Cheeks Kilpatrick, a 
         Representative in Congress from the State of Michigan
    Madame Chair, Members of the Immigration Subcommittee, and my 
colleagues:
    Giving thanks to God, who is the guide of my life, I welcome you on 
behalf of the 43 Members of the Congressional Black Caucus or CBC. Next 
year, I will celebrate three decades of public service to the people of 
the great State of Michigan and of the United States of America. One of 
the key issues that face all Americans today is that of immigration. It 
is my hope that the Committee analyzes H.R. 750, the Save America 
Comprehensive Immigration Act of 2007, as a bill worthy of serious 
consideration if we are going to move forward with immigration reform. 
I want to thank all of the Members of both this subcommittee and the 
full committee. However, I once again, want to commend the gentlelady 
from Texas, Congresswoman Sheila Jackson Lee, for her hard work, her 
diligence, and her dedication and that of her staff in drafting H.R. 
750 and for her continued effort in helping to educate the CBC on this 
issue.
    The Congressional Black Caucus has issued four guiding fundamental 
principles as Congress tackles immigration reform:

        <bullet>  Earned access to lawful permanent resident status for 
        persons currently in the United States;

        <bullet>  Assure education, job training, non-discriminatory 
        employment and livable wages for all legal workers;

        <bullet>  Immigration regulations that will increase diverse 
        immigration from historically underrepresented regions, such as 
        the Caribbean and Africa; and

        <bullet>  Strong border security and comprehensive immigration 
        reform.

    H.R. 750 contains all of these provisions, and much more. This bill 
ensures that families of immigrants will be allowed to stay together. 
It tackles the challenge of human trafficking in its establishment of a 
task force to rescue immigrant victims of American Sex offenders. It 
helps immigrants, who want to come to American lawfully, who are 
victims of document fraud and unscrupulous lawyers. It strengthens our 
border patrol system, provides more pay for Border Patrol Agents, and 
speeds up deportation proceedings against those who have been found 
guilty of breaking American laws. And, finally, it changes the 
complexion of the issue of the immigration of Haitian Refugees to 
ensure that the children and families of Haitian immigrants can remain 
whole. When we think ``immigration,'' we don't think about the hundreds 
of thousands of individuals who cross into my home city of Detroit, 
Michigan, home to the largest port in North America. When we think 
``immigration, we don't consider those hundreds of thousands of 
families who want to become American citizens from the land that is the 
origin of all of us, Africa. When we think ``immigration,'' we don't 
remember the fact that the fabric that makes up the blanket of America 
is made of human beings who represent all of God's children.
    Most importantly, H.R. 750 gives our nation, and other citizens of 
the world, hope. H.R. 750 re-establishes part of the inscription that 
is at the base of the Statue of Liberty:

                    ``Give me your tired, your poor,

             Your huddled masses yearning to breathe free,

               The wretched refuse of your teeming shore.

            Send these, the homeless, tempest-tossed to me,

                I lift my lamp beside the golden door!''

    H.R. 750 lifts the lamp of freedom, of justice, of fairness and of 
equality to those who sometimes risk their very lives to become nothing 
more than hard-working, tax paying American citizens. It ensures that 
jobs and job training for Americans will not be eroded. In summary, 
this bill meets all of the dynamics and recommendations of the 
Congressional Black Caucus.
    Among other things, according to the Congressional Research 
Service, this bill will:

        Direct the Secretary of State to establish a Board of Family-
        based Visa Appeals within the Department of State.

        Authorizes the Secretary of Homeland Security (Secretary) to 
        deny a family-based immigration petition by a U.S. petitioner 
        for an alien spouse or child if: (1) the petitioner is on the 
        national sex offender registry for a conviction that resulted 
        in more than one year's imprisonment; (2) the petitioner has 
        failed to rebut such information within 90 days; and (3) 
        granting the petition would put a spouse or child beneficiary 
        in danger of sexual abuse.

        Direct the Secretary to establish the Task Force to Rescue 
        Immigrant Victims of American Sex Offenders.

        Authorizes the Secretary to adjust the status of aliens who 
        would otherwise be inadmissible (due to unlawful presence, 
        document fraud, or other specified grounds of inadmissibility) 
        if such aliens have been in the United States for at least five 
        years and meet other requirements.

        Authorizes the emergency deployment of Border Patrol agents to 
        a requesting border state.

        Sets forth provisions for Border Patrol acquisition and use of 
        specified equipment.

        Direct the Secretary to: (1) provide for additional detention 
        space for illegal aliens; (2) increase Border Patrol agents, 
        airport and land border immigration inspectors, immigration 
        enforcement officers, and fraud and document fraud 
        investigators; (3) enhance Border Patrol training and 
        operational facilities; (4) establish immigration, customs, and 
        agriculture inspector occupations within the Bureau of Customs 
        and Border Protection; (5) reestablish the Border Patrol anti-
        smuggling unit; (6) establish criminal investigator occupations 
        within the Department of Homeland Security (DHS); (7) increase 
        Border Patrol agent and investigator pay; (8) require foreign 
        language training for appropriate DHS employees; and (9) 
        establish the Fraudulent Documents Task Force.

        Redefines the term ``law enforcement officer'' under provisions 
        of the Federal Employees Retirement System (FERS) and the Civil 
        Service Retirement System (CSRS) to include: (1) federal 
        employees not otherwise covered by such term whose duties 
        include the investigation or apprehension of suspected or 
        convicted individuals and who are authorized to carry a 
        firearm; and (2) Internal Revenue Service (IRS) employees whose 
        duties are primarily the collection of delinquent taxes and the 
        securing of delinquent returns.

        Authorizes S (witness or informant) nonimmigrant status for 
        aliens in possession of critical reliable information 
        concerning commercial alien smuggling or trafficking in 
        immigration documents.

        Establishes a reward program to assist in eliminating 
        immigration-related commercial document fraud operations.

        Sets forth unfair immigration-related employment practices.

        Requires petitioners for nonimmigrant labor to describe their 
        efforts to recruit lawful permanent residents or U.S. citizens.

        Makes permanent an INA provision allowing adjustment of status 
        of certain aliens for whom family-sponsored or employment-based 
        applications or petitions were filed by a specified date.

        Lessens immigration consequences for minor criminal offenses. 
        Eliminates retroactive changes in grounds of inadmissibility 
        and removal.

        Amends criminal offense removal-related provisions.

        Increases the worldwide level of diversity immigrants.

        Authorizes adjustment of status for certain nationals or 
        citizens of Haiti.

        Eliminates mandatory detention in expedited removal 
        proceedings.

        Amends the Haitian Refugee Immigration Fairness Act of 1998 to: 
        (1) waive document fraud as a ground of inadmissibility; and 
        (2) address determinations with respect to children.

        Eliminates the one-year filing requirement for asylum 
        applicants. Includes gender persecution within the particular 
        social group category of persecution.

        Provides for the permanent resident status adjustment of 
        certain temporary protected status persons.

        Amends the Illegal Immigration Reform and Immigrant 
        Responsibility Act of 1996 to eliminate a provision prohibiting 
        restrictions on the communication of immigration status 
        information by a government entity.

        Replaces the existing fashion model H-1B visa classification 
        with an O-visa classification.

    As elected officials, we can worry about our next elections, or we 
can worry about the next generation. The Congressional Black Caucus has 
historically chosen the path least taken and the road less traveled as 
we continue to be the conscience of the Congress. If we do not tackle 
the challenge of immigration now, it will be something that will haunt 
my children, our children, and my five grandsons, our grandsons, for a 
generation to come. This not only affects our families, but it affects 
the safety and security of our nation, and the businesses of our 
country. This is too important a matter to allow to lie dormant.
    In summary, I applaud the Committee for continuing to focus on this 
matter. If Congress does not tackle this matter, we will have abdicated 
our responsibility to the many states, cities and counties of this 
nation. You cannot pick up a newspaper with another new, often 
politically expedient and sometimes draconian measure that has been 
passed regarding immigration.
    H.R. 750, the Save America Comprehensive Immigration Act, while not 
perfect, is a step in the right direction regarding immigration reform. 
It will help bring the more than 12 million undocumented immigrants out 
of the shadows of our economy because it creates a clear path to lawful 
residency for those willing to pay fines and demonstrate a commitment 
to America and becoming Americans. It protects our nation by 
strengthening our Border Patrol agents and speeds up the lawful 
immigration process. It eliminates the onerous backlogs in our family 
immigration system. It ensures that due process of the law and protects 
legal immigrants from fraudulent lawyers and unscrupulous operators. It 
changes the dynamic of immigration to include the issues of Northern 
border states and the unique challenges of Caribbean and African 
immigrants. It protects the jobs and job training opportunities of hard 
working, tax paying Americans. It is a common-sense bill that, based 
upon its merits, deserves complete, comprehensive and fair 
consideration by all Members of Congress.
    I thank the Committee for inviting me to this most important 
hearing, and for its time.

    Ms. Lofgren. Next we turn to our friend, Barbara Lee.

  TESTIMONY OF THE HONORABLE BARBARA LEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Lee. Thank you very much. Let me also thank you, Madam 
Chair, for your leadership and for really conducting the 
hearings and an agenda on immigration reform that has been very 
thorough and very comprehensive. And thank you, Congresswoman 
Jackson Lee, for oftentimes being the voice in the wilderness 
on immigration reform and why we cannot allow immigration 
policy, immigration reform, to become a wedge issue. And thank 
you for your legislation and for your leadership.
    Let me commend this esteemed panel. We all have different 
points of views on immigration, but I think everyone agrees 
that our Nation--we understand that our Nation is a Nation of 
immigrants and that immigration really is an issue of family 
values, opportunity, and it is a core issue of civil rights.
    My view, of course, is shaped by my own personal history. I 
grew up in El Paso, Texas, which is represented by my 
colleague, Congressman Silvestre Reyes, who is doing a 
phenomenal job not only for his congressional district but for 
my home city, and I consider him my Congressman. So I attended 
school in El Paso, Texas and got to know the immigrant 
community in a very intimate way because of my upbringing, and 
understand very clearly that immigrants have contributed 
immeasurably to American ingenuity and innovation and to our 
economy. So even though we have different histories, all of us, 
and exposure to immigrants and their contributions, we all 
should be able to agree that the current system of immigration 
is not meeting the current needs and that we do need to move 
forward on comprehensive immigration reform.
    Now, as the co-chair of the Congressional Progressive 
Caucus, I am proud to share that that caucus has outlined a 
series of principles to sum up our position on immigration and 
immigration reform. Simply put, we must have a fair and 
equitable immigration policy that provides a well-defined and 
time-bound path to permanent residency and citizenship, and I 
would like to ask these principles to also be included in the 
record.
    Ms. Lofgren. Without objection, they will be.
    [The information referred to is available in the Appendix.]
    Ms. Lee. Let me just summarize what some of these 
principles are, because I want to make sure it is very clear 
that we are talking about:
    A clear and legal and earned access as the path to 
permanent residency and citizenship for all of the millions of 
undocumented workers and their immediate families.
    A policy that works to unite families and not to separate 
children from their parents.
    A system that is timely and straightforward without 
charging excess fees or fines that are out of reach for 
immigrant families.
    The ability of children to pursue an education and have 
access to student loans and in-State tuition.
    A system that minimizes mandatory and indefinite detention 
of noncitizens and safeguards the universal human rights of 
every person.
    A plan that provides for equitable and nondiscriminatory 
enforcement of laws, that does not make first responders like 
firemen and -women and police into immigration agents. We want 
to encourage employers--for employers to citizens and legal 
residents first, but does not make them into immigration 
officers either.
    And a strong, of course, and sensible border security plan. 
We all agree border security must be essential and central to 
any immigration policy to ensure the safety of our country.
    Also we heard from our esteemed Chair of the Congressional 
Black Caucus, which I am honored to serve as Vice Chair, and 
the principles which the Congressional Black Caucus has put 
forth does quite a bit to make certain, first of all, that 
immigrants do not become--or immigration does not become a 
wedge issue.
    And I want to thank the Congressional Black Caucus because 
it recognizes the importance of job training, education, and 
jobs for American workers in its principles.
    Congresswoman Jackson Lee, your bill, H.R. 750, the ``Save 
America Comprehensive Immigration Act of 2007,'' really does 
move us forward in terms of strengthening the focus on family 
reunification and also making sure that we increase the level 
of diversity of immigrants worldwide, which is very important.
    Oftentimes we forget that there are immigrants from Haiti 
and Liberia, which have been treated unfairly in our 
immigration policy. So your legislation does put us forward--
makes a major step forward to make sure that our immigration 
policy is not discriminatory and that it is fair.
    So, Madam Chair, I am here today to urge this Subcommittee 
to provide, really, the support for a morally correct, tough, 
comprehensive immigration plan and to consider Congresswoman 
Jackson Lee's bill in a way that all of us have, because we 
think it is an excellent bill and we appreciate the opportunity 
to provide some input and share our principles with you. And 
thank you again for your leadership.
    Ms. Lofgren. Thank you, Congresswoman.
    [The prepared statement of Ms. Lee follows:]
 Prepared Statement of the Honorable Barbara Lee, a Representative in 
                 Congress from the State of California
    Thank you, Chairwoman Lofgren for holding this important hearing 
today. And let me thank my colleague Congresswoman Sheila Jackson Lee 
for inviting me to join this accomplished panel to share our 
perspectives on immigration.
    Also, thank you for your strong leadership and unwavering 
commitment to one of the most important issues facing America today: 
ensuring that our immigration system works.
    Even though America is a nation of immigrants, we may have 
different views of what immigration means to America. To me, 
immigration is an issue of family values, opportunity, and at it's 
core, an issue of civil rights.
    My view is shaped by my personal history. I grew up in an El Paso 
border town and lived and learned in a community of immigrants. I 
attended college and university in and now am lucky enough to represent 
another community of immigrants, the Ninth District of California.
    I have always known and valued the contributions of immigrant 
communities. I know that immigrants have contributed immeasurably to 
American ingenuity, innovation, and the economy.
    Still, I understand that we may have different histories and 
exposure to immigrants and their contributions to our nation. We may 
have different views on what immigration means to America's future. But 
what we can all agree on is that the current system of immigration is 
not meeting the current needs.
    As the Co-Chair of the Congressional Progressive Caucus, I'm proud 
to share that the Caucus has outlined a series of principles to sum up 
our position on immigration and immigration reform. Simply put, we must 
have a fair and equitable immigration policy that provides a well 
defined and time bound path way to permanent residency and citizenship.
    More specifically, the Progressive Caucus believes that 
comprehensive immigration reform must include:

        <bullet>  a clear legal path to permanent residency and 
        citizenship for all the millions of undocumented workers and 
        their immediate families;

        <bullet>  A policy that works to unite families and not to 
        separate children from their parents;

        <bullet>  a system that is timely and straightforward without 
        charging excessive fees or fines that are out of the reach for 
        immigrant families;

        <bullet>  the ability for children to pursue an education, and 
        have access to student loans and in-state tuition;

        <bullet>  a system that minimizes mandatory and indefinite 
        detention of non-citizens and safeguards the Universal Human 
        Rights of every person;

        <bullet>  a plan that provides for the equitable and non-
        discriminatory enforcement of laws that does not make first 
        responders like firemen and police into immigration agents;

        <bullet>  encouragement for employers to hire citizens and 
        legal residents first, but does not make them into immigration 
        officers either;

        <bullet>  a strong and sensible border security plan to ensure 
        the safety of our country

    In the same vein, I'm a pleased to share the perspective of the 
Congressional Black Caucus for which I'm honored to serve as Vice-Chair 
under the leadership of our friend and colleague Congresswoman 
Kilpatrick.
    The CBC's immigration reform goals also include a call for a 
pathway for earned access to citizenship that focuses on the 
reunification of families and provides a pathway for permanency for 
every immigrant in America.
    The Congressional Black caucus also understands that we must not 
allow outdated policies to unfairly discriminate between immigrants 
from one part of the world from another.
    This is why I am pleased that you, Chairwoman Jackson Lee have 
introduced, H.R. 750, the Save America Comprehensive Immigration Act of 
2007. H.R. 750 provides a platform to move America forward by providing 
a new framework to acknowledge the cultural and economic benefit that 
immigration provides for all Americans.
    This bill will strengthen the focus on family reunification, 
provide the flexibility for the Department of Homeland Security to make 
status adjustments for immigrants who have been in the US for at least 
5 years. It will also increase the level of diversity immigrants 
worldwide and fixes the unfair provisions that apply to citizens of 
Haiti and Liberia. In short this legislation represents an important 
step forward towards bringing our immigration policy into the 21st 
century.
    We have all heard the fear-mongering from some parts and the bottom 
line is that we must stop playing politics with immigration. We must 
focus on legislation that will get this country headed in a direction 
that will make sense for everyone.
    Madam Chair, I am here today to urge this committee to support a 
fair and moral comprehensive immigration plan and to support an end to 
the attacks on hard-working, law-abiding members of our immigrant 
community, our American community.
    Again Congresswoman Jackson Lee thank you for your leadership and 
your vision on this issue and I look forward to working with you as we 
craft a solution to this important challenge

    Ms. Lofgren. Mr. Chairman.

TESTIMONY OF THE HONORABLE SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Madam Chairwoman. I want to thank you 
and the Ranking Member for holding this very important hearing 
this morning. Special thanks from me to my fellow Texan, Sheila 
Jackson Lee, both for inviting me to speak to your Committee 
this morning and, most importantly, for being a champion in 
working on the three and very important aspects of 
comprehensive immigration reform.
    As most of you know, before coming to Congress, I served 
for 26-1/2 years in the U.S. Border Patrol where I began as an 
agent and was fortunate enough to work my way through the ranks 
and be chief for the last 13 years, at two different locations. 
I think I am the only Member of the Congress with a background 
in border enforcement. So I have firsthand knowledge of what we 
need to do in order to reduce illegal immigration while keeping 
our borders and the Nation safe.
    This, I want to be clear, is a national security issue. 
Right now we have an underground world of, take your pick, from 
9 to 12--I just heard Ranking Member King talk about 20 
million--so somewhere in that range we have a world of people 
living in our own country who are those that would want to hurt 
our communities, can move around freely. So, to me 
comprehensive immigration reform makes sense. It is a national 
security issue.
    During my tenure, I not only oversaw long stretches of 
terrain between the ports of entry, but for 4 years I also 
worked the international bridges. I have a broad understanding 
of what it takes in order to secure the many components of our 
Nation's borders.
    With that, Madam Chairwoman, I am going to applaud your 
efforts to keep comprehensive immigration reform at the 
forefront of our discussions here in Congress. I have always 
said that we needed a comprehensive immigration reform plan 
with three main components: number one, strengthen border 
security; number two, earned legalization for those who 
qualify; and, three, a guest-worker program with tough employer 
sanctions and provisions.
    Comprehensive reform for me is like a three-legged stool. 
Without one leg, the stool topples over. Our Nation's current 
immigration system is broken, and, as I think a lot of us 
recognize, is in desperate need of repair. For the past few 
years, Congress and the Administration have been very concerned 
with cracking down on illegal immigration and have focused much 
of their energy on security and the security-only concept in 
legislation. While I will certainly agree that we need to focus 
on assuring everyone that enters our country enters legally, we 
must also remember not to put all of our attention and 
resources into one particular agency or one leg of the stool.
    While I do not this morning have enough time to address 
each of the legs that I feel are equally important, I would 
like to comment on one border security aspect which is, I 
think, very prominent not just around the country, but 
certainly in a district like mine. I represent a border 
district. While the number of United States Border Patrol 
agents has risen dramatically, the other agencies that assist 
in the security effort, sometimes with equal importance, have 
often been neglected.
    When the average person thinks about the men and women 
overseeing our Nation's borders, the first group, and 
understandably so, that comes to our minds are the men and 
women that serve us proudly wearing that green uniform of the 
Border Patrol. However, people often forget about the men and 
women in blue, the customs and border protection officers who, 
for instance, like in my district, saw more than 28.5 million 
individuals traveling by car or truck, this fiscal year alone, 
into our country through our international bridges.
    Our international bridges are suffering because attention 
has not been placed on them as a top priority. Over the last 
several months, constituents in my district and across the 
Nation have faced the increased wait times, and recent reports 
state that times have escalated upwards from 2 to 3 hours. This 
problem must be stopped and help directed in order to keep 
security high, while at the same time allowing the free flow of 
trade, commerce, and the everyday interchange between 
communities at the border region. I might add that applies not 
just to the U.S.-Mexico border but the U.S.-Canada border as 
well.
    I would also at this point take a moment and talk 
specifically to a section in my colleague Ms. Jackson Lee's 
bill H.R. 750, which is the Save America Comprehensive 
Immigration Act. Section 639 would increase the number of 
inspectors at our land and ports of entry. And while I applaud 
the 1,000 additional officers as a much-needed increase, we 
simply need to do more.
    In El Paso alone, in my district, we have four 
international bridges that are in need of a total of more than 
150 additional CBP officers just to maintain the already 
authorized on-duty force. That doesn't include expansion, just 
the on-duty force.
    We must continue to look at the current state of our 
Nation's ports of entry and commit to properly funding staffing 
levels which would be adequate enough to provide security for 
our Nation. Being understaffed and underfunded simply in 
today's world, with the challenges that we face as a Nation, is 
unacceptable.
    We must also remember all the agencies that have a role in 
securing the border along with the Border Patrol. We must 
increase the number of United States attorneys, immigration and 
customs enforcement inspectors, immigration judges, Federal 
judges, U.S. marshals, as well as Bureau of Prisons personnel.
    Immigration reform must continue to move forward and we 
must take, in my opinion, a holistic approach to ensure that we 
encompass all relevant agencies. They are all important in this 
process, just like a comprehensive approach.
    So I appreciate, Madam Chairwoman, the opportunity to 
testify this morning. And I look forward to continuing to work, 
certainly with my colleague from Texas, but from every Member 
of this Committee as you do very important work for our 
country. Thank you.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Reyes follows:]
 Prepared Statement of the Honorable Silvestre Reyes, a Representative 
                  in Congress from the State of Texas
    I would like to begin by thanking Chairwoman Zoe Lofgren and 
Ranking Member Steve King for holding this very important hearing 
today. Special thanks to my fellow Texan, Representative Sheila Jackson 
Lee, for inviting me to testify on an issue very familiar to me.
    As most of you know, before coming to Congress, I served for 26 1/2 
years in the U.S. Border Patrol where I began as an agent and was 
fortunate enough to be chief in two different locations for the last 
thirteen of those years. As the only Member of Congress with a 
background in border enforcement, I have first-hand knowledge of what 
we need to do in order to reduce illegal immigration while keeping our 
borders and the nation safe.
    During my tenure, I not only oversaw long stretches of terrain 
between the ports of entry, but for four years, I also worked at the 
international bridges. I have a broad understanding of what it takes in 
order to secure the many components our nation's borders.
    Madame Chairwoman, I applaud your efforts to keep comprehensive 
immigration reform at the forefront of discussion. I have always said 
that we need a comprehensive immigration reform plan with three main 
components: strengthened border security; earned legalization for those 
who qualify; and a guest worker program with tough employer sanctions. 
Comprehensive reform is like a three-legged stool. Without one leg, the 
stool topples.
    Our nation's current immigration system is broken and is in 
desperate need of repair. For the past few years, Congress and the 
Administration have been very concerned with cracking down on illegal 
immigration and have focused much of their energy on security-only 
legislation. While I certainly agree that we need to focus on assuring 
everyone enters our country legally, we must also remember not to put 
all of our attention and resources on one particular agency or leg of 
the stool.
    While I do not have enough time to talk to each leg of the stool, I 
would like to comment on the border security aspect which is very 
prominent in my district of El Paso, Texas. While the number of United 
States Border Patrol agents has risen dramatically, the other agencies 
that assist in the security effort have been neglected. When the 
average person thinks about the men and women overseeing our nation's 
borders the first group that comes to mind is the men and women in 
green. People often forget about the men and women in blue, the Customs 
and Border Protection Officers (CBOs), those who, for instance in my 
district, saw more than 28.5 million individuals traveling by car over 
this past fiscal year alone.
    Our international bridges are suffering because attention has not 
been placed on them. Over the last several months, constituents in my 
district and across the nation have faced increased wait times, and 
recent reports state that times have escalated upwards from two to 
three hours. This problem must be stopped and help must be directed in 
order to keep security high while allowing for the free flow of trade 
and commerce.
    I would like to take a moment and talk specifically to a section in 
Ms. Jackson Lee's bill, H.R. 750, the Save America Comprehensive 
Immigration Act. Section 639 would increase the number of inspectors at 
our air and land ports of entry. While 1,000 additional officers is an 
increase, we need to do more. In El Paso alone, four international 
bridges are in need of a total of more than 150 Custom and Border 
Protection Officers. We must look at the current state of our nation's 
ports of entry and commit to properly funding staffing levels adequate 
enough to provide security for our nation. Being understaffed and 
underfunded is unacceptable.
    We must also remember all the agencies securing the border along 
with Border Patrol. We must increase the number of United States 
Attorneys, Immigration and Customs Enforcement inspectors, immigration 
judges, federal judges, U.S. Marshals, as well as Bureau of Prison 
personnel.
    Immigration reform must continue to move forward, and we must take 
a holistic approach to ensure we encompass all relevant agencies. I 
appreciate the opportunity to testify this morning, and I look forward 
to working on this important mission together. Thank you for giving me 
time to testify, and I would be happy to answer any questions you might 
have.

    Ms. Lofgren. And our last witness is our colleague, 
Congresswoman Boyda.

TESTIMONY OF THE HONORABLE NANCY E. BOYDA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mrs. Boyda. Madam Chairwoman and Ranking Member King, and 
thanks to Barbara Jackson Lee as well, for having the 
discussion, at least on this issue.
    Thanks for inviting me to testify on this critical issue of 
immigration. We are at a crisis. The lack of enforcement of our 
immigration laws has in fact led to increased illegal 
immigration. Quite honestly, this is simply unacceptable to the 
people of the Second District of Kansas. And I agree, like you, 
that it is time, it is actually past time that we find real 
solutions to the problem.
    In addition to my concerns about what has become a flood of 
illegal immigrants, I am concerned about where the immigration 
conversation is going in our country. We are losing control not 
only of our borders, but we are also losing control of the 
conversation on illegal immigration and how to fix the problem. 
The longer we delay action, the worse the problem gets and the 
worse the rhetoric gets. At this time we are still able to have 
a conversation that discusses how we can move forward to secure 
our borders, to verify unemployment, and to enforce our laws. 
My fear is if we do not address this immigration crisis soon, 
that we will no longer be able to have a conversation about how 
we fix the problem; instead, we may end up in a yelling match 
with heated rhetoric against immigration and immigrants.
    That is not what our country is about. It would be--could 
be a conversation truly about hatred. This is not a 
conversation that represents America at its finest, and it is a 
not a conversation that we need to have. Again, I agree with 
this Committee that it is time, it is past time, that we find 
solutions.
    I believe that there are three steps to stopping the flow 
of illegal immigrants. We have to secure our borders. But we 
must require that employers verify employment eligibility and 
we must enforce our immigration laws. Congress must and can 
demonstrate to the American people that we are willing and able 
to protect our Nation's borders. We are a Nation of laws and 
they must be enforced. Those violating laws cannot be rewarded. 
Enforcement of immigration laws would substantially reduce 
illegal immigration and greatly increase border security.
    This is why I have serious concerns about some of the 
provisions of H.R. 750, the ``Save America Comprehensive 
Immigration Act of 2007.'' I believe that several provisions 
actually reward people who have broken our laws, and all that 
does is encourage more to do the same.
    I believe that the three steps to stopping the flow of 
illegal immigrants--securing our borders, requiring employers 
to verify employment eligibility, and to enforce immigration 
laws--are the answer. Congress can and must demonstrate to the 
American people that we are willing and able to control our 
borders.
    To that end, H.R. 750 has worthwhile provisions. It 
increases, as Mr. Reyes has said, it increases the number of 
Border Patrol agents by significant numbers, and it contains 
much-needed provisions to retain those agents with loan 
repayments, easement of the regulations on recruitment and 
retention, and the repeal of the DHS human resources management 
system which has been the cause of much of the career disaster 
that has happened to this vital agency lately.
    H.R. 750 also pays particular attention to addressing 
concerns about sex offenders already abusing our dysfunctional 
immigration system. For that I congratulate you and say thank 
you.
    We are at a turning point. The longer that we delay action, 
the more the rhetoric I am concerned will get out of hand. If 
that happens, our ability to come together to solve this 
problem will in fact get farther and farther away. The solution 
is clear: Secure our borders, eliminate the job magnet, and 
enforce our laws.
    Madam Chairwoman, I yield back. Thank you so much for 
allowing me to testify.
    [The prepared statement of Ms. Boyda follows:]
Prepared Statement of the Honorable Nancy E. Boyda, a Representative in 
                   Congress from the State of Kansas
    Madam Chair, and fellow Members, thank you for inviting me to 
testify on the critical issue of immigration.
    We are at a crisis. The lack of enforcement of our immigration laws 
has led to increased illegal immigration. This is unacceptable to the 
people of the Second District of Kansas.
    In addition to my concerns about the flood of illegal immigrants, I 
am concerned about where the immigration conversation is going in our 
country. We are losing control, not only of our borders, but also of 
the conversation on illegal immigration and how to fix the problem. The 
longer we delay action, the worse the rhetoric is going to get. At this 
time we are able to have a conversation that discusses how we move 
forward securing our borders, verifying employment and enforcing our 
laws. If we do not address the immigration crisis soon, we will no 
longer be able to have a conversation about how we fix the problem--it 
will instead be a yelling match with heated rhetoric against immigrants 
and immigration. That would be a conversation about hatred. That is not 
a conversation that represents America at its finest and it is not a 
conversation that we need to have.
    I believe that there are three steps to stopping the flow of 
illegal immigrants--secure our borders, require employers to verify 
employment eligibility and enforce immigration laws. Congress can and 
must demonstrate to the American people that we are willing and able to 
protect our nation's borders.
    We are a nation of laws--and they must be enforced. Those violating 
these laws cannot be rewarded. Enforcement of immigration laws would 
substantially reduce illegal immigration and greatly increase border 
security. This is why I have serious concerns about some of the 
provisions of H.R. 750, the Save America Comprehensive Immigration Act 
of 2007. I believe that several provisions reward those who have broken 
our laws. And all that does is encourage others to do the same.
    I believe that there are three steps to stopping the flow of 
illegal immigrants--secure our borders, require employers to verify 
employment eligibility and enforce immigration laws.
    Congress can and must demonstrate to the American people that we 
are willing and able to control our nation's borders. To that end, H.R. 
750 has some worthwhile provisions. It increases the number of border 
patrol agents by significant numbers and it contains much needed 
provisions to retain those agents with loan repayments, easing of the 
regulations on recruitment and retention bonuses, and the repeal of the 
DHS Human Resources Management System which has been the cause of much 
of the career dissatisfaction in this vitally important agency.
    H.R. 750 also pays particular attention to addressing concerns 
about sex offenders abusing our already dysfunctional immigration 
system.
    We are at a turning point, the longer we delay action, the more the 
rhetoric will get out of hand. If that happens, we will not be able to 
solve this problem.
    The solution is clear--secure our borders, eliminate the jobs 
magnet and enforce our laws.

    Ms. Lofgren. Thank you very much for your testimony and 
thanks to all of you for your testimony. We note that 
Congresswoman Kilpatrick has had a conflict and has had to 
leave the hearing, So if we have questions for her, we will 
submit them to her in writing. And we will now go to our 
questions for our colleagues. And I will turn first to the 
Ranking Member, Mr. King, to begin.
    Mr. King. Thank you, Madam Chair. I do want to thank all 
the witnesses. And certain things have raised my curiosity.
    I will go first to the gentleman, Mr. Reyes. And as you 
spoke to this, I will say that I agree with you, we need to 
enhance our ability at a lot of the ports of entry. I see 
traffic backed up for hours and miles. And I would say widen 
that, add to the personnel, be more effective and efficient on 
screening those that come in. That would be my view.
    But I would ask you, you have read this bill; and do you 
then support H.R. 750?
    Mr. Reyes. I do support it. I will tell you that we need to 
do more. I think it is a good starting point. I think that 
there are sections that we do need to look at and expand. I 
think we----
    Mr. King. Are there sections you disagree with?
    Mr. Reyes. Well, in the concept of comprehensive 
immigration reform, I haven't seen, at least from my viewpoint, 
a process that takes into account all three different areas, 
which are border enforcement, the legalization process for 
those that have earned it, and, most importantly, a guest-
worker program with employer sanctions, provisions, because I 
think that is----
    Mr. King. Excuse me. Those sections that diminish the 
standards that--let's see--that allow people to have a path to 
an LPR and citizenship, that may have served less than a year 
to a sentence, those kind of things that lower our standards to 
identify those people who are criminals, is that a part of 
concern to you?
    Mr. Reyes. Of course. Those are all--that is why I say I 
have not seen a piece of legislation that I completely agree 
with, including this bill. But it is important that through 
these hearing processes that we have--that we honor the process 
that gets us to a position of compromise that takes into, in my 
opinion, those three different areas.
    Mr. King. Thank you, Mr. Reyes.
    And I turn to Ms. Lee. And as I listened to your testimony, 
I see this word ``immigrants'' come up, but I never see a 
reference there to illegal immigrants or illegal aliens. Do you 
in your mind draw a distinction between illegal aliens and 
immigrants? Because a lot of immigrants out there that came 
through the legal process don't really want to be marked with 
the commingling of that concept by the illegal aliens who 
didn't come through the process.
    Ms. Lee. Well, sir, first, ``aliens'' is an alien term to 
me. These are----
    Mr. King. Let's go with illegal immigrants then.
    Ms. Lee. Illegal immigrant workers, primarily. And there is 
a distinction between those who have come through the 
legalization process and those who haven't.
    Mr. King. In your testimony when you refer to immigrants, 
then----
    Ms. Lofgren. I ask the Ranking Member to show enough 
courtesy to allow the witnesses to answer.
    Ms. Lee. And in my testimony, I believe--I generally refer 
to those coming here illegally as undocumented workers; 
primarily they are coming here to work. And I believe that as 
part of comprehensive immigration reform, we have to have an 
earned access and earned pathway to citizenship. I believe the 
bureaucracy--oftentimes there is a lot of red tape, first of 
all. And I think that people should be able to become citizens 
as quickly as possible.
    Border security is very important. We heard Silvestre Reyes 
talk about and this has got to be a comprehensive approach.
    Mr. King. Hopefully I have shown adequate courtesy. But I 
don't think I understand the distinction, then, when you refer 
to the word ``immigrant'' in your testimony, which group you 
might be referring to if there is a distinction.
    Ms. Lee. In terms of what? What are you talking about? In 
terms of--those that we are talking about, that I am talking 
about who should be allowed to become citizens are 
undocumented. And my position is, like that of the Progressive 
Caucus, that there should be earned access to legalization. And 
those are the individuals that we hope we can come up with a 
policy to allow this to take place. Of course, within whatever 
laws we come up with, with whatever time frames we come up 
with, and with whatever criteria we come up with.
    Mr. King. And I ask the gentlelady--and still it is not 
clear to me what you mean when you say ``immigrants.'' I do 
think it is in the blood. I take you back to, if I might ask my 
question, I take you back to the term ``undocumented'' then. 
And I ask you that when you refer to undocumented immigrants, 
do you--and I want to make sure this panel understands that 
most of them are documented, it is just that they have a lot of 
counterfeit documents. So when we use the term 
``undocumented,'' it is hard to understand by using Noah's 
dictionary what we really mean by that. And what do you mean?
    Ms. Lee. I mean--when I talk about undocumented immigrants, 
I am talking about those immigrants who have come to this 
country without the legal documents that are required by law, 
that come here to work, primarily in the farm, in the 
agricultural fields. They come to work, as we know, primarily 
in a lot of the service industries, and without legal 
documents.
    And what I am saying, I think you understand, I hope the 
Committee understands, that it is these individuals, those 
individuals that we believe should have the earned access to 
legalization in a way that makes sense, that is within the 
jurisdiction of the laws that we pass here, and it has got to 
be comprehensive.
    Mr. King. I would ask unanimous consent to ask one 
additional question.
    Ms. Lofgren. Without objection, the gentleman has another 
minute.
    Mr. King. Thank you, Chairwoman. It takes--is this part--I 
have many other questions, but I do want to focus it to one. 
And that is, as I read your testimony, Ms. Lee, and as I read 
through the summaries of the bill presented by Ms. Jackson Lee, 
I begin to see that this list of people who would be brought in 
under this bill is a vastly expanded list from anything that we 
have contemplated in this Congress before, and it takes me 
clear to the other side of this analysis. I used to analyze 
this legislation on how many more would be added to the list of 
those legalized in each of the categories to try to get a sense 
of the magnitude of the bills that would open up through this 
guest-worker status, for example. This bill takes me clearly to 
the other side of that concept, to asking the question who 
would be excluded?
    And I would pose that question to you, Ms. Lee. Who would 
be excluded under this bill?
    Ms. Lee. Well, Mr. King, I am not certain that I could 
answer that question with regard to who would be excluded. I 
think the purpose of this bill is very clear in terms of what 
it states, and I want to--you know, one section of this bill, I 
think, that is very important for us to understand, which I 
have to commend Congresswoman Jackson Lee for including, and 
that is making sure that the immigration laws don't 
discriminate between immigrants from some countries and 
immigrants from Haiti and Liberia, for example. That is a very 
important provision.
    You may think that may include additional individuals, but 
I think that it is important that whatever immigration policy 
we come up with, that it be fair and that it not discriminate 
against those from countries such as Haiti or Liberia.
    Ms. Lofgren. The gentleman's extension of time has expired, 
and I would turn now to the author of the bill, Congresswoman 
Jackson Lee, for her questions.
    Ms. Jackson Lee. Thank you very much, Madam Chair. And I am 
delighted with the testimony of all of the witnesses. And let 
me thank you very much for taking your time to be here and 
elaborate for us that there is a need for comprehensive 
immigration reform and that H.R. 750 is a complement to bills 
like the STRIVE Act and a number of others, including our good 
friend Heath Shuler.
    Let me just put into the record, Madam Chair, I think an 
important quote that helps me explain my good friend from 
Iowa's line of questioning. President Kennedy said: The great 
enemy of truth is very often not the lie, deliberate, contrived 
and dishonest, but the myth, persistent, persuasive and 
unrealistic. Beliefs in myths allow the comfort of opinion 
without the discomfort of thought.
    Let me simply indicate aspects of the bill that go to 
earned access, Mr. Reyes. My bill says that if you are here in 
the country for 5 years--I think other bills may say 6 years or 
more--no criminal record. And therefore as you well know, there 
would be a vetting. You would already be here. You might be a 
family member. You might have been working. And then once you 
get in line and have a process, then we even require community 
service. Some bills don't require that, but you are here in the 
country for a 5-year period.
    The other aspect of the bill provides facilitating for 
family-based immigration. And I know that many of us have heard 
of, say, the Philippines, family members here on line for 13, 
14 years. I remember going to a hearing with then-Chairman Hyde 
of the Judiciary Committee when we had a crisis, with lines 
around the building, the immigration services, before Homeland 
Security, when people were waiting in line for access to legal 
immigration. And so I am very proud that in this bill we have 
that aspect.
    And let me quickly, so that I can ask a question, cite as 
well some of the elements that Mr. Bonner will testify to. But 
in this question of inspectors, I agree with you. We should 
amend the bill to include more. But the bill has, of course, 
helicopters and powerboats controlled by the United States 
Border Patrol agents. But what it does do--and I think this was 
taken by the Governor of New Mexico. It was going to have an 
emergency dispatching to the border of States who call for 
additional Border Patrol agents at the time, so that if a State 
declares a crisis, the Federal Government could dispatch 
immediately and enhance the number of those individuals.
    So I would like to pose a question first to Mr. Reyes, 
Chairman of the Intelligence Committee, without asking for 
classified information. Is there a benefit to Americans to know 
who is in the country, to be able to get your hands around, in 
a documented satisfactory fashion, identifying everybody? Is 
there a definitive security benefit to Americans to have that--
to have that process in place?
    Mr. Reyes. Absolutely. That was the genesis of my comment 
that this in fact is a national security issue. This country 
after 9/11 cannot afford a shadow world of 9 to 12 million 
people, where those that would be intent on harming us can move 
about at will. So there is definitely, I think, that is why it 
cries out for comprehensive immigration reform.
    The reality that I think we have to recognize is that we 
are not going to get those 9 to 12, or, if you use Ranking 
Member King's estimate of 20 million, you are not going to get 
people to voluntarily come forward, and we are not going to be 
able to address it in a timely fashion as we are concerned 
about the potential for another terroristic threat, terroristic 
act, here within our own country.
    So it is imperative that we look at this from a national 
security issue. That is why these kinds of hearings are so 
important.
    Ms. Jackson Lee. Do you think there is a benefit to the 
provision that if Governors declare a crisis or an emergency in 
their State, they could appeal to the Federal Government for a 
dispatching of an additional thousand troops, for example--
excuse me, Border Patrol agents, for example, as did New 
Mexico, where they did it on their own. And that is a provision 
in this bill. Is that a viable----
    Mr. Reyes. Absolutely. As you and I discussed a number of 
these provisions, I think that kind of flexibility in this 
legislation is not only a good idea, but post-9/11, imperative 
that we include it.
    Ms. Jackson Lee. Ms. Lee, thank you very much. And if you 
would look to--and you don't have to look to section 703. It 
talks about recruitment of American workers. As you know, the 
principles of the CBC talks about the economic arm of 
paralleling comprehensive immigration reform with protecting 
American workers. And just quickly, it says that in order to 
get visas for particular positions, you have to have an 
affidavit that attests that you have tried to recruit American 
workers and that you have looked for them and that you cannot 
find them; for example, historically Black colleges.
    In addition, it provides a fee for training of American 
workers. How does that--is that a good focus to ensure the 
protection of American workers?
    I would like to ask Ms. Boyda, just quickly, the idea 
should we be concerned about American workers even as we look 
at immigration reform in a different way? And, Madam Chair, I 
thank you for yielding. If they could answer the questions, I 
would appreciate it.
    Ms. Lofgren. Without objection, an additional minute is 
granted. We do have votes pending. So, Ms. Lee, quickly answer.
    Ms. Lee. I think that is a very important provision of this 
bill, which I haven't seen in many of the immigration bills. It 
is very important for several reasons. But when you look at, 
especially minority communities in the United States, 
communities that have high rates of unemployment, oftentimes 
jobs aren't available, job training, educational efforts--
educational initiatives are not available for a lot of 
historical reasons. And providing this provision in an 
immigration bill does make it comprehensive because it makes 
sure that, one, American workers are protected, but it also 
gives an incentive and gives resources for those communities 
which have high rates of unemployment to be able to move 
forward with job training and education and employment 
opportunities. So I think this is a major, major provision.
    And, finally, let me just say it helps reduce the tensions 
in terms of the immigration debate because America is a country 
of immigrants. We cannot forget that African Americans have 
come to this country in chains, have built this country, built 
this capital. And it is important to recognize the labor, the 
historical contributions of our country by the African American 
community, and recognize that in a comprehensive immigration 
reform bill. So I thank you for including that provision.
    Ms. Lofgren. The gentlelady's time has expired. Ms. Boyda, 
very quickly, because we have one more Member.
    Ms. Jackson Lee. Does the idea of protecting American 
workers through legal visas that companies may seek--there is a 
provision in here that talks about attesting to the fact that 
you cannot find an American worker.
    Mrs. Boyda. I think, again, in the Second District of 
Kansas, the biggest issue is how do we enforce when we don't 
have a way to come back and enforce? We have many, many 
different proposals that have been made. The question is 
constantly, Tell me how you are going to enforce it and then 
we'll talk.
    I think people have been asked to trust so much, that at 
some point they are just saying I can't trust anymore; show me 
how you are going to enforce, and then talk to me about how we 
are going to do everything. I am hoping perhaps the Committee 
might be able to hear--would hear Heath Shuler's bill at some 
time as well.
    Ms. Jackson Lee. There is enforcement through an affidavit. 
And I appreciate your comment on that. Thank you very much.
    Mr. Reyes, the idea of ensuring recruitment of American 
workers to those who want the legal visas so that the community 
has access to jobs?
    Mr. Reyes. Absolutely. You know, we have had a number of 
studies--and I would ask that you allow me to provide those 
studies for the record--that have essentially indicated that 
without the labor force in the construction and the agriculture 
and the service industry that is represented by those that are 
undocumented, our economy would be in great jeopardy. So I 
think it makes sense for a guest-worker provision. I think it 
makes sense that in a comprehensive manner, it would provide us 
the opportunity to do both guest worker and employer sanctions 
enforcement.
    Ms. Lofgren. The gentlelady's extension of time has 
expired. We have had our 10-minute--is that the 5-minute 
warning? Ten-minute warning. Ten minutes.
    I have not had a chance to ask questions. Mr. Gohmert has 
not had a chance to ask questions. And I think we lose this 
panel after this vote.
    Mr. Gohmert, do you have an abbreviated question? And I 
will waive and let you ask them instead of me.
    Mr. Gohmert. That is all right. I will wait.
    Ms. Lofgren. We are going to lose the panel.
    Mr. Gohmert. I know we will. I don't want to hold them up.
    Ms. Lofgren. All right. Then that is very gracious of you. 
And we thank our colleagues for their testimony. We will return 
right after the vote for our second panel and we thank you for 
being with us.
    As we now have both myself and the Ranking Member here. 
Hopefully other Members will join us.
    We will convene our second panel of distinguished 
witnesses.
    I am pleased to introduce Dr. William Spriggs, a professor 
and chair of the Economics Department at Howard University. In 
addition to his scholarship, Dr. Spriggs served for over 15 
years as the executive director of the National Urban League's 
Institute for Opportunity and Equality. He earned his 
bachelor's degree with honors from Williams College and his 
doctorate from the University of Wisconsin at Madison.
    Next I would like to introduce Gregory Siskind, a partner 
in the law firm of Siskind Susser & Bland. He has practiced 
immigration law since 1990 and created visalaw.com, the world's 
first immigration law firm Web site. He currently edits 
Siskind's Immigration Bulletin, a newsletter that reaches over 
40,000 subscribers each week. He received his bachelor's degree 
from Vanderbilt University and his law degree from the 
University of Chicago
    It is my pleasure next to welcome Charles Kuck, the 
president-elect of the American Immigration Lawyers Association 
and an adjunct law professor at the University of Georgia. Mr. 
Kuck is a managing partner of the immigration law firm of Kuck 
Casablanca. And he earned his bachelor's degree from Brigham 
Young University and his law degree from Arizona State 
University.
    Next, I would like to introduce Christopher Nugent, the 
senior counsel with the Community Services Team at the law firm 
of Holland and Knight. Mr. Nugent directs the firm's 
immigration pro bono work in public policy. He earned his 
bachelor's degree from Sarah Lawrence College and his law 
degree from the City University of New York School of Law.
    Next, it is my honor to extend our warm welcome to Kim 
Gandy, the president for the National Organization for Women, 
NOW. First elected as president in 2001, Ms. Gandy has served 
NOW at the local, State and national level since 1973. She 
graduated from Louisiana Tech University and received her law 
degree from the Loyola University School of Law.
    Next I am pleased to welcome T.J. Bonner, president of the 
National Border Patrol Council of the American Federation of 
Government Employees, the AFL-CIO affiliate that represents 
approximately 12,000 nonsupervisory Border Patrol employees. 
Mr. Bonner has worked as a Border Patrol agent in the San Diego 
area since 1978, and he has served as the union president since 
1989.
    And finally I would like to welcome Julie Kirchner, the 
executive director at FAIR, the Federation for American 
Immigration Reform. Prior to joining FAIR, Ms. Kirchner worked 
as counsel at the Minnesota House of Representatives, where she 
staffed the judiciary and several law committees. She earned 
her bachelor's degree from Yale University and her law degree 
with high distinction from the Iowa University School of Law.
    Each of you will have your entire written statement made a 
part of the hearing.
    We would ask that your oral testimony consume about 5 
minutes. And I think as our counsel has explained, when you use 
4 minutes, the little yellow light goes on, and when your time 
is up, the red light is on, but I don't have a heavy gavel. But 
since there are many witnesses and we have about an hour until 
our next vote, I would hope that we could keep within the 5-
minute time frame so we can have some time for questions.
    So we will begin with you, Dr. Spriggs.

TESTIMONY OF WILLIAM E. SPRIGGS, Ph.D., CHAIRMAN, DEPARTMENT OF 
                  ECONOMICS, HOWARD UNIVERSITY

    Mr. Spriggs. Thank you very much, Madam Chairwoman. I want 
to thank you for the opportunity to be here, and to the Ranking 
Member who is from my father's home State of Iowa, and special 
thanks to Congresswoman Sheila Jackson Lee for inviting me to 
speak.
    I want to direct my comments on this legislation's effect 
and implications for the labor market. I think this is an 
important piece of legislation because it has specific policy 
recommendations for the labor market. And I think that while 
economists don't have a consensus about the effects of 
immigration on the native workforce, we are clear about some 
things, as you look across the studies.
    Basically, that if you look in the 1990's and the beginning 
of the decade here, in 2000, that what we find is that 
immigrants and native-born workers basically have very similar 
occupations. When we say they have dissimilar occupations, it 
is nowhere near like what we really mean, when you think about 
the difference between the occupations of men and women, where, 
just to use a measure of occupational segregation that is easy 
to understand, the index of dissimilarity, 60 percent of men or 
women would have to change their occupations in order to make 
the distribution of occupations the same, whereas for 
immigrants compared to native-born workers, you are looking at 
a number closer to, like, 33 percent. So they do similar 
occupations, similar jobs, and therefore are in similar labor 
markets.
    I think that what is the problem in our low-wage labor 
market, and our labor market in general, is that it no longer 
functions in a clear, transparent way. This has nothing to do 
with immigration. It has to do with the failure of our low-wage 
labor market in particular.
    And I think this legislation addresses that directly, by 
calling on employers to open up and be more transparent in the 
way that they would go about their search. And the legislation 
provides enough incentive and penalties to make this begin to 
be a real open labor market. And that is a very important 
contribution to make.
    In the last 4 years, when we have had some of the worst job 
growth that we have seen in the Nation's history, people, of 
course, have been very concerned about immigration. But I would 
remind everyone that, in the 1990's, when immigration was at a 
much higher rate, that many communities did really well. The 
African American community, in particular, did extremely well 
in the 1990's when immigration was at a higher rate than it was 
in the 1980's.
    I think we have to remember that it is really overall 
economic policy that matters the most to workers, and whether 
we are creating jobs or not creating jobs is a macroeconomic 
issue. And we can set the macroeconomic policy to accommodate 
any sort of labor force, but we must fix the way that that 
labor market itself works. And that is the good thing about 
this legislation.
    I would say that it is not only for those workers who are 
in low-wage jobs, but we also have a problem among high-wage 
jobs. The information industry which we billed to everyone as 
the wave of the future went through a downturn in employment 
after 2001. It reached a peak in 2001. It has not yet recovered 
from that peak. And so the number of Americans who are working 
in the information industries has declined. And that industry 
is not above having discrimination or effects that look like 
discrimination.
    I would just point out a job which isn't high on the rank 
of high-tech jobs but one where the job title stayed the same 
from the 1990's through 2000. In 1995, most computer operators 
in the United States were women. In 2002, after the shrinkage 
of that industry, the industry became about balanced between 
men and women. So it is not consistent from an economist's 
perspective that you could have an industry lose jobs and the 
workers who happen to be the dominant workforce lose their jobs 
disproportionately.
    And I think it is a clue that we should be very careful, 
even for high-tech jobs, that we see employers verify that they 
really did search. Because this, again, is a labor market which 
has indications that things are not as transparent in how 
people attain jobs and how they get to keep jobs.
    So I appreciate this impact of the legislation. And I think 
it is called for that we integrate the way we look at 
immigration and the labor market, not because immigrants are a 
problem, but the way that the labor market works is the 
problem.
    [The prepared statement of Mr. Spriggs follows:]
                Prepared Statement of William E. Spriggs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Dr. Spriggs.
    Mr. Siskind?

  TESTIMONY OF GREGORY SISKIND, PARTNER, SISKIND SUSSER BLAND

    Mr. Siskind. I would like to thank the Chairwoman and the 
Ranking Member and Congresswoman Jackson Lee for the 
opportunity to testify regarding the Save America Comprehensive 
Immigration Act of 2007.
    I am Greg Siskind, and I practiced immigration law for a 
number of years and have written a lot on the topic of consular 
processing. And I am here today to specifically address the 
importance of title II of the SAVE Act, which would create a 
Board of Visa Appeals for the review of denied family-based 
green card cases.
    When the State Department denies a visa application, the 
applicant loses an opportunity to come to the U.S., but the 
impact is felt also by the lawful, permanent resident or 
citizen of the United States who is sponsoring the immigrant. 
This legislation is about ensuring that if the foreign 
American's family is torn apart for a lifetime by the State 
Department's denial of a visa application, there is at least a 
fair process in place to review the justness of the decision.
    Citizens and permanent residents sponsoring family members 
for green cards undergo a two-step process. First, they file a 
family immigrant petition with USCIS, depending on the kind of 
relative--a spouse, a child, a parent or a sibling--whether the 
petitioner is a U.S. citizen or permanent resident, and the 
nationality of the sponsored relative. An applicant can wait 
many years, potentially more than 20 years, for an immigrant 
visa to come available.
    Next, once the visa number finally comes available, there 
are two alternative procedures to complete processing. The 
applicant in the United States, he or she typically is able to 
complete the application domestically by filing an adjustment-
of-status application with USCIS. Applicants outside the U.S., 
however, process green card applications based on the very same 
kinds of petitions but they can't apply for adjustment of 
status. They have to apply to a U.S. Consulate abroad.
    U.S. immigration law is probably more complex than any 
other country in the world, and correctly applying the law to 
each applicant's facts can be extremely challenging. 
Fortunately, applicants in the second step of processing or 
adjusting in the U.S. can challenge a denial in administrative 
tribunals, including an immigration court, the Board of 
Immigration Appeals or Federal courts. But applicants 
processing at consulates do not have this ability.
    As a matter of discretion, the case can be referred to the 
State Department in Washington for an advisory opinion on a 
pure question of law. Applicants are not, however, permitted to 
see the opinion and are only notified that a decision has been 
issued. Federal courts have upheld the State Department Visa 
Office's position that an advisory opinion only offers guidance 
to consular officers.
    Senator Edward Kennedy called for an appeals process as 
early as 1970, and the need remains today. The SAVE Act would 
create a Board of Visa Appeal, a BVA, within the State 
Department to review family-based green card denials.
    There are a number of reasons why this is needed. First, 
there is a basic question of fairness. Why should two persons 
with the same type of immigrant visa petitions and the same set 
of facts be entitled to different rights and protections based 
strictly on where they are physically located? Why should 
Americans who have had their relatives waiting for years 
outside the U.S. be treated worse than those who have not?
    Second, the BVA would provide needed oversight of the 
system. While the vast majority of consular officers try to be 
objective and to make sure that they have a sufficient 
understanding of the facts and the law to issue a fair 
decision, the reality is that the consular officer acts as a 
judge, jury and prosecutor, and they do it during the interview 
that typically only lasts for a few minutes. The applicant is 
usually not permitted to have a lawyer present or be 
accompanied by the petitioning U.S. Relative, and he or she may 
have limited English skills. In smaller posts, consular 
officers may be inexperienced and may have very little 
supervision.
    Third, the BVA will enhance America's image in the world. A 
recent study commissioned by the Discover America Partnership 
comprised of many of the country's leading travel and 
hospitality organizations found that travelers rate America's 
entry process as the world's worst by a greater than two-to-one 
margin over the next worse country. The U.S. Ranks among the 
lowest when it comes to traveler-friendly paperwork and 
officials.
    While a consular appeals board would only apply to green 
card cases and not the many visitor visa denials that occur 
every day, the impact of family-based green card denials on 
American citizens and permanent resident sponsors can be great. 
Sending out the message that our consular offices are arbitrary 
and capricious does nothing to advance America's public 
diplomacy efforts. The fact that at least some cases will be 
reviewable will send a signal that the U.S. is trying to be 
fair.
    A Board of Visa Appeals is long overdue, and I would 
encourage you to support the proposal.
    [The prepared statement of Mr. Siskind follows:]
                 Prepared Statement of Gregory Siskind
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. And before asking Mr. Kuck to give his 
testimony, I would like to note that Jeff Kuck, his 16-year-old 
son who is studying American history, has been here today to 
see some American history being made. And we would like to 
welcome the young Jeff Kuck to our hearing and to watch his dad 
testify.
    Mr. Kuck?

    TESTIMONY OF CHARLES H. KUCK, PRESIDENT-ELECT, AMERICAN 
  IMMIGRATION LAWYERS ASSOCIATION, ADJUNCT PROFESSOR OF LAW, 
                     UNIVERSITY OF GEORGIA

    Mr. Kuck. First, I want to thank the Chairwoman and the 
Ranking Member, Mr. King, for allowing me to testify today. I 
want to especially thank Congressman Sheila Jackson Lee for 
this opportunity. And my son thanks you because he now has an 
excuse for not being in school today.
    I am currently serving as the president-elect of the 
American Immigration Lawyers Association. I have been asked to 
talk today about a couple of the problems in our current law 
and how this legislation, House Bill 750, fixes what are, I 
believe, problems that have led to an increase in illegal 
immigration in the United States.
    Folks call me all the time and they say, Mr. Kuck, I want 
to bring my spouse. I want to get them a green card. He has 
been here since he was 13, 12, 10, 25--you pick the age. We 
have been married for 2 years; we have two kids. We have been 
married for 5 years; we have three kids. I want to make him 
legal. What can I do?
    And the answer, because of current law, is nothing. Current 
law requires anybody who has been unlawfully present in the 
United States to leave the country to obtain their permanent 
residence.
    There is nothing wrong with that. There is nothing wrong 
with making people leave the country the fix their immigration 
situation. But the law also says that if you have been 
unlawfully present in the United States for longer than 6 
months or a year, you are simply not coming back for between 3 
and 10 years. There are very few families that could survive 
that level of separation.
    The current law provides for a waiver or a forgiveness of 
that provision. That requires the U.S.-citizen spouse to show 
extreme hardship to them only if their spouse couldn't come 
back, keeping in mind that financial hardship, emotional 
hardship, physical hardship are simply not enough to meet the 
extreme hardship standards. And in some countries, the approval 
rate for these waivers is less than 10 percent.
    It is not unusual for us to note the following statistic: 
Before this law took effect in 1996, migrants simply came and 
left the United States and didn't have to deal with the 
situation. But individual immigrants, upon realizing that this 
law was in effect after they had been here for 6 or 12 months 
illegally, simply decided to stay. And since that law took 
effect, the number of illegal immigrants in the United States 
has increased from anywhere between 2.5 million in 1996 to 
somewhere between 12 million and 20 million today. Is this law 
the sole reason this has happened? Absolutely not. But it is 
estimated that there are 3 million American citizens married to 
individuals who would be required to leave the country or to 
legalize their immigration status.
    By a simple change in the law, by simply reducing the 
standard hardship that this law provides in section 808 to a 
level that could be meetable by numbers of people who could 
show hardship if their spouse is not in the United States, you 
could solve the situation of over 3 million individuals that 
are undocumented here, which then leaves you 3 million less 
people to worry about as you begin the process of truly 
enforcing immigration law.
    I also want to briefly touch on another provision of our 
laws that says that if you make a false claim to citizenship as 
a United States citizen, that you cannot ever obtain legal 
status, period.
    Now, it should be illegal to claim to be a U.S. citizen. 
There is nothing wrong with that law either. But the law itself 
does not provide for a waiver. You can falsely claim to be a 
permanent resident and get away with it. You can falsely submit 
documents that don't claim U.S. citizenship and get a waiver. 
But if you make that one mistake, even if by accident, then you 
are simply never going to get immigration benefits regardless 
of who your family is, regardless of how long you have been 
here and regardless of what other options you may have. And we 
could make a very simple change in the law to make that go 
away, by simply saying there is now a waiver available under 
section 212(h) if you can show extreme hardship to your U.S.-
citizen spouse or children.
    Finally, the last provision I would like to talk about that 
causes a great deal of hardship is that found in the change of 
``suspension of deportation'' to ``cancellation of removal'' in 
the 1996 legislation. This standard changed a hardship standard 
by showing somebody had been here in the United States, had 
significant ties here, had paid their taxes, had families, had 
made contributions, an immigration judge could give, in his 
discretion, permanent residence to that individual if they had 
anywhere between 7 to 10 years in the United States. If you had 
a criminal conviction, simply not eligible.
    Under the new law that we have been living with for the 
last 11 years, the standard has become exceptional and 
extremely unusual, what I like to refer to as the two-headed 
baby standard. Unless your child is significantly sick, ill or 
has some sort of disability and cannot get treatment back home, 
you simply cannot meet the standard that this law requires to 
get relief in front of an immigration judge. And we would 
encourage you to change that law.
    [The prepared statement of Mr. Kuck follows:]
                 Prepared Statement of Charles H. Kuck
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ADDENDUM
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Those bells and whistles indicate that we have 
one vote on the floor of the House. So we will go take that 
vote, and I ask Members to come back, and we will hear the 
testimony of the remaining witnesses.
    Thank you. We are in recess until that time.
    [Recess.]
    Ms. Lofgren. The House will have still another vote in the 
near future and because of that we have all had access to your 
written testimony, We have two Members, which is under the 
rules and I understand Mr. King is on his way, and I am sure he 
will not mind if we proceed so that we can get this testimony 
officially taken by the Committee.
    And so I think we had just finished your testimony, Mr. 
Kuck. And we will now turn to Mr. Nugent's.

  TESTIMONY OF CHRISTOPHER NUGENT, SENIOR COUNSEL, COMMUNITY 
             SERVICES TEAM, HOLLAND AND KNIGHT, LLP

    Mr. Nugent. Thank you, Madam Chair. It is a privilege and 
honor to be invited to testify at this very important hearing 
on a very important piece of legislation.
    I want to commend Sheila Jackson Lee for her trail-blazing, 
visionary leadership in crafting a bill that will fix a 
fundamentally broken immigration system by both providing 
increased access to status but while particularly using smart 
immigration enforcement tools.
    And my remarks are going to focus on sections 621, 622, 
1201 and 1202, concerning detention and secure alternatives and 
fairness in asylum and refugee proceedings.
    Section 621. We have a crisis with immigration detainees. 
Taxpayers are spending $945 million a year to detain over 
200,000 people at 325 facilities. This detention is civil, but 
they are actually detained, the vast majority, in jails, 
commingled with America's finest convicts. Recently there was a 
hearing held on medical care in immigration custody, and since 
2004, 66 detainees have died from inadequate medical care being 
provided.
    So section 621 reforms this system, because it will have 
the Office of Civil Rights and Civil Liberties responsible for 
monitoring compliance of the detention standards as they 
currently exist. And that is very necessary, because the 
current monitoring done by DHS has been haphazard and 
inadequate and has been criticized by even the Federal court in 
the Orantes litigation.
    622(b) is very important to deal with increased detention. 
It creates a secure alternatives program to detention whereby 
vulnerable populations--families with children, the mentally 
retarded--could be placed outside of detention and not at 
taxpayer expense. There is a precedent for this: the Intensive 
Supervised Release Program that is currently being funded at 
$43.6 million a year.
    Secure alternatives only cost the Government $14 a day. 
Immigration detention costs taxpayers $95 per day. We can do 
the math and see there is an incredible cost savings. But for 
purposes of law enforcement, the beauty of this provision is 
that it allows DHS to detain as many people and then put them 
through secure alternative programs so that it will end catch-
and-release and lead to catch-and-return. And the compliance 
rate for Intensive Supervised Appearance Program is a record 94 
percent, so people are complying and showing up when they are 
required to do so.
    So this creates a great efficiency for the system and 
creates more increased enforcement but more safe and humane 
confinement. So I think it is optimal and definitely should be 
supported and very innovative.
    And it actually, after the introduction of this bill, it 
has appeared in many other bills, including Senator Lieberman's 
Safe and Secure Alternatives to Detention bill. And I think it 
is a needed improvement to the STRIVE Act, because the STRIVE 
Act lacks rigorous criteria for participation in the program. 
And I would say that this provision actually fleshes out the 
criteria and should be incorporated into STRIVE.
    Finally, I wanted to mention the situation of mentally 
retarded children abroad whose parents are granted asylum or 
granted asylum here in the United States but are over 21, or 
refugees granted asylum abroad. They are unprotected. The 
parents are granted asylum, but the mentally retarded children 
have no way of coming to the United States if they are over age 
21 and they are in need of these caregivers. So you are having 
refugees coming to the United States, we are leaving their 
mentally retarded children over age 21 abroad. Or you are 
having the asylees being granted with mentally retarded 
children, and they can't bring them in because the Child Status 
Protection Act didn't provide for age-out protection for these 
people.
    And Congresswoman Sheila Jackson Lee is to be commended for 
actually recognizing this discrete class that is in desperate 
need of protection. And we are not talking about hundreds of 
thousands of mentally retarded children of asylees or refugees. 
I would estimate it would be in the hundreds at most. But it 
puts people in a very painful predicament of leaving their 
children abroad and not having status.
    So I think we definitely want to support and advocate for 
these very important changes. And I thank the Committee for 
your time and welcome your questions.
    [The prepared statement of Mr. Nugent follows:]
                Prepared Statement of Christopher Nugent
    Madame Chair and honorable Members of the Subcommittee, my name is 
Christopher Nugent. It is a privilege and honor for me to testify 
before you today at this important hearing on H.R. 750, the ``Save 
America Comprehensive Immigration Act of 2007''. I am a full-time pro 
bono Senior Counsel who works exclusively on domestic and international 
immigration law and policy issues and individual client cases with the 
international law firm of Holland & Knight LLP. I have two decades of 
experience in immigration law dating back to summer, 1987 when as a 
college student and volunteer paralegal at a non-governmental 
organization in Indiantown, Florida, I had the privilege to help hard-
working rural farm-workers legalize their immigration status under the 
Immigration Reform and Control Act of 1986. I have worked extensively 
in the area of immigration detention since 1990 including as a Director 
of the American Bar Association Commission on Immigration Policy, 
Practice and Pro Bono from 1998 to 2000 where I had the exceptional 
opportunity to help Legacy Immigration and Naturalization Service 
finalize and implement Detention Standards which govern access to 
counsel and fair and humane treatment of detained aliens. In my current 
capacity, I am privileged to act as counsel to many non-governmental 
immigration and refugee organizations (NGOs) working for positive 
changes in governmental policy and practices in the area of immigration 
proceedings and detention involving vulnerable populations including 
but not limited to the Women's Commission for Refugee Women and 
Children, the Rights Working Group and the National Immigration Law 
Center. The statements, opinions, and views expressed today however are 
my own.
    H.R. 750 represents a precedent-setting piece of legislation 
carefully crafted by Congresswoman Sheila Jackson lee to effectively 
fix a fundamentally broken United States immigration system through 
providing both increased access to immigration status while fortifying 
enforcement through the use of ``smart'' immigration enforcement 
measures. My remarks today will be limited to focus on the innovative 
provisions of Sec. 621 concerning oversight and Sec. 622 concerning 
secure alternatives to detention and Secs. 1201 and 1202 concerning 
fairness in asylum and refugee proceedings.
    In FY 2007, United States taxpayers funded the Department of 
Homeland Security (DHS) at a record 945 million dollars to detain a 
daily average population of 27,500 aliens at more than 325 facilities 
nationwide. The annual DHS detainee population exceeds 261,000. While 
this detention is intended to be civil and not punitive since the 
detainees are being held for civil immigration removal proceedings, the 
vast majority of detainees, including non-criminal asylum-seekers, are 
detained in actual prisons and thus unfortunately commingled with 
America's finest criminal convicts. In this regard, DHS only owns and 
operates 9 civilian detention facilities. Thus, the vast majority of 
private prisons contracted by DHS operate for profit, as well as state 
and county jails, given that DHS' per diem cost is higher than their 
actual cost of detention. Average DHS daily detention cost per detainee 
is $95 per day or $34,765 annualized (which would apply to asylum-
seekers and others in DHS custody).
    Sec. 622(a)(3) of the Save America Act provides a positive means to 
redress the dysfunctional, hazardous and quasi-punitive status quo for 
immigration detainees. Conditions of confinement for immigration 
detainees have been the subject of mounting criticism from a variety of 
quarters including the U.S. Commission on International Religious 
Freedom, an independent, bipartisan federal agency in their report 
``Asylum Seekers in Expedited Removal'' (2005); Federal Judge Margaret 
Morrow of the Court for Central District of California in Orantes-
Hernandez v. Gonzales, 504 F.Supp.2d 825 (C.D. Cal. 2007), finding 
systemic facility non-compliance with DHS' own Detention Standards; the 
United States Governmental Accountability Office in its report Alien 
Detention Standards (GAO 07-875, July 2007); and DHS' own Inspector 
General in ``Treatment Of Immigration Detainees Housed at Immigration 
and Customs Enforcement Facilities'' (OIG-O7-01, December 2006). Sec. 
621 of the Save America Act would mandate that the Office of Civil 
Rights and Liberties (OCRCL) monitor all facilities that are being used 
to hold detainees for more than 72 hours including evaluating whether 
the facilities are in compliance with the Detention Standards. This 
innovation is welcome and salutary considering that the OCRCL has only 
been sporadically engaged detention oversight issues on either an as 
needed or ad hoc basis given their currently limited staffing and 
competing demands. Engaging OCRCL is essential to reinforcing reform of 
conditions of confinement for detainees whether OCRCL reports are 
ultimately made available to the public or not--the preference being 
within DHS that OCRCL resolves problems internally albeit without any 
public or Congressional oversight.
    As regards Sec. 622(b) of the Save America Act concerning secure 
alternatives to detention, this provision provides necessary reform to 
a detention system which to date has failed to provide any national 
binding criteria and guidance prosecutorial discretion as to who needs 
to be detained. See, e.g., ``Immigration Enforcement: ICE Could Improve 
Controls to Help Guide Alien Removal Decision Making'' (GAO-08-67, 
October 2007). Sec. 622(b) of the Save America Act creates a secure 
alternative detention program to be designed with reputable NGOs and 
academic institutions intended for the most vulnerable populations in 
DHS custody who present neither a risk of flight or danger to the 
community and can be integrated into the community and comply with 
removal orders. Sec. 662(b) of the Save America Act prioritizes the 
most vulnerable in detention for eligibility including alien parents 
detained with their children; aliens with serious medical or mental 
health needs; aliens who are mentally retarded or autistics; pregnant 
alien women; elderly aliens who are over the age of 65; and aliens 
placed in expedited removal proceedings after being rescued from 
trafficking or criminal operations by Government authorities. The 
provision exempt aliens such as unaccompanied alien children subject to 
release to sponsors under Flores v. Ashcroft, Case No. CV85-5455 RJK
    (C.D. Cal. 1996); as well as aliens seeking asylum who have passed 
credible fear interviews, positing the clear law that they are eligible 
for bond redetermination hearings before the Executive Office for 
Immigration Review (EOIR) when they are placed in removal proceedings 
under Sec. 240 of the Immigration and Nationality Act.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Matter of X-K-, Respondent, 23 I&N Dec. 731 (BIA 
2005) finding bond eligibility for ``certain other aliens'' (not 
arriving aliens), who are ``physically present in the U.S., without 
having been admitted or paroled following inspection by an immigration 
officer at a designated port-of-entry, who are encountered by an 
immigration officer within 100 air miles of any U.S. international land 
border, and who have not established to the satisfaction of an 
immigration officer that they have been physically present in the U.S. 
continuously for the 14-day period immediately prior to the date of 
encounter.''
---------------------------------------------------------------------------
    Sec. 622(b) of the Save America Act will promote optimal efficiency 
and effectiveness of the federal government in its detention capacity 
to enforce the United States border. The Department currently lacks 
adequate or sufficient facilities to hold all aliens subject to 
expedited removal until removal is effectuated. Sec. 622(b) of the Save 
America Act provides a safety valve to allow people who have every 
safeguard in place to comply with removal orders be released pending 
their actual removal so that Customs and Border Protection (CBP) can 
continue to arrest and detain the maximum numbers of immigration 
violators at the border. Otherwise, CBP has scant incentive to arrest 
all aliens if Immigration and Customs Enforcement (ICE) lacks bed-space 
to house them. Sec. 622(b) provides the teeth for DHS' catch and remove 
approach. Additionally, most notably, Sec. 622(b) does not create any 
independent right or legal review of the implementation of the program 
exception through a report to Congress which is Congress' preeminent 
and essential prerogative in exercising its oversight function of 
executive branch agencies.
    Sec. 622(b) will be particularly instrumental if and when expedited 
removal is to be invoked system-wide including the interior under 
Section 235(b) of the Immigration and Nationality Act (INA) and not 
only within 100 miles of land borders of the United States as under 
current policy.
    The sheer innovation of Sec. 622(b) is that it allows a wide 
variety of alternatives to detention conferred to DHS discretion 
including individual placements to sponsors, group homes to facilities 
under armed guard at the perimeter--as had appeared in its initial 
incarnation as an amendment offered by Representative Sheila Jackson 
Lee to the Border Protection, Antiterrorism and Illegal Immigration 
Control Act (H.R. 4437). Through this program, the Department will 
thereby have a range of humane and more cost-effective alternatives 
besides prisons and jails to ensure an alien's appearance before 
immigration officials for their removal. This program is based on the 
best practices utilized by the Appearance Assistance Program of the 
Vera Institute and DHS' Intensive Supervision Appearance Program which 
have achieved remarkably high compliance rates for aliens including a 
94 percent appearance rate at final removal hearings. Additionally, the 
program will be implemented by NGOs in order to achieve a cost-savings 
for DHS. With this provision, catch and detain can truly become catch 
and remove with the most vulnerable in safe and secure situations 
pending removal.
    By focusing on DHS' arrest and detention capacity constraints and 
prioritizing key vulnerable populations, Sec. 622(b) differs materially 
from Sec. 177 of the STRIVE Act of 2007 (H.R. 1645). Sec. 177 of the 
Strive Act establishes a secure alternatives program for aliens without 
specifying rigorous criteria for participation such as vulnerable 
populations who pose no flight risk or danger to the community and 
triggered by detention capacity constraints. Sec. 177 further does not 
designate as extensive options of alternatives under Sec. 622(b) 
including, for example, facilities under armed guard at the perimeter. 
Given the chronic state of deplorable conditions of confinement for 
immigration detainees under DHS mismanagement, immigration detainees 
obviously would prefer any non-penal facility run by a reputable non-
governmental organization as a preferable and viable alternative to 
detention--even if there were a guard posted at the perimeter for 
security purposes. The STRIVE Act would benefit from incorporating 
these pragmatic considerations from The Save America Act into its 
provision concerning secure alternatives to detention.
    Turning to Secs. 1201 and 1202 of the Save America Act, under 
current law, children of refugees or asylees are eligible for 
derivative status when their parents are granted asylum or refugee 
status. If, however, the child is over age 21 at the time of the 
parent's approval, the child is no longer consider a ``child'' for 
immigration purposes under the INA and is not eligible for the 
derivative status. The Child Status Protection Act (CSPA), Pub.L. 107-
208 (Aug. 6, 2002), provided age-out protection for children included 
on parents' applications filed before the child has attained age 21. 
CSPA however failed to address the unique and compelling predicament of 
children over age 21 who have aged out of protection but are mentally 
disabled and dependent on their parents as caregivers despite their 
chronological age. Secs. 1201 and 1202 would correct this injustice by 
facilitating the admission of refugee and asylee children who are 
severely impaired by mental retardation, autism, or some other 
disability of that type who have aged out of classification as a 
``child.'' While this may appear to be a small class, it is among the 
most vulnerable of asylees and refugees and warrants redress through 
this legislation.
    I personally recall meeting an unaccompanied refugee child in a 
camp in Guinea suffering from severe mental retardation. The camp had 
no specialized services to offer him and he remains in Guinea now as an 
adult with no prospect for any future besides becoming a beggar. Secs. 
1201 and 1202 protection will allow such vulnerable children to reunify 
with the parents or legal guardians as refugees or asylees in the 
United States to receive the care they need and deserve to become 
productive, contributing members of the United States. I thank you for 
your consideration and look forward to your questions.

    Ms. Lofgren. Thank you very much.
    And now you, Ms. Gandy, with an important perspective.

              TESTIMONY OF KIM GANDY, PRESIDENT, 
                NATIONAL ORGANIZATION FOR WOMEN

    Ms. Gandy. Thank you.
    Madam Chair, Committee Members, thank you for inviting the 
National Organization for Women Foundation to testify before 
this Subcommittee as you consider H.R. 750, the ``Save America 
Comprehensive Immigration Act.''
    The NOW Foundation and our sister organization, NOW, have 
worked for decades to promote and advance women's equality. And 
we thank the Honorable Sheila Jackson Lee for including in H.R. 
750 some very important provisions affecting immigrant women in 
the United States.
    We are here today because there is a drumbeat of anger 
across this Nation aimed at immigrant workers and their 
families, with little regard for the truth about the lives and 
livelihoods of millions of people who live and work among us. 
As our Nation and this Congress works to clarify our residency 
and citizenship laws, improve our security and safeguard our 
communities, we must not forget the needs and rights of 
immigrant women and children whose concerns are too often 
overlooked and underplayed.
    Last year we took a leadership role in convening the 
National Coalition for Immigrant Women's Rights and gathered 
together grassroots and advocacy organizations nationwide, with 
the goal of defending and promoting equality for immigrant 
women and their families living in the United States.
    But this kind of equality can only be attained when 
immigrant women can live free of discrimination, oppression and 
violence. So it is imperative that policies promoting 
comprehensive immigration reform also support fair and just 
policies that protect the rights of these vulnerable immigrant 
women and their children.
    Economic issues affecting undocumented immigrant women are 
basic. Their work is not valued or counted. That is why we 
strongly support the inclusion, in any comprehensive 
immigration reform, legislation that would offer a path to 
permanent residency and citizenship for the undocumented who 
are living in the United States, and particularly for children 
who are addressed by H.R. 750, a special path for those who 
came to the United States as children.
    These women and children are more likely to be exploited. 
And if they can come out of hiding, apply for residency, seek 
employment in the general labor market, earning at least the 
Federal minimum wage, and be eligible to contribute to and 
receive Social Security and unemployment benefits as others do, 
it will dramatically change their outlook and decrease their 
dependency.
    Contributing to the low average wages of immigrant women, 
dramatically low compared to even other women--who are already 
earning low wages in this country--it is attributable in great 
part to the fact that they are employed in the service 
industry. Forty 2 percent of private households services are 
provided by immigrants under arrangements that are often 
informal and prone to abuse and exploitation.
    And yet domestic service, in particular for those in 
private households, remains excluded from and unregulated by 
our country's employment protections and labor laws. And this 
applies to domestic workers who are and are not immigrants, 
whether documented or not. These women do not have the right to 
organize, the right to bargain for wages. They are not 
protected by title VII against sexual harassment and 
discrimination. And they are excluded from the Fair Labor 
Standards Act and from the Occupational and Safety Health Act.
    So it is important as part of any reform to recognize the 
kind of employment that immigrants are working in and the 
impact that our treatment of those categories has on all of our 
workers, immigrants and not.
    H.R. 750's alternatives to detention programs is extremely 
important, as other witnesses have testified, bringing some 
humanity to what is undeniably an unjust and reckless approach 
to resolving the issue of illegal immigration, and also H.R. 
750's provisions regarding the Sex Offender Registry, designed 
to reduce the possibility or likelihood of abuse of women and 
children that those on the registry might bring into the 
country. And we also appreciate H.R. 750's addition of gender-
based persecution as grounds for asylum or refugee status.
    In our written testimony, we offer a number of things that 
we hope the Committee will consider, and the broader Congress, 
in any kind of comprehensive immigration reform. And we would 
appreciate you examining that, considering our recommendations. 
And we thank you for listening to this testimony and hope that 
you will carefully consider the rights and the needs of 
immigrant women and children in crafting this reform, ensuring 
their safety as well as a responsible path to legalization and 
citizenship, as well as a humane law enforcement system that 
does not rely on illegal and immoral raids or inhumane 
detention and deportation without legal redress.
    [The prepared statement of Ms. Gandy follows:]
                    Prepared Statement of Kim Gandy
    Thank you for inviting the National Organization for Women 
Foundation to testify before this subcommittee as you consider H.R. 
750, The Save America Comprehensive Immigration Act of 2007. NOW 
Foundation and our sister organization NOW have been working for 
decades to promote and advance women's equality.
    Today we are here because there is a drumbeat of anger across this 
nation aimed at immigrant workers and their families, with little 
regard for the truths about the lives and livelihoods of millions of 
people living and working here among us. As our nation, and this 
Congress, works to clarify our residency and citizenship laws, improve 
our security and safeguard our communities, we must not forget the 
needs and rights of immigrant women and children, whose concerns are 
too often overlooked and under-played.
    Last year, we took a leadership role in convening the National 
Coalition for Immigrant Women's Rights, and gathered together 
grassroots and advocacy organizations nationwide with the goal of 
defending and promoting equality for immigrant women and their families 
living and working in the United States.
    We integrate human rights principles into our work and believe that 
immigrant women's rights are both civil rights and women's rights. We 
believe that comprehensive immigration reform must include fair and 
non-discriminatory implementation of our immigration and enforcement 
policies, and that must include economic, legal and social justice for 
immigrant women.
    Equality for immigrant women can only be attained when immigrant 
women can live free from
    discrimination, oppression and violence in all their forms. It is 
imperative that policies promoting comprehensive immigration reform 
also support fair and just policies that protect the rights of 
immigrant women. Millions of immigrant women's lives are at stake and 
we hope that this hearing is the beginning of a national dialogue that 
brings immigrant women's concerns out in the open and up for 
discussion.
    For the record, there are 14.2 million foreign born women in the 
United States. Five and a half million are naturalized citizens, 
another five and a half million are documented and 3.2 million are 
undocumented. Women make up over 30% of the over 10 million 
undocumented immigrants in the United States today. Another 1.6 million 
are children under 18. And HALF of all undocumented immigrants 
originally came here with legitimate paperwork or visas and they have 
simply overstayed their time and are now undocumented, many lined up to 
renew their paperwork while they work at our colleges, in our 
businesses and pay taxes in our communities
    Each year, half of all immigrants entering the United States are 
female--women and girls. However, public policies regarding immigrants 
do not reflect the impact that being female has on immigrants' lives in 
the United States. This applies to both documented and undocumented 
women.
    The economic issues affecting undocumented immigrant women are 
basic: their work is not valued or counted. That is why NOW strongly 
supports the inclusion of provisions in any immigration reform 
legislation that would offer a path to residency and citizenship for 
the undocumented living in the United States. Undocumented women will 
benefit significantly economically, and be less subject to 
exploitation, if they can come out of hiding, apply for residency and 
seek employment in the general labor market, earn at least the federal 
minimum hourly wage and be eligible to contribute to and receive social 
security and unemployment benefits as other workers do.
    The economic reality of immigrant women and children today is 
disheartening. According to the Pew Hispanic Center, 31% of family 
households headed by foreign-born women live in poverty today as 
compared to 27% of native born women-led households. 16% of all those 
who are foreign born live in poverty compared to 11.8% of the native 
born. One of the reasons for the higher number of foreign-born women in 
poverty is the fact that foreign-born women who are full time workers 
make less than their native born counterparts. For example, the median 
income for foreign-born women age 16 and over who are year-round, full 
time workers is $22,106 while the median income for native born women 
is $26,640.
    Among the factors affecting low wages is the high percentage of 
immigrant women, both documented and undocumented, working in the 
service industry, primarily in domestic work. Forty-two percent of 
private household services are provided by immigrants under 
arrangements that are often informal, prone to abuse and exploitation. 
Domestic workers are the lowest paid of all major occupational groups 
tracked by the US Census. The true numbers are unknown for the most 
part due to the fact that many of these workers are not reported by 
employers, are not on anyone's official payroll, and are paid ``under 
the table.''
    Protections for domestic workers must be included in any 
immigration reform legislation. Domestic workers, in particular 
undocumented immigrant women, are faced with extremely low wages, 
working 60-70 hours per week or more for as little as $200 per week. 
This is exploitation, sometimes amounting to servitude or even slavery, 
under the most hostile conditions.
    And yet, domestic service, in particular for those living in 
private households, remains excluded from and unregulated by our 
country's employment protections and labor laws. These women do not 
have the right to organize, strike or bargain for wages. The 
protections against sexual harassment in the workplace (through Title 
VII which applies to employers of 15 or more employees) are not 
available to domestic workers. They are similarly excluded from the 
Fair Labor Standards Act overtime provisions and from the Occupational 
Safety and Health Act. These omissions must be corrected through 
comprehensive immigration reform legislation. Domestic service is a 
category of work that must be addressed, not ignored and excluded from 
labor standards and protections afforded to other workers.
    H.R.750's alternatives to detention programs, exempting certain 
individuals based on age, health, children, victims of trafficking and 
sexual abuse is a good step towards bringing some humanity to what is 
undeniably an unjust and reckless approach to resolving the issue of 
illegal immigration.
    On the whole, as you discuss H.R. 750 and other proposed 
immigration reform, we urge you to consider the following:

        <bullet>  An end to discriminatory, militaristic and inhumane 
        immigration enforcement practices that destroy the families, 
        homes and communities of immigrant women

        <bullet>  Freeing immigrant women from mental, physical and 
        emotional violence at the hands of traffickers, smugglers, 
        intimate partners, employers, family members and others who 
        exploit immigrant women's legal and economic vulnerability. Our 
        immigration and criminal justice systems must ensure that 
        immigrant women and their children are protected from gender-
        based violence, and must not perpetrate the cycle of violence 
        by failing to provide adequate remedial measures that promote 
        their safety and physical integrity.

        <bullet>  A responsible path to citizenship, which must allow 
        immigrant women to obtain work permits, to travel 
        internationally and access higher education and federal 
        financial aid. Immigrant women must have viable options that 
        will permit them to be full contributors to the U.S. economic 
        and societal landscape. We can no longer afford to lose these 
        valuable contributions.

        <bullet>  Protections for all immigrant women workers from 
        exploitation and abuse in the workplace by providing fair wages 
        and safe working conditions.

        <bullet>  Acknowledgement of the need for public awareness, 
        education, and understanding of the fundamental and pivotal 
        role immigrant women play in the familial, cultural and social 
        spheres of the United States.

        <bullet>  The elimination of all forms of human trafficking 
        through a survivor-centered advocacy model that opposes all 
        forms of exploitation.

    In closing, NOW and our coalition partners thank you for your 
consideration and hope that you will carefully consider our request to 
address the rights of immigrant women, help ensure their safety and a 
responsible path to legalization and citizenship and create a humane 
system of law enforcement that does not rely on illegal and immoral 
raids, inhumane detention and deportation without legal redress.

    Ms. Lofgren. Thank you very much.
    Mr. Bonner, we now turn to you.

  TESTIMONY OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
  COUNCIL OF THE AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, 
                            AFL-CIO

    Mr. Bonner. Thank you, Chairwoman Lofgren, Ranking Member 
King and Congresswoman Jackson Lee, for the opportunity to talk 
about important provisions in H.R. 750.
    My comments will focus on title VI, the border security 
provisions. However, before I get into that, I would just like 
to briefly touch upon a couple of other provisions, one of 
which needs to be incorporated into this bill, which is H.R. 
98, cosponsored by Congressman Reyes, who testified here 
earlier, which would establish a secure form of employment 
verification, which would solve many of the problems that we 
deal with at the border.
    We know why most people come across the border. The issue 
has been studied to death. Father Hesburgh, the late Barbara 
Jordan, both chaired commissions that came to the same 
conclusion: The employment magnet is what draws most people to 
this country.
    Conversely, we are most concerned with those criminals who 
are slipping in under the cover of those millions of people who 
are sneaking across our borders illegally. Those are the ones 
who are going to do us most harm--criminals, terrorists. And 
yet, because of the massive influx of people coming across, the 
Border Patrol and other law enforcement agencies find 
themselves overwhelmed.
    And it is very difficult to distinguish between criminals 
and other people coming across. We don't know until we actually 
physically put hands on people what their intentions are. Then 
we run the best checks that we have available. Sometimes they 
work; sometimes they don't. Sometimes people slip through the 
system, and we send them back home, only to find out later that 
they were wanted for crimes in the United States and should 
have been held on to. We are getting better at that, but not 
nearly good enough.
    Instead of having to deal with millions, literally 
millions, of people coming across the border every year, we 
could deal with thousands of people, all of whom would be 
criminals because the employment magnet would be turned off.
    There is a growing consensus that we need a lot more Border 
Patrol agents in order to secure our borders. And we have 
legislative proposals, and we have this Administration calling 
for 18,319 agents in place by the end of December of next year. 
That is a very ambitious goal. Currently, we have about 15,000 
agents on board. And with the attrition rate of 12 percent now, 
that means that 1,800 employees will walk out the door in 1 
year. So in order to meet that goal, they will have to hire 
somewhere between 6,000 and 7,000 people in the space of a 
year.
    Now, how do we hang on to those people? Some of the 
provisions in title VI provide the answers to that.
    Congresswoman Jackson Lee approached me and my organization 
a couple of years ago after we had completed a study, a survey 
of frontline Border Patrol agents and immigration inspectors, 
asking them a number of questions. And one of the most 
troubling answers was we said, ``Do you feel that you have been 
given the tools, training and support necessary to stop 
terrorism?'' fully two-thirds of them said, ``No, we don't 
believe we have.''
    So Congresswoman Jackson Lee asked us to put together a 
list of what it would take to give these agents and officers 
the tools, training and support necessary. And we came up with 
a package, which has been incorporated initially in a stand-
alone bill, and now it has been folded into this as title VI. 
And I note that many of these provisions were also adopted in 
Congressman Shuler's bill that was just recently introduced, 
although there are some glaring omissions.
    It has been said that imitation is the sincerest form of 
flattery. Portions of this bill are in his, and others are in 
the Flake-Gutierrez bill, and others are in Senator Kerry's 
bill.
    So it is good to see a recognition that it can't just be 
about hiring Border Patrol agents. We have to provide them with 
the tools, the training and support that they need. We need to 
figure out ways to hang on to Border Patrol agents. A 12 
percent attrition rate is unacceptable. And things such as 
increases in pay and fair treatment of the employees who are 
out there on our front lines are essential if we expect not 
only to attract people into Federal service, but if we expect 
to hang on to them.
    Because it is a very competitive world out there in law 
enforcement now, not just at the Federal level, but we see a 
lot of States coming up with very lucrative compensation and 
benefit packages. And if we don't compete, we will lose the 
opportunity to attract and hang on to the best and brightest. 
We don't want to become a training ground for other law 
enforcement agencies.
    And I see that my time is up, and I would be more than 
happy to answer any questions, because there is obviously a lot 
more to the provisions of this bill that I have not had the 
opportunity to touch upon.
    [The prepared statement of Mr. Bonner follows:]
                   Prepared Statement of T.J. Bonner
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Mr. Bonner, for your 
service as well.
    Our final witness is Ms. Kirchner.

TESTIMONY OF JULIE KIRCHNER, EXECUTIVE DIRECTOR, FEDERATION FOR 
                  AMERICAN IMMIGRATION REFORM

    Ms. Kirchner. Thank you, Madam Chair, Ranking Member King 
and Congresswoman Sheila Jackson Lee. Thank you very much for 
this opportunity to present the position of the Federation for 
American Immigration Reform with respect to the Save America 
Comprehensive Immigration Reform Act and the immigration policy 
concerns behind it.
    My name is Julie Kirchner, and I am the executive director 
of FAIR. FAIR is a public-interest nonprofit organization 
advocating a just immigration policy guided by the national 
interests and the interests of American citizens. Our 
organization has over 300,000 members and activists in 49 
States and works with over 50 organizations across the country.
    Madam Chair, for 2 years, supporters of amnesty have tried 
to pass so-called comprehensive immigration reform. They have 
tried both under the Republican Congress and under the current 
Democratic Congress. They have tried both comprehensive bills 
and piecemeal approaches. Each time, however, they have failed. 
They have failed because the American public rejects 
immigration reform proposals that do not respect the rule of 
law and only further strain our immigration system.
    Madam Chair, the Save America Comprehensive Immigration Act 
does the exact opposite of what the American public wants. With 
several amnesty programs and a doubling of the number of 
family-based immigrant visas, the bill is structured to 
overwhelm an immigration system that is already at the breaking 
point. Indeed, granting amnesty to illegal aliens will not 
solve our immigration crisis. It simply motivates more illegal 
aliens to come here seeking amnesty. Amnesty sends a message to 
people worldwide that America no longer cares about the 
enforcement of its laws. Moreover, it sends a terrible message 
to legal aliens that their respect for our laws is irrelevant 
to how they will be treated.
    Consider, for example, the difference in how the Save 
America Act would treat aliens who have committed Social 
Security document fraud. If this legislation were passed, a 
legal alien who had committed Social Security document fraud 
would be charged, prosecuted, tried, convicted, would receive a 
criminal record and would be deported. Meanwhile, an illegal 
alien who had committed Social Security document fraud would 
not be charged, not be prosecuted, not be tried, not be 
convicted, would not receive a criminal record, would be 
allowed to stay in the U.S. and would be issued a valid Social 
Security number. Madam Chair, there is no justice in this 
outcome.
    In addition to the inherent unfairness of amnesty, the Save 
America Act further strains our immigration system by doubling 
the number of family-based immigrant visas and encouraging more 
migration.
    Madam Chair, FAIR has already supported the reunification 
of nuclear family members, but chain migration is a problem 
that must be addressed. And the Commission on Immigration 
Reform, headed by Representative Barbara Jordan, agreed with 
the FAIR. In fact, the Commission recommended that Congress 
prioritize nuclear family members and eliminate preferences for 
extended family members. The remaining family preference 
categories, the Commission said, should have a cap of 400,000 
per year. The Save America Act, however, ignores these 
recommendations and increases the family-based visa cap to 
960,000 a year, and again takes U.S. immigration policy in the 
opposite direction of what Americans want.
    And although the bill does contain promising border 
security provisions--and we just heard about those from Mr. 
Bonner here--it fails to adequately support the interior 
enforcement of our immigration laws.
    For example, section 1402(b) of the Save America Act 
repeals one of our most effective and popular enforcement 
tools, the 287(g) program. Madam Chair, the 287(g) program has 
shown tremendous potential. As of September 2007, ICE had 
entered into agreements with two U.S. cities and had trained 
police officers who were responsible for over 25,000 arrests. 
In addition, there are currently 74 jurisdictions that have 
applications pending, 18 of which are in North Carolina alone.
    It is ironic, Madam Chair, that the Save America Act would 
place one of the few immigration programs the Federal 
Government is running effectively on the chopping block, and 
would do so in the name of reform.
    In addition to the step backward, the Save America 
Comprehensive Immigration Act does nothing to advance worksite 
enforcement. There is no mandatory use of the E-Verify Program, 
and there is no increase in employer sanctions for illegal 
employment practices. This is a gaping hole in any immigration 
bill that calls itself comprehensive.
    I would like to note that even the Bush-Kennedy bill did 
have mandatory use of E-Verify. Some of the other bills that 
are going through Congress at this point also have it. It is 
absolutely necessary that we mandate the use of E-Verify to 
stop illegal employment practices.
    Madam Chair, looking at the devastating impacts these 
provisions would have, FAIR believes the passage of the Save 
America Act would only catapult our immigration system into 
further crises, and we urge the Committee to reject this 
proposal.
    Thank you, Madam Chair. I would be pleased to answer any 
questions that you have.
    [The prepared statement of Ms. Kirchner follows:]
                  Prepared Statement of Julie Kirchner
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much.
    And thanks to all of our witnesses.
    Now is the time in our hearing when we have an opportunity 
to pose questions to our witnesses.
    And I would like to begin with you, Mr. Kuck. I am very 
interested in your testimony relative to the very high standard 
for waiver on the 3- and 10-year bar provision.
    You know, I had concerns, and actually did not vote for the 
1996 act because of some of these concerns, and also because we 
would end up punishing would be American citizens under this 
provision. I am not suggesting that we would want to 
necessarily eliminate the provision, but to provide for, in 
appropriate cases, on a case-by-case basis, some appropriate 
remedies.
    For example, recently a group of Americans came to visit 
me, and there was a woman who looked just like me from Florida 
who was just outraged. Her daughter had married a fellow who 
was from a Latin American country. They have three children, 
her grandchildren. And when her daughter went to petition for 
her husband, they found out that he had been in an unlawful 
status as a child, and her grandchildren now have to live in 
another country. And she was pretty irked about it. That is 
totally unreasonable.
    Would you suggest that particular items be listed in the 
code or just the standard be changed? What is your thinking on 
that?
    Mr. Kuck. Well, thank you for the question.
    It is quite clear that the current standard--that is, 
extreme hardship--is too high. Too many people, like the woman 
that you talked about, simply have their spouses denied re-
entrance into the United States because the standard in the 
actual law simply says ``extreme hardship.'' It is not defined 
by any measure of financial status, emotional impact. Any other 
type of formative relationship issues simply cannot be 
considered. The act itself, as proposed by Congresswoman 
Jackson Lee, has a very interesting standard, that of having a 
humanitarian level of hardship.
    And the one thing good about this law is that it requires 
people who have been here to leave. That is not a problem. But 
it is the issue of when they can come back. If you can show 
hardship, if you can have the U.S.-citizen spouse, if you have 
children, create a standard by which children are considered 
under the hardship standard.
    Ms. Lofgren. What about employees? I know of a case where 
somebody was subject to the bar, and all of the Americans who 
worked for his business got laid off because the business had 
to close.
    Mr. Kuck. It is a very common situation, and we hear this 
every single day from individuals who simply cannot fix the 
immigration status of some of their key employees. By changing 
the standard, we will literally save millions of American 
families and businesses.
    Ms. Lofgren. Let me ask you another question on two things, 
the false claim to citizenship and convictions for an offense.
    There is no real waiver provision, and I am wondering--
certainly, you don't want people to make false claims as 
citizens.
    I was mentioning to Ms. Jackson Lee, as we walked back from 
the last vote, about a woman I knew when I was growing up. She 
was married to a friend of my father's, and they were married 
for 25 years. And for their 25th wedding anniversary, they were 
going to go on a cruise. So she went down to get her passport 
and found out for the first time that she was not a citizen of 
the United States. She had been raised by an older brother, and 
they told her that she had been born in the U.S. and she 
believed that she was. And she lived in our neighborhood, and 
they had three children. She was stunned, as you can imagine.
    Under the current law, there would be no remedy for her, 
would there?
    Mr. Kuck. Not only no remedy, but she would be deported and 
never able to come back the rest of her life.
    Ms. Lofgren. On criminal offenses--obviously, we don't want 
criminals to get residence, but I will give you an example, and 
you can tell me whether there is a remedy. This is an actual 
person who I met.
    This person, when they were 18 years old, they were charged 
with a drug offense, and they didn't have any money, and they 
were advised to plead guilty and they would get time served, 
which they did. This person is now 58 years old. He owns a 
business, and he has, like, hundreds of employees been very 
successful, and made millions of dollars in revenue. He went 
out on a business trip, and when he came back, he was put in 
jail.
    I don't really know if there is a remedy for a guy like 
that? I mean, that was a long time ago.
    Mr. Kuck. Unfortunately, under our current law, time is 
simply not relevant. If that conviction was for anything other 
than less than 30 grams of marijuana, he is permanently barred 
from immigrating to the United States.
    There is a waiver available for nonimmigrants to come and 
temporarily work in the United States, but nothing to solve the 
situation permanently.
    That is a very common situation. It happens all the time, 
particularly now that the folks at the border have the 
databases available to them with the information about prior 
criminal convictions,
    Ms. Lofgren. So you wouldn't want to make a blanket rule--I 
know my time has expired.
    You might want a judge to say, you know, take a look at 
something like that, maybe.
    Mr. Kuck. I think giving the judges some discretion again, 
which was just simply taken away from them in 1996, giving it 
back to the judges, you won't increase the workload, but it is 
still going to be in proceedings. But you give the judge the 
ability to use his discretion, his analysis of the facts to 
give somebody back their status.
    Ms. Lofgren. My time has expired and I would like to 
recognize the gentleman from Iowa, the Ranking Member, for 5 
minutes.
    Mr. King. Thank you, Madam Chair.
    And I do thank all the witnesses for your testimony.
    Just going right to it. I wanted to point out a message 
here that I am not sure that this panel was particularly 
attentive to, this language from Ms. Kirchner's testimony. And 
I would ask you if you could speak to the substance of that 
distinction between a legal alien who has committed Social 
Security fraud and an illegal alien under this bill, who has 
committed Social Security fraud and the injustice in the 
outcomes.
    Ms. Kirchner. I thank you for the question.
    The issue is that under the bill, under the amnesty 
provisions, document fraud in various forms is waived for 
admissibility purposes. And so what you have is--many illegal 
aliens who are currently in the country do have false 
documents, do use Social Security numbers of other people, real 
Social Security numbers of real people who are victims of 
identity theft.
    And the difference is, a legal alien would be prosecuted 
and an illegal alien would not. And I think it is an important 
distinction to make. A lot of people who are looking at the 
immigration issue think, what is the difference of fairness 
between illegal aliens who come here to work--and they may be 
very hardworking; no one has to say they are not hardworking. 
But what is the difference between those hardworking illegal 
aliens and hardworking legal aliens?
    And I think the issue we need to look at when deciding what 
a really important, effective immigration reform bill is, is 
what kind of system do we want? Do we want it to be 
transparent? Do we want it to apply equally to everyone, legal 
and illegal?
    That is the reason I made that point. I think it is a very 
important one.
    Mr. King. And the distinction is that if a legal alien 
commits document fraud--say, Social Security fraud--then they 
would presumably, under the law, be tried, prosecuted and 
convicted and deported, but an illegal alien would get amnesty 
under this bill----
    Ms. Kirchner. Amnesty and a valid Social Security number.
    Mr. King. Yes. And a path to citizenship, I might add. And 
I thank you for that observation.
    Then I would also ask you--and I know I asked you this 
question earlier. I know it is one that is a judgment call, one 
that would be awfully hard to analyze. But of those illegal 
aliens that are felons in this country, would it be your 
estimation that more or less than half of them would get 
amnesty under this bill? Because this bill really does give 
amnesty to some felons.
    Ms. Kirchner. It does, Mr. Smith, it does.
    I think the issue is how many categories are waived under 
the inadmissibility grounds in the amnesty provisions. And 
there are all sorts of provisions that are waived for document 
fraud for those who are illegally in the country; and that may 
include illegal aliens who have reentered, and that is a 
felony. So that would certainly include a great number of 
people.
    There are also various provisions in the bill that deal 
with waivers in terms of drug offenses. They would most likely 
allow more people to come in under the amnesty program. So 
there is certainly a good number of felons who would be allowed 
in through these provisions.
    Mr. King. Thank you.
    And I turn to Ms. Gandy. You had cited a study done by the 
Pew Center and I would just ask you, is that adjusted in the 
income statistics that you gave us on dollars per year on a 
native-born, American, female worker versus that of an 
immigrant? Are those adjusted for age or education or job 
skills? Or are they just simply all rolled in together?
    Ms. Gandy. They are accumulated, but they are based on only 
full-time year-round employment. It does not take into 
consideration people who are working part-time or seasonal.
    Mr. King. And beyond that, it doesn't take into 
consideration age or job skills or education. Is that something 
that you think you might be able to get an answer for this 
Committee, to adjust that for those reasons? Because we have 
had testimony here before this Committee about the differences 
between age, job skills and education as far as a contribution 
would be concerned.
    And I ask you also----
    Ms. Gandy. There have been studies like that, for example, 
on the male/female wage gap.
    Mr. King. And then you are familiar with what I am looking 
for with the distinctions between the females in these 
categories that you have testified. And I would ask you if you 
have had a chance to review Robert Rechter's study of the 
Heritage Foundation on households headed by high school drop-
outs, and if you have an opinion on that.
    Ms. Gandy. I generally read everything from the Heritage 
Foundation, but I am not familiar with that study.
    Mr. King. I thank you.
    And I quickly turn to Mr. Bonner. Mr. Bonner, you have 
often testified before this Committee on the need to shut off 
the jobs magnet, and I would ask you a couple of things. Does 
H.R. 750 shut off the job magnet; and do you believe that this 
bill gives amnesty to criminals?
    Mr. Bonner. Based on my knowledge, it does not shut off the 
job magnet. And I was heartened to hear Congresswoman Jackson 
Lee portray this bill as a complement to other legislation that 
is out there.
    And as far as whether it gives amnesty to criminals, yes, I 
believe it does; and it gives it to a number of other people. I 
think that most Americans have a soft spot in their heart for 
someone who has been here for a long time; you know, an example 
that comes to mind is someone who came here illegally 20, 25 
years ago, has several children who speak nothing but English.
    But I think before we can engage in a meaningful debate 
over whether we should give amnesty to which class of people, 
we really need to address the problem, because as long as 
people keep coming across the border illegally, the big 
question in everyone's mind is, when will it stop?
    If we grant amnesty to this next wave, because we did it 
back in 1986, and if we do it again, people will say, well, 
when does it end? And I think that we really have to come to 
grips with that and finally solve it once and for all before we 
can engage in a meaningful debate over how we deal with the 
people who are here illegally.
    Mr. King. I thank you, Mr. Bonner. And I agree with you.
    And I thank all the witnesses for your testimony. I regret 
I have no more time to ask any further questions, but I yield 
back to the gentlelady.
    Ms. Lofgren. Thank you.
    And before I recognize Ms. Jackson Lee, I just wanted to 
say something I neglected to say in the example of the 
gentleman, who took the advice of his public defender when he 
was 18, is that he actually was a legal, permanent resident, a 
green card holder. It was when he went out and came back in, 
that is when he was arrested.
    So he wasn't in an illegal status, but he got in trouble.
    Ms. Jackson Lee is now recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chair.
    And to the witnesses, let me apologize. I will be talking 
like the bionic woman in terms of speed. And the reason is, I 
would like to get all of the witnesses who have been so able, 
to answer a question; and I will submit others in writing. So 
if your answers can be succinct.
    But let me also thank the Chairwoman and the Ranking Member 
for this hearing and note, in particular, her example that many 
of these individuals who are in the criminal justice system 
are, in fact, documented and therefore separated from their 
families, businesses collapse; and so we are talking about a 
fix that involves legal immigration as well.
    And to my good friends who use the term ``amnesty'' as 
well, you know that I raise an opposition to that because I 
believe it is putting criteria in place to allow people to 
enter through a process that works.
    Let me, first of all, thank Dr. Spriggs, Gregory Siskind, 
Charles Kuck, Christopher Nugent, Kim Gandy, T.J. Bonner, and 
certainly, Ms. Kirchner. But I thank you, the witnesses, very 
quickly.
    And I do acknowledge Jeff Kuck, who hopefully will write 
some good legislation for us.
    I am going to ask quickly one question per person.
    Quickly, Dr. Spriggs--and thank you for your research; I 
would like to get some more on it--the Save America 
Comprehensive Immigration bill calls on employers to make 
extensive searches for American workers. It has retention and 
training. But I want to know how that kind of process--it says 
make extensive searches for workers in low-wage occupations. 
Explain how requiring employers to do that can protect U.S. 
workers.
    And I need a quick answer as I am going down. And I will 
ask other questions of you in writing. Thank you for your 
economic perspective as well.
    Mr. Spriggs. Well, I think as long as we put in regulations 
how that would be done so that all workers would have access to 
the process that they were using, we would open up the labor 
market. All markets work better if there is an equal sharing of 
information. And that is how it would help all workers, native 
and legal immigrant workers, if we had a low-wage labor market 
that had open information on, how do I get a job.
    Ms. Jackson Lee. And in the bill--when we talk about 
comprehensive immigration reform, Dr. Spriggs, you believe a 
parallel effort to deal with American workers is important?
    Mr. Spriggs. Yes, because the job training portion will 
take the supply of low-skilled American workers and reduce it. 
And that is an important step in addressing the problem of all 
low-skilled workers.
    And so the job training portion is an important 
counterpoint to what the bill would do.
    Ms. Jackson Lee. Thank you.
    Mr. Siskind, can you quickly talk--I think the bill is 
based on family-based visas. I think there is some question 
about employer-based visas and the need thereof. And, you know, 
you might just expand very quickly on a consulate interview and 
how that undermines, maybe, the process of legal immigration.
    Mr. Siskind. I think people are surprised at how little 
there is in an interview. The process itself is usually only a 
couple of minutes, maybe 5 minutes. It is oftentimes standing 
up with an officer behind a window which is itself a somewhat 
intimidating process.
    The officer may be asking legal questions that the 
individual doesn't understand. And even though the officers are 
trained in the foreign language and are supposed to be fluent, 
oftentimes there is still something lost in translation; and an 
immigrant doesn't have a lawyer present with them.
    A lot of this, as far as what we know happens, is basically 
what our clients tell us because lawyers rarely get to attend 
an interview and they can't have a translator and they can't 
have the citizen-sponsor available to them. And these same 
issues arise in the employment context as well, where you may 
have somebody that is waiting years.
    Ms. Jackson Lee. How will this legislation help or what do 
you think needs to be added?
    Mr. Siskind. The legislation, I think, on the family side 
is great, and it provides a process that has been needed, as I 
mentioned, probably for decades.
    I would like to see employment-based green cards added, as 
well, to that process. I mean, in an ideal world it would be 
all nonimmigrant cases as well, but if you have to start 
somewhere, I would start on the immigrant visa side. And the 
same issues arise in the employment-based green card context 
where you may have----
    Ms. Jackson Lee. That would diminish the extent of illegal 
immigration because there would be a process?
    Mr. Siskind. Yeah. I think so.
    Ms. Jackson Lee. Thank you and forgive me.
    Mr. Kuck, you made a valid point about how much we could 
eliminate illegal immigration if we expanded some of the 
provisions that you spoke to. Could you just point on that 
quickly? Because that is what everyone is listening to, the 
whole question of illegal immigration. We have made that case 
because of where we stand today.
    Can I ask for an additional 1 minute to try to get through 
my----
    Ms. Lofgren. The gentlelady is granted an additional minute 
by unanimous consent.
    Mr. Kuck. It is quite clear from the numbers that we see 
that if we want to truly eliminate the issue of illegal 
immigration in the United States, it is going to be impossible 
to deport 12 million people. You can begin to reduce that pool 
with people that have strong ties to the United States and, in 
fact, are married to U.S. citizens and take literally, 
instantaneously, 3 million people out of the illegal immigrant 
pool. It is going to be much easier to handle those that are 
left over.
    This bill, in fact, would do that, and we strongly support 
its passage for that reason.
    Ms. Jackson Lee. Thank you. And I am going to quickly ask 
the questions of the last three witnesses and they can answer.
    Mr. Nugent, you captured the way to stop ``catch and never 
come back'' as a full ``catch and release and never come back'' 
as opposed to ``catch and release and return.'' So I am going 
to ask you to expand on that quickly.
    Ms. Gandy, what do you think it is like to be a woman with 
a child and to be brought in by a registered sex offender and 
to be vulnerable, what this bill does on that issue?
    Mr. Bonner, we have worked together on many issues and 
thank you for your insight on employee verification. But there 
are two Border Patrol agents that I think have suffered an 
injustice, and this bill talks about professional development 
and training. And, frankly, I believe that if management who 
made the initial decision, the initial assessment of these two 
line officers--I call them line officers--had a sense of 
professionalism and their own confidence and some structure 
which is dealt with here--training, compensation--that maybe 
this could have been handled in the field as opposed to the 
extent to which it went.
    So if you can comment on this bill as it professionalizes 
the Border Patrol agents, and if you can quickly answer, I 
would appreciate it.
    And I thank the gentlelady for her time.
    Mr. Nugent, quickly.
    Mr. Nugent. Yes. I think what is innovative about section 
622(b) is that it provides a safety valve for releasing 
vulnerable populations from detention into secure alternatives. 
And by doing so, DHS can continue to arrest and detain as many 
people as possible, but with a safety valve for vulnerable 
populations.
    It also reduces liability for DHS for inadequate medical 
care and other violations that occur in the detention centers. 
And I would note that the bill actually authorizes an 
additional 100,000 detention beds. But you can have people 
going through a continuum to get to secure alternatives, and 
then with the 94 percent compliance rate, they will be deported 
ultimately if they have no relief.
    Ms. Lofgren. The gentlelady's time has expired. We are 
going to give it an additional 30 seconds so the remaining 
witnesses can very quickly answer, and then we will be able 
to----
    Ms. Gandy. Thank you.
    It certainly is extremely important that women and children 
who are brought into the country not be brought here for the 
purpose of abuse and exploitation; and the likelihood of that 
when they are brought into the country by a registered sex 
offender, is dramatically increased.
    But I also think that although that is a wonderful 
provision, we need to even go beyond that to make sure that 
women and children are not brought in to this country for the 
specific purpose of exploitation.
    Ms. Jackson Lee. Thank you.
    Mr. Bonner.
    Mr. Bonner. Very quickly. The professionalism of the Border 
Patrol would increase under the provisions of this bill. 
Whether that would have helped those two agents, I am not so 
sure, because I think they are victims of a greater political 
agenda of a renegade U.S. attorney.
    Ms. Jackson Lee. I thank you.
    I thank the Chairwoman. And I simply want to acknowledge 
Nolan Rappaport, who was very instrumental in gathering all the 
thought processes that generated in this bill. And I thank your 
staff very much for their assistance.
    Ms. Lofgren. Thank you very much.
    And I would thank all the staff, and also note that Dr. 
Spriggs' students have been here, and we extend a welcome to 
them, as well, and thank all the witnesses.
    We have 5 legislative days to submit any additional 
questions that Members may have. And if we do have such 
questions, we ask that you do your best to answer them 
promptly.
    Again, we thank you for taking the time to share your 
expertise with us. A lot of people don't realize that the 
witnesses before congressional Committees are essentially 
volunteering their time to the country. And we do appreciate 
that you are--your willingness to do that.
    And I, for one, have learned a lot in this hearing. So 
thank you very much and this hearing is adjourned.
    [Whereupon, at 12:48 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    In a hearing on September 6, our Subcommittee examined H.R. 1645, 
the ``Security Through Regularized Immigration and a Vibrant Economy 
Act of 2007,'' otherwise known as the STRIVE Act. Today, we will review 
H.R. 750, the ``Save America Comprehensive Immigration Act of 2007.'' 
Both bills contain the necessary elements of comprehensive immigration 
reform to fix our broken immigration system. In addition the Save 
America Act contains several provisions that would complement the 
STRIVE Act.
    I would like to commend our Subcommittee colleague, Congresswoman 
Sheila Jackson Lee, for not only drafting and introducing H.R. 750, but 
also for her service on behalf of comprehensive immigration reform and 
immigration in general in the 110th Congress and in many Congresses 
before the 110th, especially as the Ranking Member of this Subcommittee 
for many years. Since I can remember, Representative Jackson Lee has 
always been a tireless champion for immigration reform.
    I was personally enormously disappointed when the Senate was unable 
to proceed on comprehensive reform this spring. We were prepared on the 
House side to tackle this important issue. But, because of Senate 
inaction, we didn't get the chance to proceed on hearings or a mark-up 
on comprehensive immigration reform.
    The details matter, and today we will get information and details 
on the Save America Act. We can't know what the future will hold for 
comprehensive reform, but we can be armed with knowledge about 
legislation in the House to meet the immigration challenge.
    Because this hearing is about Congresswoman Jackson Lee's bill, I 
would like to yield the balance of my time to my colleague from Texas 
so that she may properly introduce the subject of our hearing today.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    I want to begin by thanking the Chair of this Subcommittee, Zoe 
Lofgren, for holding a hearing on my Save America Comprehensive 
Immigration Act of 2007, H.R. 750 (Save America Act).
    Immigrants come to the United States today for the same reason so 
many millions came before them, in this century and last, from this 
continent and from every other. They come for the same reasons that 
many of our ancestors left the cotton fields of Mississippi and Alabama 
for the factories of Detroit and Cleveland, the packing houses and 
office buildings of Chicago, and shipyards of Philadelphia and Los 
Angeles and New York.
    They come for the same reason families have always come to America: 
to be free of fear and hunger, to better their economic opportunities, 
to begin their world anew, and to give their children a chance for a 
better life. Like previous waves of immigrants, they too will wage all 
and risk all to reach the sidewalks of cities such as my home of 
Houston. Or Los Angeles. Or Phoenix. Or Chicago. Or Atlanta. Or Denver. 
Or Detroit.
    As we did on the back roads of Georgia and Tennessee and Alabama, 
they will risk death in the desert; they will brave the elements, they 
will risk capture and crime, they will endure separation from loved 
ones.
    And if they make it to the Promised Land of America, no job will be 
beneath them. They will cook our food, clean our houses, cut our grass, 
and care for our kids. They will be cheated by some and exploited by 
others. They work in sunlight but live in twilight, between the 
shadows; not fully welcome as new Americans but wanted as low-wage 
workers. Somewhere near the borders tonight, a family will cross over 
into the New World, willed by the enduring power of the American Dream.
    First, I believe that an integral component of any comprehensive 
immigration reform is a component that ensures that at least some of 
the immigration fees be used for education and job training of 
Americans. That is why Title VII of my legislation requires a portion 
of the filing fees for temporary visas for guestworker visas and for 
the process of earned legalization should be set aside to establish a 
job training and job development fund. The fund would be used to 
establish employee training programs for American workers.
    The training programs would afford a wealth of job opportunities 
for African American males and other underemployed populations. The 
fund also should provide job training for the middle-aged American 
workers who have been or are in danger of being replaced by foreign 
workers. The job development fund could also be utilized to encourage 
job development in low employment areas.
    I would also like to address the misperception that immigrants are 
taking jobs away from American workers. This possibility is greatly 
exaggerated by those who would wish to gain our support with their 
anti-immigrant objectives. Among other things, the American economy 
does not have a fixed number of jobs. Economists describe the notion 
that the number of jobs is fixed as the ``lump of labor'' fallacy. Job 
opportunities expand with a rising population. Since immigrants are 
workers and consumers, their spending on food, clothing, housing, and 
other items creates new job opportunities. I expect this to become more 
evident when we finally get around to fixing our broken immigration 
system and the over 12 million undocumented immigrants in the United 
States no longer have to live in the shadows of society.
    Everyone agrees that we need to reform our broken immigration 
system. The only disagreement is over how to do it. The most 
controversial question is whether we should provide access to 
legalization for the 12 million undocumented immigrants who are living 
in the shadows of our society.
    In addition to the fact that many of them have earned access to 
legalization, it is not in the best interests of the country to let 
them remain in the shadows. Among other things, it is a security 
problem to have such a large population of immigrants in our country 
that we do not know anything about. I also know that immigrants cannot 
be equated with terrorists. Reducing the population of undocumented 
immigrants who are here to work would make it easier to find the people 
who are here to do us harm.
    Opponents of immigration reform advocate an enforcement-first 
approach to dealing with our immigration problems. That approach would 
not work. Immigrants who want to work in the United States to make a 
better life for themselves and their families must have a legal way to 
do it, just as employers who need foreign employees must have a way to 
bring them to the United States. Otherwise, illegal immigration will 
continue to be problem.
    The only effective solution is comprehensive immigration reform. I 
have introduced a bill that would provide such reform, the Save America 
Comprehensive Immigration Act of 2007. Let me note briefly a few of its 
provisions. It requires the Secretary of Homeland Security to impose a 
10% surcharge on fees collected for employment-based visa petitions. 
These funds would be used to establish much needed employment training 
programs for our rural and urban areas.
    It has three legalization programs. It would require the Secretary 
of Labor to conduct a national study of American workplaces on the 
exploitation of undocumented alien workers by their employers. It also 
provides the Border Patrol with the personnel, resources, and equipment 
that it needs to secure the border. Our borders will continue to be out 
of control until we have immigration reform that provides more 
opportunities for immigrants to come to this country legally.
    In summary, the Save America Act covers a broad range of issues, 
many of which are not addressed by other bills. This has been 
recognized already by some leading Members of Congress. For instance, 
Senator John Kerry added the ``Rapid Response Measures,'' in Subtitle A 
of the Save America Act, to the Senate's Comprehensive Immigration 
Reform Act of 2006, S. 2611.
    The Rapid Response Measures would permit the Secretary of the 
Department of Homeland Security to deploy up to 1,000 additional border 
patrol agents to a crisis area along the border if the governor of the 
border state has declared an international border security emergency, 
and the governor has requested the additional agents.
    The Rapid Response Measures also would provide border patrol agents 
with 100 additional helicopters, 250 additional power boats, control of 
border patrol assets, one police-type vehicle for every three border 
patrol agents, portable computers for vehicles, effective radio 
communication, hand-held global positioning system devices, night 
vision equipment, body armor, and the weapons the border patrol need 
when they encounter heavily armed men guarding drug caravans.
    These provisions are also included as ``Rapid Response Measures'' 
in Subtitle F of the Security Through Regularized Immigration and a 
Vibrant Economy Act of 2007, H.R. 1645 (the STRIVE Act).
    Although I am pleased that my Rapid Response Measures are being 
used in other immigration reform bills, I believe that it is inadequate 
to incorporate them in only a piecemeal fashion which neglects other 
important provisions of this important legislation. The origin of those 
provisions was my Rapid Response Border Protection Act of 2005, H.R. 
4044, and the rest of the provisions in H.R. 4044 are also necessary, 
such as the personnel provisions for addressing recruitment and 
retention issues at CBP. I included all of these important provisions 
in the Save America Act.
    T.J. Bonner, the President of the National Border Patrol Council, 
provided invaluable information on the needs of Border Patrol agents 
when the Rapid Response Border Protection Act was being written. His 
testimony today will include an explanation of why the rest of the 
provisions from that bill are necessary.
    Furthermore, the Save America Act has provisions to establish a 
Fraudulent Documents Task Force which could strengthen the fraud 
provisions in the STRIVE Act. The task force would collect information 
from United States and foreign law enforcement agencies on the 
production, sale, and distribution of fraudulent documents. In addition 
to distributing this information on an ongoing basis to where it is 
needed, it would maintain a database that would be available to the law 
enforcement community both here and abroad.
    Although the STRIVE Act has good detention provisions to reduce the 
number of aliens who are detained in penal institutions, such as the T. 
Don Hutto Residential Center in Taylor, Texas, the Save America Act 
addresses the plight of detained aliens in a much more comprehensive 
fashion. The Save America Act would establish a Secure Alternatives to 
Detention Program under which children and other vulnerable populations 
would be released to the custody of suitable individuals or 
organizational sponsors who would supervise them, prevent them from 
absconding, and ensure required appearances. The program would be 
developed in consultation with non-governmental experts in the 
immigration and the criminal justice fields, with consideration given 
to the program developed by the Vera Institute and the DHS Intensive 
Supervision Appearance Program.
    Chris Nugent, who will be testifying today, is an expert on 
detention facilities for families and other vulnerable populations. He 
provided valuable information when the Secure Alternatives Program was 
being drafted. He will testify about the program and explain how it 
would strengthen the detention provisions in the STRIVE Act.
    Moreover, I do not think that an immigration reform bill can fix 
our broken immigration system without addressing the problems created 
by the Illegal Immigration Reform and Immigrant Responsibility Act of 
1996 (IIRIRA). Among other things, IIRIRA established a deportation 
ground based on aggravated felony convictions, redefined ``aggravated 
felony'' without regard to the seriousness of the criminal offenses 
being classified as ``aggravated felonies,'' and made these changes 
retroactive.
    Lawful permanent residents have been deported as aggravated felons 
for minor offenses that did not result in incarceration and were not 
deportation grounds when they were committed.
    Charles H. Kuck, the National President-Elect of the American 
Immigration Lawyers Association (AILA), will testify about the need for 
IIRIRA fixes. He is an immigration law expert who has had extensive 
experience representing aliens who are victims of IIRIRA's harsh 
provisions.
    Lastly, the Save America Act has provisions that would make it 
difficult for Americans who are on the National Sex Offender Registry 
to use our immigration laws to bring victims of sexual abuse into the 
country. These provisions would authorize the denial of a family-based 
visa petition for a spouse or child if (A) the petitioner is on the Sex 
Offender Registry for a conviction that resulted in incarceration for 
more than a year; (B) the petitioner has been given at least 90 days to 
establish that he is not on the registry or that he was not 
incarcerated for more than a year for the offense and has failed to do 
so; and (C) a finding has been made that granting the petition would 
put a spouse or child beneficiary in grave danger of being sexually 
abused.
    Why is this necessary? I asked the General Accountability Office 
(GAO) to find out how many Americans on the national sex offender 
registry filed family-based visa petitions in FY2005. They found 
records of 398 American petitioners who filed family-based visa 
petitions were on the National Sex Offender Registry.
    GAO was only able to ascertain the nature of the offenses for 194 
of the 398 petitioners. These offenses included 119 convictions for 
sexual assault, 35 for child fondling, nine for strong arm rape, nine 
for carnal abuse combined with a sexual assault, seven for statutory 
rape, four for crimes against persons, three for indecent exposure, two 
for kidnapping, two for obscene material possession, one for 
exploitation of a minor with photographs, one for incest with a minor, 
one for sodomizing a boy, and one for restricting movement.
    The Immigration and Nationality Act did not permit a denial of any 
of those visa petitions on the ground that approval could endanger the 
woman or child being brought to the United States. Since then, 
statutory provisions in criminal legislation have made it possible to 
deny visa petitions if the American sponsor has been convicted of any 
of a substantial list of criminal offenses. Aside from the absence of 
due process in challenging such denials, the provisions are not 
comprehensive enough with respect to sex offenders.
    In addition, as the Chair of the Congressional Black Caucus 
Immigration Task Force, let me briefly describe what the Congressional 
Black Caucus thinks should be done.
    The Congressional Black Caucus (CBC) recognizes the need for a 
comprehensive approach to immigration reform that includes increased 
security, protection against illegal immigration, immigration policies 
that have articulated objectives and fair administration of our 
immigration system. To that end, the CBC has adopted four principles to 
guide its deliberation regarding immigration reform.

BORDER SECURITY:

    The federal government has the responsibility to protect, through 
border security and other means, against immigrants illegally entering 
the country and/or overstaying their authorized periods of admission. 
The CBC, therefore, supports funding for border security equipment, 
border patrol agents, enforcement and other resources as reasonably 
necessary to accomplish those objectives.

ECONOMIC OPPORTUNITY AND FAIR WAGES FOR LEGAL WORKERS:

    All citizens and legal workers in the United States should be 
assured education and job training, non-discriminatory employment 
opportunity and a livable wage. The CBC, therefore, supports increased 
funding for education and job training utilizing fees generated from 
new immigration provisions and other resources and supports increased 
funding for enforcement of laws against employment discrimination, wage 
and hour violations, unfair labor practices and illegal hiring. The CBC 
also supports holding employers accountable for the legal status of 
their employees.

DIVERSITY AND EQUAL TREATMENT:

    The CBC supports immigration criteria that will increase the 
diversity of immigration from countries that have historically been 
underrepresented, such as countries in the Caribbean and Africa, or 
treated unequally, such as Haiti.
    It is important to keep in mind which groups bear the brunt of the 
bad policy proposals in the immigration debate. They are primarily 
people attempting to migrate from Africa, Haiti and the Caribbean, 
Latin America, China, and other regions. While African Americans did 
not cross the borders to the United States voluntarily, historically as 
now, people of color (immigrants of color) are scapegoats for the 
economic ills of the United States and subjected to exclusionary laws 
that African Americans have fought since slavery.
    Equally important, we must not forget who benefits from current 
immigration crisis. It is neither immigrants nor native citizens, but 
corporations and businesses that thrive on a tilted economic system 
that exploits low wage workers, divides people who have common 
interests with 'us versus them' wedge politics, and hinders racial 
justice advocates from winning policies that promote living wages, 
economic mobility and equal opportunity for all members of our society.

EARNED ACCESS TO CITIZENSHIP:

    Finally, the CBC supports earned access to lawful permanent 
resident status for persons currently in the United States that takes 
the following factors into account:

        <bullet>  Unification of immigrant families, which would 
        include uniting immigrants with spouses, children or other 
        close family members who are citizens or lawful permanent 
        residents of the United States;

        <bullet>  Proven employment records through temporary and guest 
        worker programs or other temporary residence programs; and

        <bullet>  Such reform of earned access to citizenship should 
        also include a path to permanency for the undocumented already 
        here.

    We can and should distinguish between those who have come here out 
of their love for the United States and what it represents and the 
opportunities it affords for a better life from those who come because 
they hate America and wish to kill or injure Americans.
    Surely, it makes more sense to concentrate our resources on the 
latter and persuade the former to come out from the shadows. We will 
not persuade them to come into the light if all we offer is an armed 
escort back to the place of economic or political hopelessness they 
fled. To paraphrase Edmund Burke, the original English conservative, we 
will not encourage undocumented workers to come out from the shadows if 
everywhere they look ``they see nothing but the gallows.''
    Why not, instead, say to those undocumented workers who are working 
jobs most Americans will not take: come out from the shadows and earn 
the chance to apply for citizenship in this country? You broke the law 
to come here, and you must acknowledge that you did by going to the 
back of the line, paying a substantial fine, staying employed, learning 
our language, paying taxes, obeying our laws, waiting your turn, and 
earning the right to become an American.
    I know that many Americans of goodwill have a different view of the 
problem and advocate different solutions to the immigration challenge 
facing America. That does not make them bad people. It simply means we 
must redouble our efforts to get our message out. It means we need to 
work harder at rebutting the disinformation that is spread by pundits, 
commentators, and politicians. As President John Kennedy famously 
noted:
    ``The great enemy of the truth is very often not the lie--
deliberate, contrived and dishonest, but the myth, persistent, 
persuasive, and unrealistic. Belief in myths allows the comfort of 
opinion without the discomfort of thought.''
    I think we should welcome and embrace the opportunity to debate 
comprehensive immigration reform. Truth and right is on our side. We 
will win the debate if we stand up for what we believe and engage in 
meaningful dialogue. After all, that it what it is going to take to 
find the common ground necessary to solve the immigration problem and 
move America forward.
    I thank Chairwoman Lofgren for convening this important hearing on 
my legislation and offering me an opportunity to summarize the unique 
and comprehensive approach to our immigration crisis offered by H.R. 
750, the Save America Comprehensive Immigration Act of 2007.
    Reforming the nation's immigration system so that it secures the 
borders, does not lower American living standards, reflects American 
values, and ensures that our country remains a beacon of hope and 
opportunity forever is a daunting challenge. I know this is hard and 
tiring work. But remember, as the Rev. Dr. Martin Luther King often 
said:
    ``We shall overcome because the moral arc of the universe is long 
but it bends toward justice. We shall overcome because Carlyle is 
right--no lie can live forever. We shall overcome because William 
Cullen Bryant is right--truth crushed to earth will rise again.''
    I also ask that proponents of comprehensive immigration not to be 
discouraged by the legislative challenges we face because the 
Scriptures tell us that ``weeping lasteth for a night, but joy cometh 
in the morning.'' Let us march on till victory is won. Thank you very 
much, and I yield back the remainder of my time.

                                <F-dash>

Prepared Statement of the Honorable Hilda L. Solis, a Representative in 
                 Congress from the State of California
    I would like to applaud the Subcommittee, under the leadership of 
Chairwoman Lofgren, for holding numerous hearings on the issue of 
immigration reform this past year. I am hopeful that these hearings 
will provide the framework to fix our broken immigration system.
    I realize that immigration is a multifaceted issue. As the former 
Co-Chair of the Congressional Caucus for Women's Issues and the 
daughter of immigrants, one issue of great concern to me is the 
protection of immigrant women and children. Female immigrants, both 
documented and undocumented, often work in industries with low-wages, 
have little or no access to healthcare, legal assistance, or economic 
justice. In addition, approximately 8,000 children seek safety in the 
United States each year and many arrive unaccompanied by adults.
    I am a cosponsor of H.R. 750, which among other things, has a 
strong focus on protecting immigrant women and children from registered 
sex-offenders who take advantage of the current family-based visa 
petitions to bring into the U.S. children and women from abroad. 
According to a recent Government Accountability Office (GAO) study, in 
fiscal year 2005, at least 398 of the citizen and legal permanent 
resident (LPR) petitioners who filed family-based visa petitions were 
on the National Sex Offender Registry that is maintained by the Federal 
Bureau of Investigations (FBI). We must take steps to protect women 
migrants from sex offenders and H.R. 750 does just that.
    We cannot turn a blind eye to the injustices that are plaguing the 
immigrant community. I strongly support comprehensive immigration 
reform which provides for family reunification, earned legalization, 
educational opportunities, and honors our tradition as a nation of 
immigrants. I respect the difficult task which lies ahead and urge my 
colleagues to move forward with a solution that protects and enforces 
our borders while respecting the hard work and contributions of 
immigrants to our country.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Answers to Post-Hearing Questions from the Honorable Sheila Jackson Lee 
 posed to the Honorable Carolyn Cheeks Kilpatrick, a Representative in 
                  Congress from the State of Michigan
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
